<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                       WEDNESDAY, APRIL 27, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:47 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Specter, Bond, Shelby, 
Gregg, Burns, Inouye, Byrd, and Feinstein.

                         DEPARTMENT OF DEFENSE

                        Office of the Secretary

STATEMENT OF HON. DONALD H. RUMSFELD, SECRETARY OF 
            DEFENSE
ACCOMPANIED BY:
        GENERAL RICHARD B. MYERS, U.S. AIR FORCE, CHAIRMAN, JOINT 
            CHIEFS OF STAFF
        HON. TINA JONAS, UNDER SECRETARY OF DEFENSE--COMPTROLLER

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Secretary Rumsfeld, General Myers, we 
welcome you back before the subcommittee at this important time 
for our Nation and the Department of Defense (DOD) and we 
welcome the Comptroller, Tina Jonas. The focus of our hearing 
today is on the fiscal year 2006 defense budget. This is our 
normally scheduled hearing where we ask the Secretary of 
Defense and the Chairman of the Joint Chiefs to testify near 
the end of our hearing cycle to provide their important 
perspectives on the budget.
    General Myers, I understand this may be your last hearing 
with us as you plan to retire this year after 40 years of 
service. We hope we will see you again, but in any event we 
congratulate you and commend you for your service to our Nation 
and your appearances before our subcommittee and for your 
personal friendship.
    General Myers. Thank you, Mr. Chairman.
    Senator Stevens. We have enjoyed that very much.
    General Myers. Thank you.
    Senator Stevens. The budget request for defense reflects a 
shift in priorities for the Defense Department, spending more 
on personnel, the defense health programs, special operations 
forces, chemical and biological defense, and restructuring Army 
and marine ground forces and less on aircraft and ships 
designed for conventional war.
    The subcommittee continues to review this request and we 
look forward to this hearing today and the discussion with you 
of your priorities in the budget regarding investments for the 
future of our military. We would also welcome any operational 
update you may wish to provide.
    Your full statements will be part of our subcommittee 
record. We would ask each member to be limited to 5 minutes in 
an opening round of questions. Time permitting, we will proceed 
to a second round of questioning.
    I would like to ask our chairman if he has any remarks. 
Chairman Cochran, do you wish to make a comment?

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, no. I just join you in 
welcoming our distinguished witnesses and commend them for the 
tremendous leadership that they are providing to our country in 
this very important time in our history.
    Senator Stevens. Thank you very much, Mr. Chairman.
    Our co-chairman, Senator Inouye.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Mr. Chairman, thank you. I want to echo 
your comments in thanking General Myers for his long service to 
our Nation and for the stellar job he has done. I can tell you 
that we sincerely appreciate all you have done for us.
    General Myers. Thank you very much.
    Senator Inouye. Gentlemen, the Defense Department has 
received unprecedented funding levels during the past few 
years. Even in inflation-adjusted dollars, the levels surpass 
anything we have seen since World War II. One would think that 
with the funding that has been provided we would not be facing 
any budgetary issues. Unfortunately, that is not the case.
    We understand the services are having problems with 
recruiting and retaining military personnel. We know that some 
have raised concern about the proposed cuts in the F-22, C-130, 
and shipbuilding. We recognize that there is a great demand to 
expand pay and benefits for men and women who serve. So too, 
there are difficult policy questions being considered.
    So how does the military adapt to improve intelligence 
capability without violating policies on the conduct of covert 
activity? Will we require a permanent increase in our forces to 
meet the challenges that the Nation faces today? Is the Nation 
prepared to implement changes in defense policy regarding space 
control? Does the new conventional global strike concept create 
challenges for arms control treaties?
    Today we have more than 150,000 men and women deployed in 
harm's way in Iraq and Afghanistan, and their willingness to 
serve and the heroism they have displayed every day is an 
inspiration to all of us. We know you share our goal to ensure 
that they are taken care of. Together we have a responsibility 
to provide them with the equipment they need to fight, to offer 
support for their families back home, and to guarantee fair 
policies which ensure equitable treatment for each service 
member across all departments.
    I am certain I speak for all when I say we appreciate all 
that you have done on our behalf.
    So, Mr. Chairman, General Myers, we are most pleased you 
could be with us to share with us your views, and I look 
forward to the testimony.
    Thank you very much.
    Senator Stevens. May I ask if any member has a problem and 
must leave before we have a chance to hear the Secretary and 
General through? Senator Bond.

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Thank you very much, Mr. Chairman. My 
apologies to my colleagues, but we are trying to get the long-
delayed highway bill to the floor at 11 o'clock and there is 
some interest, as I gather from talking to my colleagues, about 
trying to pass the highway bill. If it is all right, I would 
like to make a very brief statement to our distinguished panel, 
leave some questions for the record, because I will not be able 
to participate.
    Senator Stevens. Each member is going to be recognized for 
5 minutes. We would recognize you at this time, Senator.
    Senator Bond. Thank you very much, Mr. Chairman.
    Mr. Secretary, General Myers, Under Secretary Jonas: We 
thank you for being here, the great work you do, the positions 
and responsibility you hold. Several items that are very 
important to me and to the people I serve. As founding co-chair 
of the National Guard Caucus, we do not have to tell you that 
50 percent of the combat force in Iraq and approximately 40 
percent of the entire force is composed of the National Guard. 
Anybody who knows the Guard, as I have known from working as 
their commander in chief in Missouri for many years, knows that 
it comes at a price.
    Lieutenant General Blum has expressed concern about 
equipment shortfalls for Guard forces here at home, and I would 
ask most respectfully that you focus your attention on the 
readiness needs of the CONUS-based forces. Additionally, I 
would ask that you review the future total force (FTF) strategy 
of the Air Force, which has many Guard leaders and several of 
my colleagues and me concerned that the future total force may 
turn into a futile total force if the Air Guard is not provided 
a substantive role.
    I have two letters that I recently received copies of from 
senior representatives of the National Guard. I will provide 
those for the record and copies for you, sir. A letter from 
Major General Rataczak, the President of the Adjutants General 
Association, to General Jumper expressing concerns about the 
FTF, stating that ``Issues exist that could be very detrimental 
to the National Guard, to the point of irreversible 
deterioration. In particular, we fear the initiative as we 
understand it will cause serious gaps in the capability to 
defend the homeland.''
    The second letter, from Brigadier General Stephan Koper, 
President of the National Guard Association, to Congressmen on 
the House Armed Services Committee (HASC), says: ``Our 
membership is expressing grave concern about the direction of 
the FTF plan and its immediate negative impact on the Air Guard 
force structure. Concerns include continuation of the air 
sovereignty mission, funding transition mission personnel from 
current missions to future missions, and the limited role 
adjutants general have played in the developing the FTF plan 
and its impact on the Air Guard in anticipate of base 
realignment and closure (BRAC).''
    [The information follows:]

                                                    March 17, 2005.
The Honorable Duncan L. Hunter,
Chairman, House Committee on Armed Services, 2120 Rayburn House Office 
        Building, Washington, DC 20515-6035.
The Honorable Ike Skelton,
Ranking Minority Member, House Committee on Armed Services, 2120 
        Rayburn House Office Building, Washington, DC 20515-6035.
    Dear Chairman Hunter and Congressman Skelton: This decade our 
military forces have faced some of the greatest challenges in our 
nation's history. By supporting successful missions in Operation 
Enduring Freedom, Noble Eagle and Operation Iraqi Freedom, while at the 
same time transforming to face the threats of the future, our Air 
National Guard has played a critical role in supporting U.S. strategic 
interests at home and abroad.
    Currently, the Department of the Air Force is developing its 
transformation plan, called Future Total Force (FTF). Over the years, 
the ANG has proven its willingness to transform and evolve. However, 
our membership is expressing grave concerns about the direction of the 
FTF plan and its immediate negative impact on Air Guard force 
structure. Such concerns include: continuation of the Air Sovereignty 
missions; funding to transition personnel from current missions to 
``future missions;'' the limited role that The Adjutants General have 
played in developing the FTF plan; and the impact these force structure 
reductions will have on Air Guard basing in anticipation of BRAC.
    As you and your staff continue holding hearings, NGAUS respectfully 
requests that the House Armed Services Committee conduct a hearing on 
Future Total Force. Should any hearing be scheduled, we respectfully 
request that the National Guard Association of the United States 
(NGAUS) be invited to testify on behalf of the National Guard and its 
membership to outline the Guard perspective in relation to FTF. In 
addition, we offer to coordinate with you and your staff the selection 
of appropriate Adjutants General that could also offer relevant and 
critical testimony.
    The NGAUS recognizes a need for the Air National Guard to remain a 
ready, reliable and relevant component of our total air force 
capability. We also believe it is imperative that any future force 
modernization discussions that impact the Air National Guard involve a 
cooperative and collaborative interaction with the Adjutants General.
            Respectfully,
                                          Stephen M. Koper,
                          Brigadier General, USAF (ret), President.
                                 ______
                                 

        Adjutants General Association of the United States,
                                     Washington, DC, March 9, 2005.
General John P. Jumper,
Chief of Staff, United States Air Force, HQ USAF/CC, 1670 Air Force 
        Pentagon, Washington, D.C. 20330-1670.
    Dear General Jumper: The Adjutants General of the 54 states see the 
USAF transformation strategy known as Future Total Force (FTF) having a 
profound effect on the Air National Guard (ANG). We want to help the 
Air Force shape a strategy and force structure that uses the ANG to its 
full potential. Homeland defense is a critical issue for us as we are 
responsible to our Governors for homeland security matters.
    Adjutant General involvement with the FTF initiative only began 
recently with three Adjutants General being invited to participate on 
the AF/XP sponsored General Officer Steering Committee (GOSC). 
Lieutenant General Steve Wood has actively engaged us since coming on 
board late last year. His focus on open exchange of information is 
refreshing and is setting a course that will benefit all.
    From our initial perspective the FTF initiative seems to focus on 
accelerated reductions of current weapon systems located predominately 
in the Air National Guard and the relocation of ANG units to active 
duty bases. The loss of flying units will be compensated by rolling ANG 
force structure into new missions to sustain its end strength. Issues 
exist that could be very detrimental to the National Guard to the point 
of irreversible deterioration. In particular, we fear the initiative as 
we understand it will cause serious gaps in our capability to defend 
the homeland.
    Our concern compels us to ask you to undertake actions to refine 
and improve the FTF initiative. These proposals are necessary to 
preserve the Air National Guard, ensure defense in depth of the 
homeland, and provide the most lethal and cost effective force in the 
future.
    The Adjutants General can add significant value to Air Force 
modernization initiatives. First, we feel we should be involved with 
developing and vetting options, and be given the opportunity to 
contribute data and analysis to various studies. Through our Adjutants 
General Association of the United States (AGAUS) we can offer valuable 
ideas and critiques in a timely manner that will enhance the FTF 
initiative by making it more palatable to a broader range of interested 
parties.
    Second, the Air Force should thoroughly evaluate the air 
sovereignty mission after receiving USNORTHCOM requirements from which 
to develop a realistic force structure plan for homeland defense. The 
evaluation should consider weapon system dispersion as well as 
lethality and determine more precisely the extent other services will 
support this vital mission.
    Third, we want to work with the Air Force to develop a roadmap to 
2025 that uses proportionality as a key principle for determining roles 
and missions for the Air National Guard. This is not to say that 
current proportionality must be strictly adhered to. But rather, it is 
a starting point for determining the best mix of active and reserve 
component forces for future operations. We believe increasing full time 
strength for key weapon systems in the ANG deserves evaluation. The ANG 
may more effectively support critical Air Expedition Force rotations 
and other vital missions with a different mix of full time and 
traditional Guard personnel in units.
    Fourth, the community basing plan should be expanded immediately to 
include additional sites and different weapon systems for a more 
comprehensive evaluation. The Adjutants General believe very strongly 
that community basing is a key to sustaining the relevant and ready Air 
National Guard which has performed so magnificently in homeland defense 
and contingency missions.
    Fifth, to sustain an effective ANG end strength of approximately 
107,000 the FTF schedule must be adjusted to slow aircraft retirements 
while accelerating the assumption of new missions by the ANG to avoid a 
lengthy gap between mission changes during the transitory period. A gap 
will cause the loss of experienced personnel while impeding our 
transition to the Air Force of the Twenty-first Century.
    Sixth, the ANG should field new Air Force aircraft weapon systems 
in ratios consistent with our contribution to the war fight and 
interspersed throughout each system's fielding plan. The nation will be 
well served by involving the Air National Guard early on during the 
fielding F/A-22, C-17, and F-35 weapon systems. This would also apply 
to the new tanker and other flying systems (such as intra-theater lift) 
as they emerge from development. The Adjutants General can provide the 
Air Force valuable support if given a clear picture showing ANG 
participation throughout weapon system fielding.
    The Adjutants General have an obligation to nurture the rich 
heritage of the Air National Guard and ensure its readiness and 
relevance. We have defined several principles that will guide our 
actions in influencing the make up of the future of the Air Force.
    1. Retain the militia basing concept which connects the Air Force 
to communities dispersed throughout the nation and provides for agile 
and quick responses to dispersed threats;
    2. Leverage the cost efficiencies, capabilities, and community 
support generated by ANG units in the several states by including them 
as an integral part of the Future Total Force structure;
    3. Each state needs a baseline force for homeland defense which 
includes civil engineering, medical, and security forces;
    4. The Air National Guard maintains essential proportions of flying 
missions to nurture and sustain direct connectivity with America's 
communities while supporting the expeditionary Air Force cost 
effectively, captures the extensive aircrew and maintenance experience 
of the Air National Guard;
    5. The nation is well served by a continuing dialog involving the 
Air Force, National Guard Bureau, and the Adjutants General as new 
missions emerge and threats change.
    Our desire is to work with the National Guard Bureau in developing, 
vetting, and implementing initiatives. We provide perspectives from the 
field that when aligned with the programmatic expertise of NGB will 
result in sound courses of action with solid support from the several 
states.
    Sir, we truly understand and appreciate your Herculean efforts to 
transform the greatest Air Force in the World into something even 
better. We only ask that we are allowed to help in the process.
            Respectfully,
                                         David P. Rataczak,
  Major General, AZ ARNG, President, Adjutants General Association.

    Senator Bond. Finally, the third major item, I would ask 
you to look closely at the Air Force decision not to leverage 
its $68 million investment in the V-3 AESA radar, which upon 
completion of development within the next year will be the most 
advanced weapon system in the world for tactical fighters. The 
V-3 not only increases the expeditionary capability of our air 
forces, it also makes CONUS-based aircraft the most capable 
homeland defense platform in the world, second to none.
    I am mystified why the Air Force elected not to acquire 
this system. If this is the Pentagon's idea of a sound business 
plan, I need to go back to school and take a refresher course 
on good Government.
    I would just--the one question I would ask you, Mr. 
Secretary: Have you been briefed on why the Air Force elected 
to shelve the----
    Senator Stevens. Senator, you may submit the questions.
    Senator Bond. I will submit that.
    Senator Stevens. Thank you.
    Senator Bond. All right, thank you, sir.
    Senator Stevens. Yes, sir.
    Senator Bond. Thank you very much.
    Senator Stevens. Mr. Secretary, we want to recognize you 
and General Myers and then we will proceed with questions from 
the subcommittee.
    Secretary Rumsfeld. Thank you very much, Mr. Chairman, 
members of the subcommittee.
    Sixty years ago, allied forces fought in some of the 
fiercest battles of World War II. The outcome of that difficult 
struggle certainly helped to transform much of the world, 
bringing freedom to distant shores, turning dictatorships into 
democracies, and longstanding enemies into friends. Today 
another generation of Americans, along with our coalition 
allies, have come to freedom's defense and thank you are 
helping millions of liberated people transform their countries 
from terrorist states into democracies.
    Two weeks ago I met again with coalition forces in Iraq and 
Afghanistan and with officials of those countries on the front 
lines of the struggle. Everywhere we traveled I saw first-hand 
the point you made, Mr. Chairman: the men and women in uniform, 
volunteers all, undertaking difficult duties with confidence 
and with courage. The debt we owe them is a great one.
    Members of this subcommittee who have visited with them and 
the wounded here in the hospitals, I thank you for it. You 
cannot help but come away, as I do, inspired by their courage 
and their skill.
    I certainly thank the Congress for providing the resources 
necessary to support them as they complete their missions. It 
is becoming increasingly clear that the sacrifices they are 
making have made a difference in bringing about a world that is 
freer and more peaceful and that rejects terrorism and 
extremism.
    If you think of what has been accomplished in the past 3 
years, we have--Afghans and Iraqis have held historic elections 
and selected moderate Muslim leadership. Extremists are under 
pressure. Americans' national security apparatus is seeing 
historic changes. The North Atlantic Treaty Organization (NATO) 
is undergoing reforms in organization and missions, deploying 
forces outside of the NATO treaty area for the first time, 
outside of Europe. And some 60 nations are engaged freshly in 
an unprecedented multinational effort to address the 
proliferation of dangerous weapons.
    We are here today to discuss the President's fiscal year 
2006 request for the Department, as well as funding for the 
ongoing operations in the global war on terror. Before 
discussing dollars and programs and weapons, let me just offer 
some context for the tasks ahead. When President Bush took 
office 4 years ago, he recognized the need to transform our 
defense establishment to meet the unconventional and somewhat 
unpredictable threats of the 21st century. The attacks on 
September 11 gave urgency and impetus to the efforts then 
underway to make the armed forces more agile, more 
expeditionary, and more lethal.
    The national security apparatus of the United States has 
undergone and continues to undergo historic changes on a number 
of fronts. We are addressing the urgency of moving military 
forces rapidly across the globe, the necessity of functioning 
as a truly joint force, the need to recognize that we are 
engaged in a war and yet still bound by peacetime behavior and 
practices and constraints and regulations and requirements. But 
we are up against an enemy that is unconstrained by laws or 
bureaucracies. We are adjusting to a world where the threat is 
not from a single superpower, as it was, that we could become 
quite familiar with over a sustained period of time, but rather 
from various regimes and extremist cells that can work together 
and proliferate lethal capabilities.
    After more than 3 years of conflict, two central realities 
of this struggle are clear. First is that the struggle will not 
be won by military means alone. That is clear. Second is the 
reality that in this new era the United States cannot win the 
global struggle alone. No one nation can. It will take 
cooperation among a great many countries to stop weapons 
proliferation, for example. It takes nations working together 
to locate and dismantle extremist cells and to stop future 
attacks.
    One thing we have learned since September 11 and in 
operations in Afghanistan and Iraq and elsewhere is that in 
most cases the capacities of our partners and our allies can be 
critical to the success of our own military forces, as is the 
ability and proclivity of our partners to curb the spread and 
appeal of that poisonous ideology in their education systems, 
news media, religious and political institutions.
    Mr. Chairman, for all the progress that has been made, and 
it is substantial, the armed forces are still largely equipped, 
understandably, to confront conventional armies, navies, and 
air forces. We have made major commitments to modernize and 
expand the Army, adding some $35 billion over the next 7 years 
in addition to the $13 billion the Army has in the baseline 
budget.
    We are increasing deployable combat power from 33 active 
duty brigades to 43 more powerful modular brigade combat teams. 
These teams are designed to be able to deploy quickly abroad, 
but will have firepower, armor, and logistics support to be 
sustained over a period of time.
    In addition to increasing overall combat capability, the 
Army's modularity initiative plus an increase of 30,000 troops 
in the size of the operational Army is to reduce stress on the 
force by increasing by 50 percent the amount of time that 
active duty soldiers will be able to spend at home between 
overseas deployments.
    As a result of a series of reforms, we are making the 
Reserve components, those individual reservists and guardsmen 
in high demand specialties, will be in the future be deployed 
less often, for shorter periods of time, and with more notice 
and predictability for themselves and for their families.
    The Department continues to reevaluate our contingency 
plans, our operations, force structure, in light of the 
technological advances of the past decades. These advances, 
plus improved force organization and deployment, have allowed 
the Department to generate considerably more combat capability 
with the same or in some cases fewer numbers of weapon 
platforms.
    For example, in Operation Desert Storm one aircraft carrier 
could engage about 175 targets per day. During Operation Iraqi 
Freedom in 2004, one aircraft carrier, instead of engaging 175 
targets per day, could engage 650 targets per day, more than a 
threefold increase. Today one B-2 bomber can be configured to 
attack as many as 80 different targets with 80 precision 
weapons during one sortie.
    In the past the Navy maintained a rigid deployment 
schedule. Ships would deploy for 6 months, overlapping with the 
ships they relieved, and upon arriving home they would become 
relatively useless. Training and equipment readiness plummeted 
into what became known in the Navy as ``the bathtub,'' with 
many battle groups unavailable for missions. The Navy's new 
fleet response plan has the capability to surge five or six 
carrier strike groups in 30 days, with the ability to deploy an 
additional two in 90 days.
    In consultation with Congress and our allies, the 
Department is making some long overdue changes in global 
basing. We are moving away from the cold war garrisons toward 
an ability to surge quickly to wherever capability is needed. 
When the President took office, the cold war had been over for 
a decade, but the United States (U.S.) forces overseas 
continued to be stationed as if we expected a Soviet tank 
attack in Germany and as though South Korea was still an 
impoverished country devastated by the Korean War.
    We advanced the commonsense notion that U.S. troops should 
be where they are needed, they should be where they are wanted, 
a hospitable environment, and they should be where they can be 
used effectively in the 21st century. Those changes are 
bringing home some 70,000 troops and up to 100,000 family 
members. Military personnel and their families as a result will 
experience fewer changes of station, less disruption in their 
lives, which of course is an important factor in reducing 
stress on the force.
    The new global security environment drives the approach to 
our domestic force posture as well.
    Some thoughts about the future. To the seeming surprise of 
some, our enemies have brains. They are constantly adapting and 
adjusting to what we are doing. They combine medieval 
sensibilities with modern technology and with media savvy to 
find new ways to exploit perceived weaknesses and to weaken the 
civilized world.
    We have to employ the lessons of the past 3\1/2\ years of 
war to be able to anticipate, adjust, and act and react with 
greater agility. These necessary reforms have encountered and 
will continue to encounter resistance. It is always difficult 
to depart from the known and the comfortable. Abraham Lincoln 
once compared his efforts to reorganize the Union army during 
the Civil War to bailing out the Potomac River with a teaspoon. 
We are finding it tough, but it is not going to be that tough.
    If you consider the challenge our country faces to not only 
reorganize the military, but also to try to transform an 
enormous defense bureaucracy and to fight two wars at the same 
time--and if that were not enough, we are doing it, all of 
this, for the first time in history in an era with 24-hour 
worldwide satellite news coverage, live coverage of terrorist 
attacks, cell phones, digital cameras, global Internet, e-mail, 
embedded reporters, and increasingly casual regard for 
protection of classified documents and information, and a 
United States Government that is essentially still organized 
for the industrial age as opposed to the information age.
    Mr. Chairman, the President's 2006 budget request proposes 
some tough choices and it proposes to fund a balanced 
combination of programs to develop and field the capabilities 
most needed by the American military. It continues to use Navy 
and Marine Corps shift toward a new generation of ships and 
related capabilities. It continues the acquisition of Air 
Force, Navy, and other aircraft to sustain U.S. air dominance 
and provide strong airlift and logistics support. It continues 
to strengthen U.S. missile defenses. It advances new 
intelligence and communication capabilities with many times the 
capacity of existing systems.
    The budget would maintain the President's commitment to our 
military men and women and their families as well. It includes 
a 3.1 percent increase in military base pay. The budget keeps 
us on track to eliminate all inadequate military family housing 
units in the next 3 years.
    As to the current budget process, I appreciate your efforts 
to move the President's supplemental request quickly. It is 
critical that the military services receive these funds soon. I 
know that the Members of Congress understand that. The Army's 
basic readiness and operating accounts will be exhausted in 
early May. Now it is just a matter of days. And it has already 
taken to stretching existing funds to make up the shortfalls.
    So I urge the Congress to achieve final passage of the 
supplemental before the recess later this week.
    Afghan and Iraqi security forces. Transferring resources 
away from the training and equipping of Iraqi and Afghan 
security forces of course would seriously impede their ability 
to assume responsibilities that are now borne by U.S. troops, 
and I would add at vastly greater cost to our country in both 
dollars and lives. We need the flexibility to channel this 
funding to where it is needed most. The House's reductions in 
funding for sustaining other coalition forces as well as the 
underfunding of the President's request to reimburse 
cooperating nations would make it vastly more difficult for 
allies and partners to support military and stability 
operations in Iraq and Afghanistan, further increasing the 
strain on U.S. forces.
    Failure to fund projects that Central Command requested 
could impede our ability to support ongoing operations in the 
theater with respect to military construction.
    We believe that restriction on acquisition of the DD(X) 
destroyer would drive up costs and would restrict options while 
the Navy and the Department conduct a detailed evaluation of 
the program. The pending Senate restrictions on the U.S.S. John 
F. Kennedy would prevent the Navy from freeing up resources to 
counter current threats while preparing for future challenges.
    Finally, underfunding known costs, such as higher fuel 
expenditures, or including new unfunded death and injury 
benefits in the final bill will of necessity force us to divert 
resources from other troop needs.
    So I respectfully ask this subcommittee to take these 
considerations into account.
    Mr. Chairman, across the world brave men and women wearing 
America's uniform are doing the truly hard work of history. I 
know you share my desire to see that they have all the support 
they need. Bringing the hope of freedom to some of the darkest 
corners of the Earth will render a powerful blow to the forces 
of extremism, who have killed thousands of innocent people in 
our country and across the globe.

                           PREPARED STATEMENT

    I thank you all for what you have done on behalf of our 
troops and we look forward to responding to questions. Thank 
you, sir.
    [The statement follows:]

                Prepared Statement of Donald H. Rumsfeld

    Mr. Chairman, Members of the Committee, good afternoon.
    Sixty years ago this month, Allied forces fought in some of the 
fiercest battles of World War II. Many young men lost their lives and 
were grievously wounded in those battles, and I would be remiss if I 
did not recognize the service and heroism of at least two of the 
members of this distinguished committee.
    The outcome of that long, difficult struggle helped to transform 
much of the world--bringing freedom to distant shores, turning menacing 
dictatorships into peaceful democracies, and longstanding enemies into 
friends.
    Today, another generation of Americans, along with our Coalition 
allies, have come to freedom's defense. They are helping millions of 
liberated people transform their countries from terrorist states into 
peaceful democracies.
    Two weeks ago, I met again with our Coalition forces in Iraq and 
Afghanistan and with officials in countries that are on the front lines 
of this global struggle. Everywhere we traveled, I saw firsthand our 
men and women in uniform--volunteers all--undertaking difficult duties 
with confidence and courage. The debt we owe them and their families is 
immeasurable. Members of this Committee have visited with the wounded 
and their families. You, as I, cannot help but come away inspired by 
their courage, and their skill.
    I thank the American people and their Congress for providing the 
resources and support our forces need to complete their missions. It is 
becoming increasingly clear that the sacrifices they are making have 
made a difference in bringing about a world that is freer, more 
peaceful and that rejects the viciousness of terrorism and extremism.
    Consider what has been accomplished in three years plus:
  --Newly free Afghans and Iraqis have held historic elections that 
        selected moderate Muslim leadership;
  --Extremists are under pressure, their false promises being exposed 
        as cruel lies;
  --America's national security apparatus is seeing historic changes;
  --NATO is undergoing reforms in both organization and mission 
        deploying forces outside of its traditional boundaries; and
  --Some 60 nations are freshly engaged in an unprecedented 
        multinational effort to address the proliferation of the 
        world's most dangerous weapons.
    We are here today to discuss the President's fiscal year 2006 
request for the Department as well as funding for ongoing operations in 
the Global War on Terror. Before discussing dollars, programs and 
weapons, let me offer some context for the tasks ahead.
    When President Bush took office over four years ago, he recognized 
the need to transform America's defense establishment to meet the 
unconventional and unpredictable threats of the 21st Century. The 
attacks of September 11th gave new urgency and impetus to efforts then 
underway to make our Armed Forces a more agile, expeditionary and 
lethal force.
    The national security apparatus of the United States has undergone, 
and continues to undergo, historic changes on a number of fronts.
    We have confronted and are meeting a variety of challenges:
  --The urgency of moving military forces rapidly across the globe;
  --The necessity of functioning as a truly joint force--as opposed to 
        simply de-conflicting the Services;
  --The need to recognize we are engaged in a war and yet still bound 
        by a number of peacetime constraints, regulations and 
        requirements, against an enemy unconstrained by laws; and
  --Adjusting to a world where the threat is not from a single 
        superpower, but from various regimes and extremist cells that 
        can work together and proliferate lethal capabilities.
    After more than three years of conflict, two central realities of 
this struggle are clear.
    First is that this struggle cannot be won by military means alone. 
The Defense Department must continue to work with other government 
agencies to successfully employ all instruments of national power. We 
can no longer think in terms of neat, clear walls between departments 
and agencies, or even committees of jurisdiction in Congress. The tasks 
ahead are far too complex to remain wedded to old divisions.
    A second central reality of this new era is that the United States 
cannot win a global struggle alone. It will take cooperation among a 
great many nations to stop weapons proliferation. It will take a great 
many nations working together to locate and dismantle global extremist 
cells and stop future attacks.
    One thing we have learned since September 11th and in the 
operations in Afghanistan, Iraq and elsewhere, is that in most cases 
the capacities of our partners and allies can be critical to the 
success of our own military forces. As is the ability--and proclivity--
of our partners to curb the spread and appeal of that poisonous 
ideology in their education systems, news media and religious and 
political institutions.
    Mr. Chairman, for all the progress that has been made in recent 
years, the Armed Forces are still largely organized, trained and 
equipped to confront other conventional armies, navies and air forces--
and less to deal with the terrorists and extremists that represent the 
most recent lethal threats.
    We have made a major commitment to modernize and expand the Army, 
adding some $35 billion over the next seven years, in addition to the 
$13 billion in the Army's baseline budget. We are increasing deployable 
combat power from 33 active duty combat brigades to 43 more powerful 
``modular'' brigade combat teams. These teams are designed to be able 
to deploy quickly abroad, but will have the firepower, armor and 
logistical support to sustain operations over time.
    In addition to increasing overall combat capability, the Army's 
modularity initiative, accompanied by an increase of 30,000 in the size 
of the operational Army, is designed to reduce stress on the force by 
increasing by 50 percent the amount of time active duty soldiers will 
be able to spend at home between overseas deployments.
    And, as a result of a series of reforms we are making in the 
Reserve Components, those individual Reservists and Guard personnel in 
high demand specialties will in the future be deployed less often, for 
shorter periods of time and with more notice and predictability for 
themselves and their families.
    The Department continues to reevaluate our contingency plans, 
operations, and force structure in light of the technological advances 
of the past decade. These advances, plus improved force organization 
and deployment, have allowed the Department to generate considerably 
more combat capability with the same, or in some cases, fewer numbers 
of weapons platforms.
    For example, in Operation Desert Storm, one aircraft carrier could 
engage about 175 targets per day. During Operation Iraqi Freedom in 
2004, one aircraft carrier could engage 650 targets per day--more than 
a three fold increase. And today, one B-2 bomber can be configured to 
attack as many as 80 different targets with 80 precisions weapons 
during one sortie.
    In the past, the Navy maintained a rigid deployment schedule. Ships 
would deploy for six months, overlapping with the ships they relieved, 
and upon arriving home, become relatively useless. Training and 
equipment readiness plummeted into what became known as the 
``bathtub,'' with many battle groups unavailable for missions. The 
Navy's new Fleet Response Plan has the capability to surge five or six 
carrier strike groups in 30 days, with the ability to deploy an 
additional two in 90 days.
    In consultation with Congress and our allies, the Department is 
making long overdue changes in U.S. global basing, moving away from 
fixed Cold War garrisons and towards an ability to surge quickly to 
wherever capability is needed.
    When President Bush took office the Cold War had been over for a 
decade, but U.S. forces overseas continued to be stationed as if Soviet 
tank divisions threatened Germany and South Korea was still an 
impoverished country devastated by war. We advanced the common sense 
notions that U.S. troops should be where they're needed, where they're 
wanted, and where they can be used.
    Those changes will bring home some 70,000 troops and up to 100,000 
of their family members. Military personnel and their families will 
experience fewer changes of station and less disruption in their 
lives--an important factor in reducing stress on the force.
    The new global security environment drives the approach to our 
domestic force posture as well. The Department continues to maintain 
more military bases and facilities than are needed--consuming and 
diverting valuable personnel and resources. Base Realignment and 
Closure, or BRAC, will allow the Department to reconfigure its current 
infrastructure to one that maximizes warfighting capability and 
efficiency. And it will provide substantial savings over time--money 
that is needed to improve the quality of life for the men and women in 
uniform, for force protection, and for investments in needed weapons 
systems.
    Another challenge the Department faces is attracting and retaining 
high-caliber people to serve in key positions. For decades, the 
Department has lived with personnel practices that would be 
unacceptable to any successful business. With the support of Congress, 
the Department is now instituting a new National Security Personnel 
System, designed to provide greater flexibility in hiring, assignments 
and promotions--allowing managers to put the right people in the right 
positions when and where they are needed. About 60,000 Department of 
Defense employees, the first spiral in a wave of over 300,000, will 
transition into this new system as early as this summer.
    The Pentagon also began to change the way it does business.
    We have adopted an evolutionary approach to acquisition. Instead of 
waiting for an entire system to be ready before fielding it, this 
approach has made it possible, for example, to more rapidly field new 
robots to detonate roadside bombs in Iraq.
    Some thoughts about the future.
    To the seeming surprise of some, our enemies have brains. They are 
constantly adapting and adjusting to what we're doing. They combine 
medieval sensibilities with modern technology and media savvy to find 
new ways to exploit perceived weaknesses and to weaken the civilized 
world.
    We must employ the lessons of the past three and half years of war 
to be able to anticipate, adjust, act and react with greater agility. 
These necessary reforms have encountered, and will continue to 
encounter, resistance. It is always difficult to depart from the known 
and the comfortable. Abraham Lincoln once compared his efforts to 
reorganize the Union Army during the Civil War to bailing out the 
Potomac River with a teaspoon.
    But, consider the challenge our country faces to not only 
reorganize the military, but to also transform the enormous Defense 
bureaucracy and fight two wars at the same time. And, if that were not 
enough, to do all this for the first time in an era with:
  --24 hour worldwide satellite news coverage, with live coverage of 
        terrorist attacks, disasters and combat operations;
  --Cell phones;
  --Digital cameras;
  --Global internet;
  --E-mail;
  --Embedded reporters;
  --An increasingly casual regard for the protection of classified 
        documents and information; and
  --A U.S. government still organized for the Industrial Age, not the 
        Information Age.

                        FISCAL YEAR 2006 REQUEST

    Mr. Chairman, the President's fiscal year 2006 Budget request makes 
some tough choices and proposes to fund a balanced combination of 
programs to develop and field the capabilities most needed by America's 
military.
  --It continues the Navy and Marine Corps shift towards a new 
        generation of ships and related capabilities;
  --It continues the acquisition of Air Force, Navy and other aircraft 
        to sustain U.S. air dominance and provide strong airlift and 
        logistics support;
  --It continues to strengthen U.S. missile defenses; and
  --It advances new intelligence and communications capabilities with 
        many times the capacity of existing systems.
    The Budget would maintain the President's commitment to our 
military men and women and their families. It includes a 3.1 percent 
increase in military base pay. The Budget also keeps us on track to 
eliminate all inadequate military family housing units over the next 
three years.

                 FISCAL YEAR 2005 SUPPLEMENTAL REQUEST

    As to the current budget process, I appreciate your efforts to move 
the President's supplemental request quickly. It is critical that the 
Military Services receive these funds very soon. The Army's basic 
readiness and operating account will be exhausted in early May--a 
matter of days--and it has already taken to stretching existing funds, 
such as restraining supply orders, to make up the shortfalls.
    I urge Congress to achieve final passage of the supplemental before 
the Senate recesses later this week.
    Afghan and Iraqi Security Forces.--Transferring resources away from 
the training and equipping of Afghan and Iraqi security forces would 
seriously impede their ability to assume responsibilities now borne by 
U.S. troops--at vastly greater cost to our nation in both dollars and 
lives. We need the flexibility to channel this funding to where it is 
needed most.
    Coalition Partners.--The House's reduction in funding for 
sustaining other Coalition forces, as well as the underfunding of the 
President's request to reimburse cooperating nations, will make it 
vastly more difficult for allies and partners to support military and 
stability operations in Iraq and Afghanistan--further increasing the 
strain and stress on U.S. forces.
    Military Construction.--Failure to fund projects that Central 
Command requested impedes our ability to support ongoing operations in 
the theater. Of special concern are the projects at Ali Al Salem 
Airfield and Al Dhafra Air Base to provide needed upgrades to 
logistics, intelligence and surveillance support.
    Unrequested Provisions.--The President's fiscal year 2006 Budget 
reflects the Department of Defense's commitment to meeting the threats 
and challenges of the 21st Century. However, the Senate-passed bill 
limits the Department of Defense's flexibility for its transformation 
agenda by affecting the planned acquisition strategy for several major 
programs. The Department of Defense is examining strategies to control 
costs in its modernization effort and should be allowed to balance 
cost, schedule, and performance in an optimum manner.
    The Administration is also concerned that the Senate bill includes 
a provision that would prevent the Navy from retiring the U.S.S. John 
F. Kennedy. Any requirement to obligate funds for the maintenance and 
repair of a ship the Navy believes is no longer essential is not a good 
use of resources. Further, the Administration opposes a requirement to 
maintain at least 12 active aircraft carriers as the Department is 
currently engaged in a Quadrennial Defense Review that will examine 
options for the Navy shipbuilding program and make recommendations to 
ensure force structure addresses future needs.
    Finally, new or expanded benefits, such as for payments to 
survivors of fallen servicemembers, must be fully funded in the bill. 
Otherwise, the effect will be to divert resources from other troop 
needs.
    I respectfully ask this Committee to take these considerations into 
account.

                               CONCLUSION

    Mr. Chairman, across the world, brave men and women wearing 
America's uniform are doing the hard work of history. I know you share 
my desire to see that they have the support they need. Bringing the 
hope of freedom to some of the darkest corners of the Earth will render 
a powerful blow to the forces of extremism who have killed thousands of 
innocent people in our country and across the globe.
    I thank you for all you have done on behalf of our troops, and I 
look forward to responding to your questions.

    Senator Stevens. General Myers, do you have a statement, 
sir?

                 STATEMENT OF GENERAL RICHARD B. MYERS

    General Myers. Thank you, Mr. Chairman, and thank you, 
Senator Inouye and members of the subcommittee. Once again, 
thank you for your unwavering support of our armed forces and, 
more specifically, the men and women in uniform, particularly 
as they fight this all-important global war on terrorism and 
violent extremism.
    We remember the brave service men and women and Government 
civilians who have been wounded or given their lives for this 
noble cause and we grieve with their friends and with their 
families.
    We are now in the fourth year of sustained combat 
operations and our soldiers, sailors, airmen, marines, Coast 
Guardsmen, and U.S. Government civilians continue to perform 
superbly under extremely challenging conditions. I am 
tremendously proud of them, as I know you are.
    Our forces are fully prepared to support our national 
defense strategy and to assure our allies, while we dissuade, 
deter, and defeat any adversary. The fiscal year 2006 defense 
budget request provides critical funding for winning the global 
war on terrorism, securing peace in Iraq and Afghanistan, 
combatting weapons of mass destruction, enhancing our joint 
warfighting capabilities, and transforming the armed forces to 
meet the challenges of the 21st century.
    Our forces are the world's most capable, in large part 
because they are the best trained and equipped. The 2006 
defense budget and the funds you supported in the fiscal year 
2005 supplemental request are vital to ensuring our troops are 
trained and resources for the missions they are assigned and to 
sustain their readiness while they are deployed.
    In my opinion this is a pivotal moment in our Nation's 
history and in world history. We must stay committed in this 
global war on terrorism and violent extremism if justice, 
tolerance, and freedom are to triumph over violence, fear, and 
oppression. Make no mistake, we have undertaken a long and hard 
task to help people long brutalized by repressive regimes build 
a future based on freedom and tolerance.
    Our significant progress in Iraq and Afghanistan and other 
places around the world is a tribute to the hard work and 
sacrifice of our dedicated American service members and our 
coalition partners and to the continuing dedication of the 
American people and the Congress.
    In Iraq, the United States remains committed to helping the 
Iraqis build a secure and peaceful future with a representative 
government based upon the rule of law. Over the last year, the 
Iraqi people have become more and more self-reliant. The 
transfer of sovereignty last June, the successful election, 
followed by the Transitional National Assembly selection of the 
Presidency Council and the Prime Minister, showed their courage 
and determination to support a free and democratic country and 
also to continue to represent a moral defeat for the 
insurgents.
    Despite the many challenges, the Iraqis have shown a strong 
pride of ownership in their new government and in their future. 
Forming a new government is not easy, but continued progress is 
essential to sustaining the positive momentum seen since the 
January elections.
    In Afghanistan, the coalition continues to make great 
progress. Congress' firm commitment is leading the 
international effort to fund and equip Afghan reconstruction. 
NATO and the coalition will continue to help build and train 
the commands and institutions the Afghans need to sustain and 
manage their security apparatus.
    One of the great challenges in Afghanistan is the illegal 
drug trade. The Afghan government and the international 
community must continue to combat these challenges.
    All these operations at home and overseas, they all come at 
a cost, especially for our people, both our Active and Reserve 
component. They are so tremendously dedicated. They understand 
their mission very, very well and they understand what a huge 
difference they are making, and their morale is good.
    In the face of continued demands on our forces, we are 
analyzing all our policies and making changes to mitigate 
readiness challenges. I am concerned with the wear and tear on 
our equipment and I thank this subcommittee for its continued 
support of our request to help repair and replace our rapidly 
aging resources. Congressional support, both in the annual 
budget and supplemental funding, has been exceptional and 
essential for funding our continued operations and for funding 
Army modularization, recapitalization, and transformation.
    I am proud of our transformational efforts and successes 
and we must continue to invest heavily in transformation both 
intellectually and materially so we can meet the challenges 
facing our country today and in the future.
    This year we are working through three major processes that 
will have a far-reaching impact on the future force posture. 
The first of course is the 2005 Quadrennial Defense Review 
(QDR) and it will provide a comprehensive strategic plan for 
transforming the armed forces.
    Second, the base realignment and closure process provides 
an excellent opportunity to further transform our warfighting 
capability and eliminate excess capacity.
    Third, our global basing strategy transforms the cold war 
footprint into one that is focused on combining the 
capabilities of U.S.-based rotational forces that are lean and 
agile with strategically placed overseas-based forces.
    The important transformational decisions we make today will 
have a lasting impact on our Nation's defense capabilities and 
the capabilities of our allies and coalition partners.
    As I know all of you know, we must stay committed if we are 
to win this global war on terrorism and extremism and defend 
the United States and our national interests. As the Secretary 
said, the U.S. military cannot do this alone. Success in this 
21st security environment requires cooperating with our 
multinational partners and integrating military capabilities 
across the U.S. interagency. In my view, our way of life 
remains at stake, so failure is not an option. With Congress' 
continued strong support, our military will continue to be 
unwavering in our focus, our resolve, and our dedication to 
peace and freedom.

                           PREPARED STATEMENT

    Thank you, Mr. Chairman and committee, and we look forward 
to your questions.
    [The statement follows:]

                 Prepared Statement of Richard B. Myers

    In my fourth and final Posture Statement, I look forward to 
reporting to you on the state of the United States Armed Forces, our 
successes over the last year, our continuing challenges, and our 
priorities for the coming year. I also would like to thank you for your 
unwavering support of our armed forces and our servicemen and women.
    Our Nation is entering the fourth year of sustained combat 
operations. Our successes in the past year are clearly due to the 
dedicated and courageous service of our Nation's Soldiers, Sailors, 
Airmen, Marines, Coastguardsmen, and civilians who are serving within 
our borders and around the globe. Their service as warriors, diplomats, 
peacekeepers and peacemakers has been exceptional. They are truly our 
Nation's most precious and important assets. Serving alongside our 
Coalition partners and allies, they have accomplished very demanding, 
and many times, very dangerous missions.
    Building democracy and hope in areas long ruled by terror and 
oppression is a long, hard task. Our success in both Iraq and 
Afghanistan is a tribute to the hard work and sacrifice of our 
Coalition partners and our dedicated American servicemembers. The U.S. 
Soldiers, Sailors, Airmen, Marines, Coastguardsmen and U.S. Government 
civilians who have been killed or wounded sacrificed to make the world 
safer and provide hope to millions. We grieve with their families, and 
with the families of all the Coalition forces and civilians who made 
the ultimate sacrifice in these noble endeavors.
    While overall results are positive, significant challenges affect 
our forces engaged in demanding combat operations. These operations 
create many readiness challenges, including Combat Service and Combat 
Service Support capability limitations, Reserve Component mobilization 
challenges, equipment challenges, and manning a growing number of 
Combined and Joint Force headquarters. The past 3 years have been 
demanding, and while there are no ``silver bullets'' to make our 
problems go away, I will outline our way ahead to address our long-term 
challenges.
    We remain resolved, dedicated, and committed to winning the Global 
War on Terrorism (GWOT), securing the peace in Iraq and Afghanistan, 
combating Weapons of Mass Destruction (WMD), enhancing joint 
warfighting capabilities and transforming the Armed Forces to meet the 
challenges of the 21st Century.
    We are making steady progress in these areas. Our homeland is safer 
and we are committed to winning the Global War on Terrorism. 
Afghanistan has a democratically elected president and three quarters 
of al-Qaida's leadership has been killed or captured. In January, the 
Iraqi people democratically elected a Transitional National Assembly, a 
crucial step toward a permanent government and their first legitimate 
election in generations. We continue to improve our world-class joint 
warfighting capability, and we are making good progress in transforming 
our Armed Forces.
    Despite the current operational demands on our forces, we remain 
ready to support the President's National Security Strategy to make the 
world not just safer, but better. We are fully prepared to support our 
strategy to assure our allies while we dissuade, deter and defeat any 
adversary. Our revised National Military Strategy links this strategic 
guidance to operational warfighting, defining three interrelated 
National Military Objectives--protect the United States, prevent 
conflict and surprise attack, and prevail against adversaries--along 
with supporting additional military tasks and missions. Success in 
meeting these objectives necessitates cooperating with multinational 
partners and integrating military capabilities across the Interagency 
to harness all elements of National power.
    Executing our strategy requires a force fully prepared to 
simultaneously conduct campaigns to prevail against adversaries, 
protect the United States from direct attack, and undertake activities 
to reduce the potential for future conflict. Success requires an array 
of capabilities, from combat capabilities to defeat the forces that 
threaten stability and security, to capabilities integrated with the 
Interagency for stability and security operations. We must continue to 
invest in activities such as International Military Education and 
Training and Theater Security Cooperation that serve to expand and 
strengthen alliances and coalitions. These alliances and activities 
contribute to security and stability and foster international 
conditions that make conflict less likely.
    We expect this year will be no less challenging than last year, as 
we fight the Global War on Terrorism, continue to excel in joint 
operations, and transform our Armed Forces. With the continued strong 
support of Congress and the dedicated service of the men and women of 
our Armed Forces, we will succeed.

                  WINNING THE GLOBAL WAR ON TERRORISM

    The Global War on Terrorism will continue to be a long and 
difficult war affecting the entire global community. It will require 
our firm commitment and the cooperation of our allies and coalition 
partners as well as international organizations, domestic state 
governments, and the private sector.
    The United States is fighting a new kind of war against a new kind 
of enemy. This enemy is motivated by extremist ideologies that threaten 
such principles as freedom, tolerance, and moderation. These ideologies 
have given rise to an enemy network of extremist organizations that 
deliberately target innocent civilians to spread fear. Extremists use 
terrorism to undermine political progress, economic prosperity, the 
security and stability of the international state system, and the 
future of civil society. We are fighting to bring freedom to societies 
that have suffered under terrorism and extremism and to protect all 
societies' right to participate in and benefit from the international 
community.
    The United States cannot defeat terrorism alone, and the world 
cannot defeat terrorism without U.S. leadership. We must ally ourselves 
with others who reject extremism. Success in this war depends on close 
cooperation among agencies in our government and the integration of all 
instruments of national power, as well as the combined efforts of the 
international community.
    The U.S. Government strategy for winning the Global War on 
Terrorism has three elements: protect the homeland, disrupt and attack 
terrorist networks, and counter ideological support for terrorism. We 
continued to make progress in the Global War on Terrorism during 2004 
and the beginning of 2005. Democratic forms of government now represent 
people who were controlled by brutal dictatorships. Lawless territories 
have now been reclaimed. Terrorist networks have been disrupted and 
their safe havens have been denied. The United States and its allies 
have captured or killed numerous terrorist leaders in Iraq and around 
the world. Freedom has replaced tyranny in parts of the world.
    Despite this success, the United States continues to face a variety 
of threats from extremist networks, criminal organizations, weapon 
proliferators, and rogue states that cooperate with extremists. To 
combat these threats, we continue to refine the role of the Armed 
Forces in homeland defense by combining actions overseas and at home to 
protect the United States. Critical to this role are U.S. Northern 
Command's (NORTHCOM) mission of homeland defense and DOD's 
contributions to consequence management. NORTHCOM can deploy rapid 
reaction forces to support time-sensitive missions such as defense of 
critical infrastructures or consequence management in support of the 
Department of Homeland Security or other lead federal agencies. 
NORTHCOM's Joint Task Force Civil Support coordinates closely with 
interagency partners and conducts numerous exercises to integrate 
command and control of DOD forces with federal and state agencies to 
mitigate chemical, biological, radiological, nuclear and high-yield 
explosive incidents. The National Guard now has thirty-two certified 
Weapons of Mass Destruction (WMD) Civil Support Teams. Twelve 
additional teams are undergoing the final 6 months of certification 
training. Congress established 11 more teams in fiscal year 2005. Those 
teams will conduct individual and unit training over the next 18-24 
months. I thank Congress for your continued support of these important 
WMD Civil Support Teams. Additionally, last October the National Guard 
reorganized their state headquarters into 54 provisional joint force 
headquarters, allowing them to interact more efficiently with other 
military organizations.
    The North American Air Defense Command (NORAD) is providing robust 
air defense of the continental United States, Alaska, Puerto Rico, and 
the Virgin Islands through Operation NOBLE EAGLE. We are developing 
plans that build on the success of NORAD to improve maritime warning, 
maritime control, information operations, and enhanced planning. 
Although the effort expended on defending our country may be 
transparent to some, the operations and exercises being led by federal 
agencies, including the Department of Homeland Security, NORTHCOM and 
NORAD, are robust, successful, and extremely important. The Total Force 
is doing a superb job in defense of our country, and I thank Congress 
for its continued funding of homeland defense initiatives.
    Forces overseas, led by our Combatant Commanders, are conducting 
offensive counterterrorism operations along with interagency and 
international partners to defeat these threats closest to their source. 
In addition to attacking and disrupting terrorist extremist networks, 
Combatant Commanders assist in building counterinsurgency, 
counterterrorism, internal defense and intelligence capabilities of 
partner nations. Strengthening partner capacity improves internal 
security, and ultimately contributes to regional stability and the 
creation of global environment inhospitable to terrorism. The Special 
Operations Command is designated as the combatant command responsible 
for planning and directing global operations against terrorist 
networks.
    The offensive efforts of our Global War on Terrorism strategy are 
designed to deter, disrupt, and defeat terrorist operations, affecting 
terrorists' ability to effectively execute their attacks or sustain 
their ideology. DOD efforts include information operations that impede 
our enemy's ability to perform critical functions. Ultimately, 
continuous and successive attacks against the enemy cause their 
operations to fail.
    These offensive actions overseas constitute the first line of 
homeland defense. In the land, air, space, maritime, and cyber domains, 
DOD will continue to coordinate closely with allies and partner nations 
and other U.S. agencies to interdict terrorists and their resources 
before they enter the United States. The United States goal is to 
disrupt their efforts to access targets, and defeat attacks against our 
homeland. This requires effective information sharing, persistent 
intelligence, surveillance, reconnaissance, more and better human 
intelligence, and improved interoperability between the Armed Forces 
and other U.S. Government agencies.
    The third and most important element of this strategy to defeat 
terrorism includes de-legitimizing terrorism so that it is viewed 
around the world in the same light as the slave trade, piracy, or 
genocide. Terrorism needs to be viewed as an activity that no 
respectable society can condone or support and all must oppose. Key to 
this effort are actions to promote the free flow of information and 
ideas that give hope to those who seek freedom and democracy. DOD 
contributes to this important effort with security assistance, 
information operations, assisting humanitarian support efforts, and 
influencing others through our military-to-military contacts.
    The Global War on Terrorism will be a long war, and while the 
military plays an important role, we cannot win this war alone. We need 
the continued support of the American people and the continued support 
of the entire U.S. Government. The United States will have won the 
Global War on Terrorism when the United States, along with the 
international community, creates a global environment uniformly opposed 
to terrorists and their supporters. We will have won when young people 
choose hope, security, economic opportunity and religious tolerance, 
over violence. We will have won when disenfranchised young people stop 
signing up for Jihad and start signing up to lead their communities and 
countries toward a more prosperous and peaceful future--a future based 
on a democratically-elected government and a free, open, and tolerant 
society.

                     OPERATION IRAQI FREEDOM (OIF)

    The United States is committed to helping the Iraqis build a secure 
and peaceful future with a representative government based upon the 
rule of law. The list of important accomplishments in Iraq in every 
sector--education, medical care, business, agriculture, energy, and 
government, to name a few--is long and growing. Most importantly, Iraq 
has reached several important milestones on the road to representative 
self-government: transfer of sovereignty, parliamentary and provincial 
elections leading to a Transitional National Assembly, selection of a 
Presidency Council, a new Prime Minister and Cabinet. The key to 
success in Iraq is for Iraqis to become self-reliant. A timetable for 
leaving Iraq would be counterproductive, leading the terrorists to 
think they can wait us out. We are in Iraq to achieve a result, and 
when that result is achieved, our men and women will come home.
    With the help of the Coalition, the Iraqi people are creating a 
country that is democratic, representative of its entire people, at 
peace with its neighbors, and able to defend itself. The Iraqi people 
continue to assume greater roles in providing for their own security. 
The recent Iraqi elections showed their courage and determination to 
support a free and democratic country, and represented a moral defeat 
for the insurgents. The Iraqi people have a renewed pride of ownership 
in their government, and their future. Voters paraded down the street 
holding up their fingers marked with purple ink from the polls. They 
carried their children to the polls as a clear symbol that they were 
courageously voting to improve the Iraq their children would inherit.
    This very successful election is just one milestone on a very long 
road. Together with our Coalition partners, the international 
community, Interagency partners, and Non-Governmental Organizations, we 
are fully committed to helping the Iraqi people provide for their own 
security and supporting their dream of a free, democratic, and 
prosperous future. I thank Congress for its continued support of our 
budget submissions and supplemental requests to help fund our 
operations and sustain our readiness posture. Your support and the 
support of the American people are key and have been exceptional.
    Many Americans have paid with their lives to ensure that terrorism 
and extremism are defeated in Iraq, but the morale of our 
servicemembers remains very high, and they are dedicated to helping 
achieve peace and stability. There are approximately 140,000 U.S. 
servicemembers in Iraq and approximately 22,000 coalition forces. 
Commanders in the field will continue to evaluate our force structure 
and recommend changes as security conditions and Iraqi Security Forces 
capabilities warrant.
    The insurgency in Iraq is primarily Sunni extremist-based and 
focused on getting Coalition forces out of Iraq and regaining 
illegitimate power in Iraq. Its leadership is predominantly former 
regime elements drawn from the Ba'ath Party, former security and 
intelligence services, and tribal and religious organizations. Other 
groups contribute to the instability, including militant Shia, 
Jihadists groups, foreign fighters, and extensive criminal networks and 
activity. They are generally well resourced with weapons, munitions, 
finances and recruits.
    The greatest threat to stability in Iraq comes from former regime 
elements and their supporters. In the near-term, however, a group of 
Sunni extremists comprising the al-Qaida Associated Movement adds to 
the security challenge. This al-Qaida Associated Movement is part of a 
global network of terrorists. Other elements of this movement were 
responsible for some of the deadliest terrorist attacks in 2004, 
including the March 11 train bombings in Madrid, and the September 9 
bombing of the Australian Embassy in Jakarta, Indonesia. In Iraq, the 
al-Qaida group led by al-Zarqawi claimed responsibility for the tragic 
suicide bombing of the mess tent at Forward Operating Base Marez in 
Mosul in 2004. He has claimed responsibility for additional deadly 
attacks against Coalition forces and innocent Iraqi civilians this 
year.
    We expect insurgents to persist in their attacks, particularly as 
the Coalition continues to help Iraqis rebuild their country and form 
their new government. The Coalition will stand firmly beside the Iraqi 
people to sustain momentum and progress in helping the Iraqi Security 
Forces defeat these insurgents and terrorists.
    Reconstruction and economic stabilization efforts are expanding 
steadily In 14 of the 18 provinces in Iraq. In the other 4 provinces, 
the insurgents are sustaining a hostile environment that undermines 
reconstruction and economic stabilization. The use of Improvised 
Explosive Devices (IED), car bombs, and stand-off attacks continue at 
elevated levels.
    The insurgents are tough enemies, but they offer no alternative 
positive vision for Iraq. Instead, they offer the old vision of Iraq: 
extremism, tyranny, violence and oppression. Insurgents are conducting 
an intimidation campaign to undermine popular support for the Iraqi 
Government, Iraqi Security Forces and emerging institutions. They use 
barbaric and cowardly attacks to target Iraqi government officials, 
their families and others who are trying to improve conditions in the 
country. We will continue to help the Iraqis hunt down extremists and 
their accomplices and capture or kill them.
    Elements in neighboring countries are interfering with democratic 
efforts in Iraq. In Syria, displaced Iraqi Sunnis and Ba'athists are 
also influencing events in Iraq. These efforts include aiding and 
funding insurgents, extremists, and terrorists, to plan attacks inside 
Iraq and transit from Syria to Iraq. The Syrian military and government 
have made some attempts to halt this influence and the illegal flow of 
terrorists into Iraq, but they need to do much more.
    Establishing Iraqi stability and security is a complex process but 
an important one, because it is the path to peace. There are several 
key components to this complex issue, including physical, social, 
economic, and political security. Coalition forces play a direct role 
in many of these key components, but we must address all of these 
components simultaneously. The U.S. military cannot do it alone. This 
is an Interagency as well as an international effort. We must balance 
all components to avoid making the Coalition military presence a 
unifying element for insurgents. The objective must be to shift from 
providing security through Coalition counterinsurgency operations, to 
building Iraqi capacity to operate independently.
    Currently, the Coalition is helping to provide physical security by 
protecting Iraq against both internal and external threats and training 
Iraqi military and police forces to provide their own physical 
security. Coalition military, NATO, and interagency cooperation has 
been very good. Currently, 31 (including the United States) countries 
and NATO are serving in Iraq. Based on the request of the Interim Iraq 
Government at the July 2004 Istanbul Summit, NATO representatives 
agreed to help train Iraqi Security Forces. In February 2005, NATO 
opened their Training Center for mid-grade to senior officers in the 
International Zone, and continues to work toward launching an expanded 
program at Ar Rustamiyah later this year to include training for senior 
non-commissioned officers. NATO will employ a ``train-the-trainer'' 
approach to capitalize on existing Iraqi capabilities and grow their 
cadre of trainers. NATO has established a Training and Equipment 
Coordination Group located in Brussels. The Iraqi-chaired Training and 
Equipment Coordination Committee in Baghdad is helping to coordinate 
donated equipment and training opportunities for Iraqi Security Forces 
outside of Iraq. In order to maximize our efforts, NATO countries and 
the international community must fully support and contribute forces to 
the mission.
    The Iraqi Government has over 155,000 security forces trained and 
equipped at varying levels of combat readiness. The growing Iraqi Army 
now comprises over 80 combat battalions. Not all of these battalions 
are combat ready; readiness capability is a function of numbers, 
training, equipment, leadership and experience. We continue to work 
with the Iraqi government on raising, training, and equipping even more 
security forces. Just as importantly as increasing forces, the 
Coalition is helping improve the capability and readiness of the 
security forces. Iraqi division commanders have recently been appointed 
and are receiving training and mentoring. Coalition forces are working 
with them to build their headquarters and forces capable of independent 
operations. These leaders will be critical to conducting independent 
counter-insurgency efforts as they gather intelligence, shape plans, 
and direct operations.
    Iraqi servicemembers have fought valiantly alongside their 
Coalition partners in combat, and have had to face the constant threat 
of insurgent attack. Over 1,600 members of the Iraqi Security Forces 
have been killed in service to their country. Immediately on the heels 
of many effective combat operations, Iraqi and coalition partners have 
restored effective local governments that are responsive to the 
national government.
    Training Iraqi police forces is a longer-term project, but good 
progress is being made, especially with the special police battalions. 
The Iraqis now have nine public order battalions, a special police 
brigade, nine police commando battalions and seven regional SWAT teams 
actively engaged in the fight against insurgents and terrorists on a 
day-to-day basis.
    During the liberation of Fallujah, the Coalition that included 
Iraqi Security Forces made great progress in eliminating the 
insurgents' safe havens. Urban counter-insurgency operations are among 
the most difficult combat missions, but the Coalition courageously and 
successfully liberated the city, block by block and building by 
building. We continue to conduct effective offensive operations and 
help the Iraqi forces eliminate other safe havens.
    The social aspect of security includes ensuring educational 
opportunities, adequate wages, health care, and other safety-net 
programs are available to ensure the population has basic human 
services. Economic security requires helping to promote the Iraqi 
economy and industrial base to create jobs and sources of income 
sufficient to support local and state government services, individuals 
and families. Although neither social nor economic security are primary 
U.S. military responsibilities, Coalition forces are actively involved 
in these efforts to bolster the legitimacy and effectiveness of local 
Iraqi governments. As much as possible, we are turning over 
responsibility for administering these projects to Iraqi leadership.
    In June of 2004, there were 230 projects from the Iraq Relief and 
Reconstruction Fund on the ground ``turning dirt.'' By January 2005, 
more than 1,500 projects were underway, accounting for more than $3 
billion in reconstruction funding and the progress continues. The U.S. 
military, Interagency, Coalition and non-governmental organizations are 
helping the Iraqis build sewers, electrical and water distribution 
systems, health centers, roads, bridges, schools, and other 
infrastructure. I cannot overemphasize the importance of these 
activities to help the Iraqis rebuild their infrastructure, after 
decades of decay under Saddam Hussein's oppressive regime.
    The Commander's Emergency Response Program (CERP) is a high-impact 
program that has been instrumental in our efforts to help secure peace 
and help stabilize Iraq and Afghanistan. Allowing commanders to respond 
immediately to urgent humanitarian relief and reconstruction 
requirements, this program proved to be an immediate success story. In 
fiscal year 2005, the Consolidated Appropriations Act provided a total 
of $500 million of budget authority for CERP. Through the supplemental 
budget request, DOD has requested a total of $854 million for this 
program in fiscal year 2005, $718 million for Iraq and $136 million for 
Afghanistan. I support the request for an increase in authorizations 
for CERP in fiscal year 2005 and thank Congress for your continued 
support of the Commander's Emergency Response Program.
    Political security means the Iraqis must be able to participate in 
the government processes without fear of intimidation. Last summer, 
Iraq began its transition to sovereignty. In August, military 
commanders shaped a plan that helped bring Iraq through the January 
elections and on to the constitutional elections in December 2005. The 
plan is on track. On January 30th, Iraqis elected a 275-person 
transitional national assembly, who will write a new Iraqi 
constitution. This was a very important step on the road to peace and 
security in Iraq.
    The Coalition goal is for the Iraqis to have a safe and secure 
country. The political process is moving forward. The country needs to 
be rebuilt after 30 years of decay, and we need to continue to help 
build Iraqi military and security forces and encourage good governance. 
We are making excellent progress in so many areas in Iraq, even though 
this progress does not always get the attention it deserves. Daily 
reports alone cannot define our successes or failures. From a broad 
perspective, the Coalition has successfully reached the first of many 
important milestones. Less than 2 years ago, Coalition forces defeated 
a brutal dictator and his regime. We established a provisional 
authority to get Iraq back on its feet, and transferred sovereignty to 
an interim government. The Iraqis have elected their Transitional 
National Assembly, which has elected their Presidency Council. The 
National Assembly will write a new constitution that will lead to 
another round of nation-wide elections and a permanent government. The 
Iraqis have many challenges ahead and many more milestones to meet, and 
the Coalition forces are supporting their efforts to ensure democracy 
and freedom will prevail.
    Although the stresses on our Armed Forces remain considerable, I am 
confident that we will achieve the goals set forth by the President. 
Our Coalition forces are dedicated, and the Iraqis are dedicated, as 
they proved on January 30th. As long as America keeps its resolve, we 
will succeed. Resolute Congressional leadership will be as important to 
our success in the future as it has been to date.

                    OPERATION ENDURING FREEDOM (OEF)

    2004 was a historic year for Afghanistan. The entire region is a 
much better place due to the commitment of the United States, our Armed 
Forces and our Coalition partners. Currently in Afghanistan, 42 
countries and NATO are working to protect and promote a democratic 
government, with NATO assuming an increasing role in stability and 
reconstruction efforts. We currently have approximately 20,000 United 
States servicemembers in Afghanistan.
    The October 9, 2004 presidential election in Afghanistan was a 
historic moment for that country. Over 8 million people, 40 percent of 
whom were women, braved threats of violence and overcame poor weather 
to cast their ballots. The elections were conducted under the 
protection of their own National Army and Police Forces with the 
assistance of the Coalition and the International Security Assistance 
Force. The election of President Hamid Karzai is providing new momentum 
for reform efforts such as the demobilization of private militias, 
increased governmental accountability, and counter-narcotics planning 
and operations. Taking advantage of his electoral mandate, Karzai 
assembled a cabinet of well-educated and reform-minded ministers who 
reflect Afghanistan's diverse ethnic and political environment. 
National Assembly elections, currently scheduled for this spring, will 
provide additional leadership opportunities. The Presidential election 
represented a serious real and moral defeat to the insurgency. The 
Taliban's failure to disrupt the election further divided an already 
splintered insurgency. Nonetheless, some radical factions remain 
committed to the insurgency. Frustrated by their lack of success, these 
factions may seek to launch high profile attacks against the upcoming 
National Assembly elections, necessitating continued robust security.
    Congress's firm commitment to Afghanistan is leading the 
international effort to fund and equip reconstruction in Afghanistan. 
In fiscal year 2005, $290 million of the authority enacted by Congress 
to train and equip security forces will be used to accelerate the 
growth of the Afghan National Army (ANA). Now numbering approximately 
22,000 personnel--three times greater than last year--the Afghan 
National Army is a multi-ethnic, visible symbol of national pride, 
unity, and strength in Afghanistan. The goal is to fully man the ANA 
combat force with 43,000 servicemembers by late 2007, about 4 years 
earlier than originally planned. This is truly a success story. Fiscal 
year 2004 funding enabled the opening of 19 regional recruiting 
centers, which have been critical to attracting quality recruits to 
accelerate the growth of this force. In the next several years, the 
Coalition and NATO will help build the commands and institutions the 
Afghans need to sustain and manage their military. The ANA is on the 
path to becoming a strong military force, and in its early stages has 
proven tough and well disciplined in the field.
    The Provincial Reconstruction Team (PRT) program is a great 
success. As hubs for security sector reform initiatives, 
reconstruction, good governance programs and humanitarian efforts, 
these teams are key to stabilizing Afghanistan. There are now 19 
operational PRTs, 8 more than I reported last year. The Coalition 
currently leads 14 of these teams and NATO leads 5. With an improvement 
in security and increased Afghan governance and security capacity, the 
PRTs will eventually be transformed into civilian-only assistance 
teams, with Afghan district and provincial governments taking over an 
increased number of their functions.
    Last October, the United Nations approved a resolution extending 
NATO's International Security Assistance Force for another year. ISAF 
now controls five PRTs in the North, with Phase Two of NATO expansion 
into the west occurring in 2005. The intent is to continue NATO 
expansion by region, gradually replacing Coalition forces with NATO 
forces.
    In spite of the successes to date, low-scale insurgent attacks 
continue, and more disturbingly, opium production reached record levels 
last year. Afghanistan is responsible for most of the world's opium 
supply, and 80 to 90 percent of the heroin on the streets of Europe. 
Eliminating the cultivation of poppies used to produce opium is 
Afghanistan's number one strategic challenge. Illicit drug activity in 
Afghanistan funds terrorism and interferes with good government and 
legitimate economic development.
    Coalition soldiers are assisting in the counternarcotics effort in 
Afghanistan by reporting, confiscating or destroying drugs and drug 
equipment encountered in the course of normal operations, sharing 
intelligence, helping to train Afghan security forces, and, through our 
Provincial Reconstruction Teams, by providing assistance in communities 
migrating to legal crops and businesses. Ultimately, the Afghan 
government, aided by the international community, must address drug 
cultivation and trade with a broad-based campaign that includes 
creating viable economic alternatives for growers and manufacturers.
    Achieving security in Afghanistan is very dependent on disarmament, 
demobilization and reintegration; cantoning heavy weapons; curbing 
warlordism; and defeating the narcotics industry. President Karzai's 
patience and persistence in dealing with factional leaders continues to 
achieve results. Over 40,000 former militia troops have been disarmed 
and demobilized, nearly 96 percent of the known heavy weapons were 
cantoned peacefully, and factional disputes continue to yield to 
central government resolution. The power of the warlords is 
methodically giving way to credible, effective national institutions.
    Working closely with President Musharraf of Pakistan and President 
Karzai, we have been able to increase coordination among Coalition, 
Afghan and Pakistani forces along the border. The Pakistani government 
has taken the initiative to increase their military presence on the 
border, including manned outposts, regular patrols and security 
barriers. Pakistani military units also patrol in the Federally 
Administered Tribal Areas, once considered ``no-go'' areas. Pakistan's 
support in securing key border points was instrumental in shaping a 
relatively secure environment during the Afghan presidential election. 
The Pakistani Army has significantly improved their counter-terrorism 
capabilities, thanks in part to equipment we are providing them, and 
has played a vital role in enhancing security in this region.

                     OTHER U.S. OVERSEAS OPERATIONS

    Even as operations in Iraq and Afghanistan continue, the United 
States will face a number of other challenges and demands for military 
capabilities. Throughout the world, U.S. forces provide stability, 
peacekeeping, humanitarian assistance, and hope; ultimately spreading 
democracy and progress and aiding in the Global War on Terrorism. U.S. 
Armed Forces have conducted operations ranging from our support to 
South and South East Asia for the Tsunami disaster, to keeping the 
peace in Kosovo. Of the over 2.6 million servicemembers serving in the 
Total Force, over 240,000 are deployed overseas in 54 countries or at 
sea. Additionally, 65,000 of these servicemembers are members of the 
Reserve or National Guard.
    Our Armed Forces still have many enduring missions and challenges 
around the world as we fight the Global War on Terrorism. The Joint 
Task Force Horn of Africa at Camp Lemonier, Djibouti continues to 
conduct counter-terrorist and civil affairs operations in Eastern 
Africa. This contingent of 1,100 U.S. forces provides critical security 
assistance in support of civil-military operations and supports 
international organizations working to enhance long-term stability in 
this region.
    In April 2004, we successfully completed the Georgian Train and 
Equip Program, training over 2,700 Georgian troops to meet the rising 
threat of transnational terrorism in the Caucasus. DOD recently 
accepted a Georgian request for U.S. support in training additional 
troops for the United Nations Protection Force and to sustain their 
current troop rotations in Iraq and Afghanistan. Additionally, in 
support of Operation ENDURING FREEDOM, a small contingent of U.S. 
military personnel remains in the southern Philippines aiding their 
forces in training for counter-terrorism operations.
    Expanded Maritime Interdiction Operations (EMIO) have been a very 
successful international effort over the past year to interdict 
terrorists and their resources by sea. All geographic Combatant 
Commanders are successfully pursuing this initiative with particular 
focus on the Persian Gulf, Horn of Africa, the Mediterranean and 
throughout the Pacific Command. Beyond the goal of eliminating 
terrorist access to the maritime environment, EMIO has had other 
positive effects for the international community, including lower 
insurance premiums in the shipping industry, considerably less illegal 
immigration, and a reduction in piracy and narcotics smuggling.
    The Korean peninsula continues to be a region of concern. North 
Korea's military is the world's fifth largest and remains capable of 
attacking South Korea with little further preparation. Our goals are 
for North Korea to dismantle their nuclear programs in a verifiable 
manner, eliminate their chemical and biological weapons programs, 
reduce their conventional threat posture, and halt their development 
and proliferation of ballistic missiles. North Korea announced its 
withdrawal from the Nuclear Non-proliferation Treaty (NPT) in January 
2003, and made clear its intentions to pursue its nuclear weapons 
program. To deal with the threat presented by North Korea's nuclear 
program, the United States has steadfastly pursued a multilateral 
diplomatic solution through the Six-Party talk process. There have been 
three rounds of the talks to date, the last occurring in June of 2004. 
North Korea has refused to return to the talks, citing United States 
``hostile policy,'' despite our government's clear and unequivocal 
statements that the United States has no intent to invade or attack 
North Korea.
    North Korea is also one the world's leading suppliers of missiles 
and related production technologies, having exported to countries in 
the Middle East and North Africa as well as Pakistan. North Korea is 
expected to increase its nuclear weapons inventory by the end of the 
decade and continues to invest heavily in ballistic missiles and the 
infrastructure to support them. Taken together, North Korea's actions 
constitute a substantive threat to global security.
    The United States remains committed to maintaining peace and 
stability on the Korean Peninsula. We provide military deterrence and 
defensive capabilities in combination with our South Korean ally and 
through maintaining strong military and diplomatic ties with our 
regional partners. The United States and Republic of Korea (ROK) 
alliance remains strong, and we are improving our overall combat 
effectiveness while eliminating dated infrastructure and reorganizing 
our footprint to lessen the burden on the people we are defending. We 
still need to resolve a number of issues, but there is no doubt that 
the alliance is enduring, as is the U.S. commitment to the defense of 
the Republic of Korea. The Republic of Korea is a major contributor to 
the Coalition in Iraq, providing over 3,300 troops.
    Iran's apparent pursuit of nuclear weapons and the implications of 
their being a nuclear-equipped state sponsor of terrorism adds 
substantially to instability throughout the Middle East. While I hope 
that the efforts of the International Atomic Energy Agency and the 
European Union will deter and dissuade Iran from pursuing a nuclear 
weapons program, I have no long-term basis for optimism. So far, there 
have been no signs that Iran will give up its pursuit of uranium 
enrichment capability. I am also concerned with the Iranian 
government's continued attempts to influence the political process in 
Iraq and marginalize U.S. assistance in Iraq and throughout the region.
    We must stay focused on the enormous global threat posed by the 
proliferation of Weapons of Mass Destruction (WMD). Although 
operationally deployed nuclear weapon numbers are declining in Russia 
and the United States because of treaty commitments, we continue to 
prioritize the safety, security and accountability of these types of 
weapons. Furthermore, we project a slow increase in other states' 
inventories. We are particularly troubled about North Korea's and 
Iran's on-going nuclear weapons-related activities. The trend toward 
longer range, more capable missiles continues throughout the world. We 
believe that some chemical and biological warfare programs are becoming 
more sophisticated and self-reliant, and we fear that technological 
advances will enable the proliferation of new chemical and biological 
warfare capabilities.
    Fighting the proliferation of WMD is a challenging worldwide 
problem and is one of my greatest concerns. Terrorists have stated 
their desire and intent to obtain WMD. While most of this proliferation 
in the past was state-sponsored, proliferation by companies and 
individuals is growing. The revelations about the AQ Khan international 
and illicit nuclear proliferation network show how complex 
international networks of independent suppliers with expertise and 
access to the needed technology, middlemen, and front companies can 
successfully circumvent domestic and international controls and 
proliferate WMD and missile technology. Within DOD, the SecDef has 
tasked the U.S. Strategic Command to synchronize our efforts to counter 
WMD and ensure the force structure and the resources are in place to 
help all combatant commands defeat WMD.
    Proliferation Security Initiative (PSI) operational activities are 
central to DOD efforts to counter proliferation of WMD. We will 
continue to work with key countries to develop expanding circles of 
counter proliferation cooperation. We have been very successful in the 
last year. Today, more than 60 nations have endorsed the principles of 
PSI, with a number of others expressing willingness to cooperate in PSI 
efforts. 19 nations form the PSI Operational Experts Group. We are 
conducting PSI exercises around the world to enhance international 
interdiction capabilities and to serve as a deterrent to curtail the 
proliferation of WMD and the means to deliver those weapons. In October 
2003, our WMD counter proliferation efforts provided a key motivation 
for Libya's abandonment of its WMD programs and helped speed the 
dismantling of the AQ Khan nuclear proliferation network. The key to 
success in combating WMD proliferation remains committed international 
partnership.
    Today, the NATO Alliance is the most important and capable security 
alliance in the world. NATO commitment across the globe, to include 
operations in Iraq and Afghanistan, has been very good. However, there 
is room for improvement. Lack of defense funding by NATO Allies places 
a strain on the Alliance and our collective defense capability. Despite 
the general agreement that nations would hold their defense budgets at 
no lower than 2 percent of their gross national product, unfortunately, 
today, 50 percent of the nations in the Alliance are below 2 percent. 
This inadequate spending threatens NATO's ability to transform and 
adequately meet the Alliance's commitments. Additionally, member 
governments place numerous caveats on the use of their forces, 
rendering these forces less effective. For example, during the unrest 
in Kosovo last March, governmental caveats kept some countries from 
responding to the crisis. Finally, NATO needs to create a decision-
making process that supports time sensitive requests. NATO forces have 
been slow to respond to security challenges because the NATO 
bureaucracy was too slow to react. Even with these deficiencies that 
need to be addressed, NATO has proven indispensable in today's security 
environment, and has committed itself to improving its capability.
    Operations in Kosovo and Bosnia and Herzegovina stand as the 
definitive examples of how NATO can bring peace and stability to war-
torn regions. Additionally, the NATO Response Force (NRF) reached its 
initial operating capability last October. The NRF gives NATO a joint 
force tasked to quickly deploy and execute the full spectrum of NATO 
missions. The Alliance's most recent success occurred in December when 
NATO concluded its first successful peacekeeping mission in its 
history. The successful Stabilization Force Mission in Bosnia-
Herzegovina was brought to completion after 9 years and, at its peak, 
consisted of over 60,000 Allied troops. In total, over 500,000 NATO 
soldiers from 43 nations and 90,000 U.S. troops participated in 
operations that set the stage to establish judicial, economic, and 
governmental systems leading to self-governance in Bosnia and 
Herzegovina. NATO and the United States will remain engaged in Bosnia, 
where NATO has established a new headquarters that will have the lead 
role in supporting Bosnian defense reform. NATO forces will continue to 
hunt for war criminals, and will prevent terrorists from taking 
advantage of Bosnia's fragile structures. This NATO force will work 
closely with the newly created European Union (EU) Force and will 
retain access to the full range of military authorities provided under 
the Dayton Accords. The EU mission will focus on Bosnia's current 
security challenges, such as organized crime. This spring, the North 
Atlantic Council will review the Kosovo mission and the forces 
required. Based on this review, we will work with our NATO Allies to 
respond to the evolving security environment.
    Narco-terrorism presents a global threat to security, prosperity, 
and good governance. Through Counter Narco-Terrorism operations, the 
United States is building coalitions, training and equipping forces, 
and enhancing the capabilities of allies in the Global War on 
Terrorism. Ongoing U.S.-sponsored multilateral operations promote 
security, improve effective border control, deny safe havens and 
restrict the ability of the narco-terrorists to operate with relative 
impunity.
    Counter Narco-Terrorism (CNT) successes in Colombia over the last 
year have been exceptional. We appreciate recent Congressional action 
to increase the troop cap for DOD personnel operating in Colombia. This 
allows U.S. Southern Command (SOUTHCOM) to maintain the flexibility to 
meet existing mission requirements while increasing information, 
logistic and training support to the Government of Colombia during the 
execution of Colombia's current Counter-Narco Terrorism campaign, Plan 
Patriota.
    With approximately 18,000 members, the Revolutionary Armed Forces 
of Colombia (FARC) is the largest Narco-Terrorist (NT) group operating 
in Colombia, followed by the United Self-Defense Forces of Colombia 
(AUC) and the National Liberation Army (ELN). In the past year, through 
a combination of aggressive CNT operations and offers of amnesty, 
Colombian security forces engaged in Plan Patriota have killed or 
captured 10 senior ranking members of the FARC and have demobilized 
record numbers of Narco-Terrorism group members. The Colombian 
Government is engaged in a peace process with the AUC that has already 
resulted in the demobilization of over 4,000 combatants. As a measure 
of the improved quality of life in Colombia, in the last year, 
massacres committed by Narco-Terrorism groups against civilians have 
decreased 44 percent, kidnappings decreased 42 percent, and attacks 
against infrastructure have decreased 42 percent. Cocaine seizures have 
increased 43 percent while heroin seizures have increased 72 percent.
    In response to the devastating and tragic Tsunami last December, 
the U.S. military responded immediately with humanitarian assistance to 
South and South East Asia. We quickly established a Combined Support 
Force headquarters in Thailand. During the height of the humanitarian 
effort, more than 25 U.S. ships, 50 helicopters, numerous support 
aircraft and 15,000 U.S. troops were involved in delivering and 
distributing relief. Over 3,300 relief sorties were flown. Sailors, 
Marines, Soldiers, Airmen and Coastguardsmen provided over 5000 tons of 
relief supplies including over 420,000 gallons of water. Working with 
local governments, NGOs and international organizations, servicemembers 
provided all facets of humanitarian assistance, including providing 
medical care, clearing debris, and repairing critical infrastructure. 
This operation was a tribute to the versatility, responsiveness and 
compassion of our joint forces.
    The U.S. Government has recently developed an excellent combating 
terrorism planning mechanism through the NSC-led Regional Action Plans 
for Combating Terrorism (RAP-CTs). These RAP-CTs are the primary 
vehicle for the Interagency to coordinate and deconflict Global War on 
Terrorism activities on a regional basis. This process is an 
Interagency success story, and the DOD is fully engaged in these 
planning activities.
    Our global operations show the remarkable versatility, flexibility, 
agility, and professionalism of our American Armed Forces and highlight 
our effectiveness in fighting the Global War on Terrorism. Very few 
nations can field a force capable of expertly conducting simultaneous 
combat, peacekeeping, and humanitarian operations around the world, 
while maintaining the flexibility to seamlessly transition from one 
mission to another.

                           JOINT WARFIGHTING

    Our forces are the world's most capable, in large part because they 
are the best trained and equipped. They continually strive to be the 
best joint warfighters in the world, they work extremely hard and they 
are taking joint warfighting to the next level by working closely with 
our interagency partners. Our forces possess the requisite personnel, 
equipment, and resources to accomplish the military objectives outlined 
in the National Military Strategy. Our forces--whether forward 
deployed, operating in support of contingency operations, or employed 
in homeland defense--remain capable of executing assigned missions. But 
there are many challenges to meeting these commitments.
    Our Nation's number one military asset remains the brave men and 
women serving in our Armed Forces. They have the training, spirit and 
agility to use modern technology to form the world's preeminent 
military force. They have the dedication, courage, and adaptability to 
combat dynamic global threats. The Administration, Congress and DOD 
have made raising our servicemembers' standard of living a top 
priority, and I thank Congress for your tremendous support to our 
troops and their families during my tenure as Chairman.
    The President's budget includes a 3.1 percent increase in basic 
pay, which keeps military pay competitive. We must ensure the civilian-
military pay gap does not widen and that we support our Armed Forces 
with pay befitting their experience level, skills, and service. Thanks 
again to your actions, the aggressive increases in Basic Allowance for 
Housing eliminated an 18.8 percent deficit over the past 5 years and 
allowed us to eliminate average out-of-pocket housing expenses this 
year. Danger area compensation and other combat-related initiatives 
passed into law have also had a positive impact, mitigating the 
challenges of retaining and compensating our servicemembers serving in 
combat. Benefit increases have helped close the pay gap, improve health 
care and housing, and significantly contributed to improving the 
quality of life of our forces. As fiscal challenges mount for the 
Nation, I stand ready to work closely with Congress and the 
Department's civilian leadership regarding future benefit increases. 
Close coordination will ensure that our limited resources are used 
effectively to sustain our all-volunteer force.
    DOD and Congress are working together to increase benefits for the 
survivors of deceased servicemembers. While no benefits can replace the 
loss of a human life, I agree that improvements are needed.
    Current stresses on the force are significant and will remain so 
for the near term. I am concerned with the wear and tear on our 
equipment, especially our vehicles. High operational and training tempo 
is putting up to 5 years worth of wear on equipment per year, placing a 
huge demand on maintenance, supply, depot repair and production. In 
some units, combat-related damage is high, and there is substantial 
equipment damage caused by the harsh environment in Iraq and 
Afghanistan. Additionally, many units leave their equipment overseas 
when they return from deployment, requiring re-supply and 
reconstitution as they train for their next deployment.
    We continue to analyze our policies and make changes to mitigate 
readiness challenges to include how forces are selected for deployment, 
reserve mobilization, training, equipment wear and reset, unit 
reconstitution, and improving Command, Control, Communication, and 
Computer System infrastructures. Congressional support, both in the 
annual budget and supplemental funding, has been essential for 
continued operations, Army modularization, and recapitalization. 
However, many of the programs we have put in place take time to 
develop. We are currently addressing the significant stress in critical 
specialties in Combat Support and Combat Service Support, as well as 
Low Density/High Demand assets. Unit reconstitution of both equipment 
and trained personnel is also a challenging process. Our DOD fiscal 
year 2005 Supplemental request currently before the Congress is 
essential to all of these efforts, and I urge the Congress to act 
promptly and fully on this request.
    We continue to rely heavily on our Reserve and Guard personnel. Our 
Reserve Components are serving critical roles in OIF and OEF, the 
Global War on Terrorism, and Homeland Defense, as well as serving 
around the world in other operations and activities. Citizen-soldiers 
in the Reserve Component are an important link to the American people. 
Morale in both the active and Reserve Component remains high, and their 
support by the American people has never been higher. As of April 2005, 
Guard and Reserve personnel comprised 33 percent of our Force in Iraq, 
21 percent in Afghanistan, and 45 percent in Djibouti. We need to 
continue to review and update our processes to improve the efficiency 
and agility of our mobilizations. We are well aware of the strains on 
members, their families, and their employers, and we continuously seek 
better ways to support them.
    While we have made strides in improving predictability and benefits 
for our Reserve Component servicemembers and continue to pursue 
rebalancing initiatives--especially in low density and high demand 
forces--significant additional steps are underway. The Reserve 
Component Cold War-era processes and policies that have guided 
training, readiness, administration, pay and health benefits, personnel 
accountability and mobilization must be reformed and streamlined if we 
are to have the deployable and sustainable Reserve Component force that 
our Nation needs. I look forward to working with the new Congressional 
Commission on Guard and Reserve matters to chart the future course for 
our very important Reserve Component.
    In order to help compensate for the high-tempo force and materiel 
requirements associated with ongoing operations for the Total Force, we 
have revised many of our processes to improve readiness forecasting. We 
have identified Service and Combatant Command requirements, determined 
the scope of required reset actions, improved on forecasting demands, 
and addressed industrial base shortfalls. We have developed many of 
these solutions with the help of the Joint Quarterly Readiness Review 
process, and the DOD is developing a web-based Defense Readiness 
Reporting System. These efforts are part of an ongoing effort to 
improve our readiness reporting and responsiveness throughout the 
Services, the DOD and the Joint Staff.
    By using all of these tools, we have identified readiness 
challenges and will continue to refine our priorities to successfully 
carry out our missions. This year's budget submission and the 
supplemental request greatly mitigate some of these readiness 
challenges, but many will remain as we continue to engage in sustained 
combat operations.
    Because today's security environment demands a global perspective, 
in June 2004, SecDef approved a new Global Force Management process and 
designated Joint Forces Command (JFCOM) as the primary Joint Force 
Provider. These changes will ensure the warfighters get the right 
forces from the right sources, focusing globally instead of regionally. 
In the future, JFCOM will coordinate all conventional force sourcing 
recommendations, excluding those assigned to Special Operations Command 
(SOCOM), Strategic Command (STRATCOM), and Transportation Command 
(TRANSCOM). This is a new mindset. Integral to this new methodology is 
the Global Force Management Board. This board is composed of General 
Officer/Flag Officer-level representatives from the Combatant Commands, 
Services, Joint Staff and OSD who review emerging force management 
issues and make risk management recommendations for approval by the 
SecDef.
    The pace of operations around the globe since 9/11 has led to 
Operational Tempo (OPTEMPO) and Personnel Tempo (PERSTEMPO) that are 
hard to sustain indefinitely in many specialties. As a risk mitigator, 
we have temporarily increased our end strength in the Army and Marine 
Corps. Making these personnel increases permanent is very expensive. 
Before making our currently increased level of forces permanent, we 
need to assess current force management initiatives and our future 
global commitments. Initiatives like the Army's transformation to a 
modular-based organization help accomplish this. Having the right force 
to meet today's threats is critical. The Quadrennial Defense Review 
will aid in this assessment and help us make informed decisions about 
the appropriate size and composition of our force structure and manning 
to achieve our strategic objectives.
    One of the readiness challenges facing our forces is adequately 
resourcing Combat Service and Combat Service Support billets. To help 
these stressed career fields, we are aggressively rebalancing our force 
structure and organizations. Through fiscal year 2011 we expect to 
rebalance mission and skills for over 70,000 billets in the Active and 
Reserve components. Additionally, we have approximately 42,000 military 
to civilian conversions planned. The conversions will free up military 
billets to help reduce stress on the force. Together, these initiatives 
rebalance over 110,000 billets with a primary focus on high-demand 
specialties, including civil affairs, military police, intelligence, 
and Special Forces.
    The DOD depends on the skills and expertise of its civilian 
workforce as a force multiplier. We simply could not perform our 
mission without the support, dedication, and sacrifice of our DOD 
civilian employees at home and overseas. To help simplify and improve 
the way it hires, assigns, compensates, and rewards its civilian 
employees, the DOD will implement the first phase of the National 
Security Personnel System this July. This system will improve the 
management of our civilian workforce, allowing for greater flexibility 
to support evolving missions.
    As of April 1, 2005, enlisted recruiting within the active 
components remains strong except for the Army, which is at 89 percent 
of their goal. Many factors contribute to the Army's recruiting 
challenge, including their fiscal year 2005 end-strength increase and a 
resulting increase in the total number of recruits needed in fiscal 
year 2005. In the Reserve Component, recruiting continues to be a 
challenge. Of the six Reserve Components, only the USMC Reserve and Air 
Force Reserve made their recruiting goals through March. Each Service 
and component has mitigating plans and is aggressively attacking the 
problem. The Army Reserve Components will continue to be particularly 
challenged since more active Army soldiers are staying in the active 
force, and of those who get out, fewer are joining the Army Reserve 
Component. We have increased the number of recruiters and restructured 
enlistment bonuses to help mitigate these challenges.
    The Services are on track to meet their annual end strength goals 
except for the Army Reserve Components and the Navy Reserve. The Army 
National Guard's end strength is currently at 95 percent and the Army 
Reserve's strength is 96 percent. The Navy Reserve is at 94 percent of 
its authorized end strength, which is on track to meet their target for 
fiscal year 2007.
    We also need to look very closely at the experience level and 
demographics of the people who are leaving the Armed Forces. The 
leadership skills and combat skills that our servicemembers are gaining 
while fighting this Global War on Terror are priceless. It takes years 
to train quality leaders, and we need today's best officers and NCOs to 
become tomorrow's senior leaders.
    The Army Stop Loss policy is vital to their efforts in the GWOT. 
This policy affects the Active Army forces in OIF and OEF, and Army 
National Guard and Reserve members assigned to units alerted or 
mobilized that are participating in OIF, OEF or Operation NOBLE EAGLE. 
Stop Loss currently affects alerted Active and Reserve soldiers 
typically from 90 days before their mobilization or deployment date, 
through their deployment, plus a maximum of 90 days beyond their return 
from deployment. Stop Loss is essential to ensuring unit integrity 
during combat operations. As authorized under Title 10, the size of 
future troop rotations will in large measure determine the levels of 
Stop Loss needed in the future. Initiatives such as Force 
Stabilization, Modularity and the Army's active and reserve component 
rebalancing should alleviate some of the stress on the force.
    Protecting our troops remains a top priority. The rapid production 
and distribution of Interceptor Body Armor to our forces in OIF and OEF 
was a tremendous success. 100 percent of U.S. Government civilians and 
U.S. military members in Iraq, Kuwait, Afghanistan, and the Horn of 
Africa have had body armor since February of 2004. The Army has 
aggressively managed this critical item, accelerating production and 
fielding rates. The Army is now fielding Deltoid Auxiliary Protection 
armor and the Marine Corps is fielding Armor Protective Enhancement 
System to help protect shoulder and armpit regions that are not 
currently covered by Interceptor Body Armor. With your support, we will 
continue to work diligently to provide the best protective equipment 
for our troops.
    Clearly as essential as providing body armor for our troops is 
providing armored vehicles to transport them. Our successes in 
increasing armor production have recently allowed us to institute a 
policy that servicemembers leaving Iraqi forward operating bases must 
be in vehicles with armor protection, whether a Humvee, truck, or other 
tactical wheeled vehicle.
    The evolving threat in the Central Command Area of Responsibility 
(CENTCOM AOR) has significantly increased the requirements for the Up 
Armored Humvee and armor protection for all vehicles. In May 2003, the 
CENTCOM requirement for Up Armored Humvees was just 235. Their 
requirement is now over 10,000. CENTCOM has over 7,300 Up Armored 
Humvees, and the Army will meet the requirement of 10,000 by this July.
    There are three levels of armor protection for all tactical 
vehicles. A Level 1 vehicle is provided directly from the manufacturer 
with integrated armor protection against small arms, IEDs, and mines. A 
Level 2 vehicle is equipped with a factory built, add-on kit installed 
in theater, to provide similar protection. Level 3, is a locally 
fabricated armor kit. Level 3 provides comparable protection to Level 
2, excluding ballistic glass. All three levels meet detailed Army and 
Marine Corps specifications. Overall, of the more than 45,000 tactical 
wheeled military vehicles in CENTCOM, 87 percent have armor protection. 
As factory production of Level 2 kits has steadily increased to meet 
the changing requirement, the Army is replacing Level 3 with Level 2 
armor. To accelerate this transition, the Army has added two truck 
installation facilities, making a total of five facilities in theater 
dedicated to installing factory-produced protection to our vehicles. 
Navy and Air Force military and civilian personnel are continuing 
efforts to accelerate armor installation in Iraq and Kuwait. 
Additionally, the Army is applying Level 2 armor in the United States 
before units deploy.
    Even as we approach our goals for the number of armored vehicles in 
Iraq, the Army is fielding new capabilities to further protect our 
troops. Troops returning from Iraq are talking to industry leaders 
about better, and safer armor design and systems. We continue to refine 
the entire range of tactics, techniques, and procedures used to move 
needed personnel and supplies. For example, we have doubled the number 
of direct air delivery hubs in Iraq, and expanded intra-theater airlift 
to reduce the number of convoys traveling through high-risk zones. 
Since the beginning of these air-delivery initiatives earlier this 
year, we have been able to reduce the number of truck movements used to 
move equipment and supplies by 4,200. Because we cannot eliminate the 
risks entirely, we are rapidly developing systems to counter threats, 
including Improvised Explosive Devices. Overall, our efforts have been 
successful and are saving lives and limbs. With the continued strong 
support of Congress, we will continue to provide the best protection 
possible for our personnel.
    Combatant Commanders and Services continue to identify preferred 
munitions shortfalls as one of their areas of concern, including Laser 
Guided Bombs and Joint Direct Attack Munitions production. Supplemental 
funding and programmed budget authority have bolstered Joint Direct 
Attack Munitions 193 percent and Laser-Guided Bomb kits 138 percent in 
the past year, continuing to reduce the gap between requirements and 
available inventory. In the long-term, we need to continue to fund the 
development of weapons like the Small Diameter Bomb, Joint Air-to-
Surface Standoff Missile, and Joint Standoff Weapon to build on our 
precision-delivery capabilities.
    Last year, the DOD developed overarching policy and procedures for 
managing contractors during contingency operations. Once reviewed and 
approved by the Department, these documents will greatly aid in 
coordinating contractor operations.
    The vision for Joint Professional Military Education (JPME) can be 
summed up as delivering the right education, to the right people, at 
the right time, focusing on improved joint warfighting. Cold War 
threats and force structure were the building blocks for Joint Officer 
Management policies codified in the 1986 Goldwater-Nichols legislation. 
The requirement for JPME trained forces throughout different levels of 
seniority has grown significantly since the law went into effect. Over 
the last 3 years we have expanded JPME across the ranks and components 
to include an expansion of JPME phase two opportunities, JPME 
opportunities for enlisted personnel, junior officers starting with 
precommissioning, Reserve Component officers, senior enlisted advisors, 
and for two-and three-star general and flag officers. Training for 
Combatant Commanders is in the planning stage.
    As we redefine jointness with our changing roles and missions, 
Congress has played a vital role in adapting JPME to this new 
environment by tasking DOD in the National Defense Authorization Act 
for 2005 to develop a new strategic plan for joint officer management. 
We must develop leaders at all levels capable of effectively 
accomplishing our strategic and operational objectives. As an example, 
we are looking at the core competencies required for our Joint C4 
Planners and defining what it takes to train, educate and certify them 
in their profession, similar to our certification and training 
standards for our pilots.
    Providing opportunities for foreign military personnel to train 
with U.S. forces is essential to maintaining strong military-to-
military ties. Whether through classroom training or major exercises, 
training and education received by our allies helps build and maintain 
skilled coalition partners and peacekeepers and affords many future 
leaders the opportunity to live in our culture and understand our 
values. Many of the sharp mid-grade foreign officers who attended U.S. 
military training and exercises in the past decades are leading their 
militaries and countries around the world today. Over the past 5 years, 
the IMET budget has nearly doubled, from $50 million in fiscal year 
2000 to nearly $90 million in fiscal year 2005. It is in our best 
interest to keep this important IMET process on track, and I thank 
Congress for continued support and funding of this important program.
    Because these training opportunities and military-to-military 
relationships forged among allies are so important, I am concerned with 
U.S. Government restrictions that limit these relationships. The first 
is the Visa restrictions that affect foreign military personnel 
visiting the United States for training. The second is legislative 
restrictions. One example is the restriction placed on countries 
affected by the American Servicemembers' Protection Act (ASPA). ASPA's 
provisions ensure and enhance the protection of U.S. personnel and 
officials, but an unintended consequence has been a reduction in 
training opportunities with countries not supporting the Act.
    Anthrax represents a significant threat to our Forces and I fully 
support the resumption of the Anthrax vaccine program. DOD is in full 
compliance with the April, 2005 court order requiring DOD to explain to 
servicemembers their right to refuse the vaccine.
    Ongoing operations in Iraq and Afghanistan and the current global 
environment have made the Combatant Commander Initiative Fund (CCIF) a 
high demand asset for sourcing the combatant command's emergent 
warfighting needs. These funds allow the warfighting commanders to 
quickly mitigate financial challenges encountered during combat 
operations. Combatant Commanders use CCIF extensively and I support the 
full funding of this program to ensure we are responsive to the 
warfighter's short-fused needs.
    The CJCS managed Joint Exercise Program (JEP) provides the 
transportation funding that supports the Combatant Commanders' Joint 
and multi-national training which influences the Global War on 
Terrorism, and supports our theater security cooperation plans 
worldwide. Since 9/11, high OPTEMPO and PERSTEMPO have forced the 
Combatant Commanders to reduce the Joint Exercise Program demand by 36 
percent. In response to this dynamic environment, the Joint Staff has 
changed the program to make it strategy based and more responsive to 
the warfighters requirements. This year, JEP is conducting 117 
exercises. 82 percent of these are focused on Theater Security 
Cooperation, preparation for OIF and OEF, and special operations forces 
activities, all of which are directly applicable to fighting the Global 
War on Terrorism. It is essential that Congress fully fund the 
Combatant Commanders' Joint Exercise Program.
    Our joint warfighting operations around the world have clearly 
shown that freedom of navigation, both on the sea and in the air, 
remains absolutely critical to military planning and operations and is 
vital to U.S. national security interests. I strongly support U.S. 
accession to the Law of the Sea Convention as the best means to protect 
our navigational freedoms from encroachment.
    We have many challenges facing our Joint Warfighting team as we 
enter our fourth year of sustained combat operations. I am acutely 
aware of the effects of operational demands on our Total Force. The 
Army Reserve recently highlighted that under current policies governing 
mobilization, training, and manpower management, they cannot sustain 
their current OPTEMPO demands and then regenerate their forces. This is 
a tough problem, but we have many initiatives in place to mitigate this 
and other challenges affecting our overall readiness status in 2005. 
Our Total Force can continue to support the National Security Strategy 
and this current high operational tempo, but we must analyze, refine 
and reassess our efforts so we can transform the force for the 
challenges of the 21st Century.

                         TRANSFORMING THE FORCE

    I am proud of the transformational efforts and successes in the 
U.S. military, but we must continue our efforts to meet the challenges 
facing our country today and in the future. We are a Nation at war, so 
one of our greatest challenges in the military is to transform while 
conducting joint warfighting in the Global War on Terror, protecting 
the United States from direct attack, and reducing the potential for 
future conflict. We must continue to invest heavily in transformation, 
both intellectually and materially.
    Transformation is not simply applying new technology to old ways of 
doing business. Transformation requires cultural change, new ways of 
thinking about problems, and changes in how we organize and train. I am 
proud of the innovation and initiative I see from our servicemen and 
women, both on headquarters staffs and in the field. The concept of 
Transformation is central to all our assessment and procurement 
processes. This year, we will work through three major processes--QDR, 
Base Realignment and Closure Commission (BRAC) and Integrated Global 
Presence and Basing Strategy--that have a long term, broad impact on 
our force posture.
    The Office of the Secretary of Defense is leading the 2005 
Quadrennial Defense Review process. The QDR will provide a 
comprehensive strategic plan that will set the standard for 
transforming the Armed Forces to ensure success against a wide range of 
national security challenges. This is the third Quadrennial Defense 
Review, and it is unique in that we have been engaged in sustained 
combat operations for the last 4 years. The QDR is underway and is 
scheduled to be released in February 2006. By law, the CJCS will assess 
the results, and risks, and make recommendations on the roles and 
missions of the DOD.
    I thank Congress for continued support of our Base Realignment and 
Closure process. Past BRAC efforts, in the aggregate, closed 97 
installations and affected many others within the United States. 
Through fiscal year 2001, these actions produced a net savings of $17 
billion and an annual savings thereafter of about $7 billion. In March 
of 2004, the SecDef and I reported to Congress that the Department had 
substantial excess capacity. While we recognize BRAC is a challenging 
process, clear evidence of this excess capacity, coupled with a history 
of savings from past BRAC efforts, makes the argument for completing 
BRAC 2005 all the more compelling. BRAC 2005 provides an excellent 
opportunity to further transform the DOD by comparing our 
infrastructure with the defense strategy. BRAC is a valuable tool for 
maximizing our warfighting capability and eliminating excess capacity 
that diverts scarce resources away from more pressing defense needs.
    One of our near-term transformational challenges is to better use 
the forces we have to provide needed capabilities to the Combatant 
Commander. The Integrated Global Presence and Basing Strategy (IGPBS) 
transforms the Cold War footprint into one focused on capabilities, 
employing CONUS-based rotational forces that are lean and agile. This 
strategy enables rapid power projection and expands global presence and 
theater security programs by combining quick deployment, CONUS-based 
forces, with strategically positioned overseas-based forces. This 
strategy reduces the requirement for overseas support infrastructure 
and forces. Fewer remote-duty tours and longer CONUS assignments will 
mitigate family stress. Complementing IGPBS is the Army's 
transformation to brigade-centric modular forces that will increase the 
number of brigades available to rotate overseas from 33 to at least 43 
active brigades by 2010.
    DOD has already made many changes to our global posture since the 
2001 Quadrennial Defense Review. The Combatant Commanders have 
continued to adjust our footprint to make our forward-stationed forces 
more relevant to our current and future challenges. These posture 
initiatives are not only about adjusting numbers, but also about 
positioning the right capabilities forward to meet our needs and 
security commitments, while enhancing allies' and partners' 
transformation efforts in support of the Global War on Terrorism and 
regional security initiatives. For example, the SecDef has already 
approved several reductions within EUCOM and U.S. Forces Korea. The 
DOD, with the help of the Interagency, is moving forward in discussions 
with allies and partners on other specific proposals. As these 
discussions mature we must address the facilities and infrastructure 
needed to enable these capabilities. Our requests for overseas military 
construction this year are consistent with these plans and support our 
Combatant Commanders' transformation initiatives. I encourage your 
support in funding these critical projects.
    We are reviewing many important weapon systems and DOD programs as 
we continue to transform. The Department's fiscal year 2006 budget 
submission restructured or reduced some programs and force structure. 
We focused on supporting current operations, near-term readiness and 
critical transformational programs. Reductions targeted areas where we 
have capability overlap, or the near-term risk was deemed acceptable to 
fund higher priorities. We will examine all of these programs and 
issues during the Quadrennial Defense Review and through other 
assessment tools like the Joint Requirements Oversight Council. We will 
maintain sufficient combat capability to execute our National 
strategies as we transform the Armed Forces to counter increasingly 
dangerous, dynamic, and diverse threats.
    We are transforming across the force. In 2004, we took some big 
steps and made some difficult decisions, and we are already seeing 
positive results. Examples include the Army's restructuring into 
modular formations, and the Navy's continuing transformation of its 
force to include the restructuring of deployment cycles. Despite the 
demands of current operations, we remain focused on a wide array of 
transformational weapon systems and programs.
    Maintaining supremacy over our enemies in both combat aircraft and 
combat support aircraft is a top joint warfighting priority. The 
continued development and production of the F/A-22 Raptor, V-22 Osprey, 
C-17 Globemaster III, E-10 Battle Management, F/A-18 Super Hornet, P-8A 
Multi-mission Maritime Aircraft, and UAVs are critical to maintaining 
this air supremacy. While some of these programs have been 
restructured, they remain very important joint warfighting platforms 
that are required to meet our National Security and military 
strategies.
    We need to continue to fully support the F-35 Joint Strike Fighter 
program. The F-35 is truly a joint aircraft, with three variants 
planned. This aircraft will be the mainstay of the next generation of 
the Air Force, Navy, Marine Corps and our allies' tactical aviation 
wings. The aircraft is in its 4th year of an 11-year development 
program, and will be a giant leap over the existing fighter and attack 
aircraft it is programmed to replace. The current design challenge is 
weight, which impacts performance requirements, particularly for the 
Short Takeoff and Vertical Landing variant. Design teams have worked 
diligently to solve the weight issue and the F-35 is on track to meet 
weight requirements at IOC. The DOD has moved the first planned 
production procurement to the right 1 year, to fiscal year 2012 for the 
USMC variant and fiscal year 2013 for the USAF/USN variant. DOD has 
also added extra money to development.
    To remain a truly global force, we must modernize our aging aerial 
refueling fleet. In November 2004, the Joint Resources Oversight 
Council approved the Air Refueling Aircraft Initial Capabilities 
document that identified a shortfall in our air refueling capability 
and provided a modernization, recapitalization, and transformation plan 
for the Air Force aerial refueling fleet. The Air Force is still 
studying alternatives. Based on the results of these studies, the DOD 
will develop a cost-effective strategy for sustaining this critical 
joint warfighting capability.
    The DOD continues to make progress in providing missile defenses 
for our homeland, deployed forces, friends and allies. The DOD placed 
six ground-based interceptors in Alaska and two in California to 
provide a rudimentary capability to defend the United States from 
ballistic missile attack. The system is undergoing operational 
shakedown concurrent with continued research, development and testing. 
Confidence in the system readiness will come from ongoing ground 
testing, flight-testing, modeling and simulation, war games and 
exercises. As we make progress in the program and refine our 
operational procedures, the SecDef will decide when to place the system 
in a higher state of readiness.
    Our maritime forces are aggressively pursuing their transformation 
efforts. The Navy is moving toward a more flexible and adaptable new 
generation of ships including nuclear aircraft carriers (CVN-21), 
destroyers DD(X), cruisers CG(X), the Littoral Combat Ship (LCS), the 
VIRGINIA-class fast attack submarine, and the enhanced aviation 
amphibious assault ship (LHA (R)). The Marine Corps is working in 
consultation with the Navy concerning the future maritime 
prepositioning force (MPF(F)). The fleet of the future will likely be a 
numerically smaller force, but one with greater combat capabilities. 
The Navy is continuing to study the overall capability and size mix 
required for the Navy of the future.
    Part of our transformation to a more lethal and agile force is our 
move toward Network Centric operations. Network Centric operations 
enable us to provide decisive combat power from a fully connected, 
networked and interoperable force. Central to this capability is the 
Global Information Grid (GIG). The GIG provides the backbone systems 
that provide global, end-to-end communications for DOD. The GIG will 
combine our future-force space and terrestrial C4 programs under one 
communications umbrella. Protecting the information on the GIG is also 
essential to warfighting operations, and our information assurance 
efforts continue to be a very high priority.
    DOD Space capabilities are integral to the broad range of military 
operations we face today, and essential to meeting the challenges of 
the future. These capabilities provide decisive advantages for our 
Nation's military, intelligence, and foreign policy. They help warn of 
terrorist attacks and natural disasters. To meet these needs, Joint 
force commanders must have integrated Command and Control systems to 
dominate the battlefield.
    Today, bandwidth demand exceeds our DOD space system capabilities, 
and our warfighting requirements continue to increase at a very high 
rate. More and more of our aging satellites are nearing the end of 
their expected life cycle. In response, DOD is developing new space 
communication systems such as the very important Advanced Extremely 
High Frequency (AEHF) Satellite program and the Transformational 
Communications Satellites (TSAT)/MILSATCOM program. AEHF is a critical 
system that will significantly increase our secure communication 
capabilities over the current Milstar system, and provide a bridge to 
TSAT. TSAT will provide a leap in our communications capabilities and 
will greatly enhance communications on the move, and assured command 
and control of our conventional and nuclear forces. It will allow 
small, mobile units to connect to the GIG anywhere in the world and 
will help provide persistent and detailed intelligence to the 
warfighters.
    The Joint Tactical Radio System (JTRS) is a transformational 
software-programmable radio that will provide seamless, real-time 
voice, data, video and networked communications for joint forces. More 
than a radio replacement program, JTRS provides the tactical warfighter 
with net-centric capabilities and connectivity to the GIG. This new 
radio system is a significant improvement in capability and 
interoperability for the joint warfighters, and plays a critical role 
in networking our 21st century force.
    Internationally, we made progress last year negotiating with the 
European Union with regard to their Galileo global positioning 
satellite system. The United States and the EU signed an agreement in 
June 2004 that stipulates Galileo signal structures will ``cause no 
harm'' to our future military use of GPS. Several international working 
groups established by that agreement will soon assess how future GPS 
and Galileo signal structures will interact.
    Moving away from specific systems, there are several 
transformational concepts and programs. One of the most important goals 
of the Intelligence Reform efforts must be to ensure warfighters have 
unhindered access to intelligence to conduct their operations. We must 
be able to task national assets for intelligence to support the 
warfighter and enable users to pull and fuse information from all 
sources. As the roles and responsibilities of the intelligence 
organizations are refined, these changes must not weaken intelligence 
support to the warfighters. I strongly agree with the law's 
recommendation that either the Director of National Intelligence or the 
Principal Deputy Director be an active duty commissioned military 
officer.
    The information-sharing environment will be a force multiplier for 
countering terrorism by integrating foreign and domestic information 
into a single network. Initiatives such as incorporating Intelligence 
Campaign plans into Operational plans will inform the intelligence 
community what the warfighters need and greatly improve joint 
warfighters' use of intelligence.
    Many of the successes in the GWOT are a direct result of successful 
information sharing with our allies and coalition partners. Ongoing 
operations in Afghanistan, Iraq, the Philippines, and Africa 
demonstrate both the importance and the shortfalls that exist in the 
timely sharing of intelligence. To be truly global in our fight on 
terrorism, we must continue to improve coalition command and control 
capabilities. To accomplish this, we have established a centralized 
multinational executive agent and a Joint Program Office to improve 
secure information sharing. Our goal is to incorporate multinational 
information sharing systems as an integral part of the Global 
Information Grid. Congressional support is needed as we continue to 
enhance our ability to network with our allies and global coalition 
partners.
    As I deal with the Interagency on a daily basis on national 
security issues, I firmly believe we need to become more efficient and 
effective in integrating the efforts of various government agencies. I 
was pleased to observe and advise on the successful creation of the 
Department of Homeland Security and the recent Intelligence reforms. 
These two reforms should be just the beginning of our reform effort in 
the Interagency. Unifying the Interagency will be incredibly important 
to our country as we fight the GWOT and face the changing threats of 
the 21st Century.
    In April 2004, the NSC Principals' Committee directed the 
establishment of Office of the Coordinator for Reconstruction and 
Stabilization at the State Department. This office will lead, 
coordinate, and institutionalize U.S. Government efforts to prepare for 
post-conflict situations and help stabilize and reconstruct societies 
in transition from conflict to peace. This is an important step because 
the Interagency has been challenged to meet the demands of helping 
post-conflict nations achieve peace, democracy, and a sustainable 
market economy. In the future, provided this office is given 
appropriate resources, it will synchronize military and civilian 
efforts and ensure an integrated national approach is applied to post-
combat peacekeeping, reconstruction and stability operations.
    Last year I reported that we had shifted the focus of our Joint 
Warrior Interoperability Demonstration--now named Coalition Warrior 
Interoperability Demonstration--to Homeland Defense and Homeland 
Security requirements. The purpose of these demonstrations and 
warfighter assessments is to enable government and industry to join 
together in their use of Information Technology assets to solve 
Homeland Defense IT challenges. The goal is to field off-the-shelf 
products to meet Combatant Commander and Coalition Commander 
requirements in 12-18 months, greatly minimizing the normal acquisition 
timeline. I am happy to report that NORTHCOM, the Federal Emergency 
Management Agency, the U.S. Coast Guard, and the National Guard Bureau, 
along with the Services and more than 20 countries, will participate in 
these programs this year.
    Joint Experimentation is central to transformation. Led by Joint 
Forces Command and involving Services, Combatant Commands, Government 
Agencies, and Multi-national partners, joint experimentation seeks to 
refine joint concepts and, ultimately, future joint force capabilities. 
Recent productive examples include UNIFIED QUEST 2004 and UNIFIED 
ENGAGEMENT 2004. In UNIFIED QUEST, the Army and JFCOM examined and 
assessed major combat operations and the very important transition to 
post-conflict. UNIFIED ENGAGEMENT was a joint, interagency, and 
multinational wargame that explored ways to sustain persistent 
dominance in the battlespace of the future. As we revise our joint 
concepts, we are incorporating results from these and many other 
experiments and wargames. These experiments and wargames have provided 
potential solutions to problems of joint force projection, multi-
national and interagency operations, and decision making in a 
collaborative environment.
    We must be able to rapidly deliver combat forces to the Joint Force 
Commanders and sustain them in combat operations. The Joint Staff is 
working with JFCOM and TRANSCOM to integrate our Deployment and 
Distribution Process and to develop a Joint Theater Logistics 
capability (JTL). Operations IRAQI FREEDOM and ENDURING FREEDOM 
highlighted our need for JTL and logistics integration. These programs 
will provide a more responsive force projection and sustainment 
capability to the warfighter.
    Another improvement to our logistics management processes is using 
state-of-the-art technologies like Radio Frequency Identification 
(RFID) technology. DOD used RFID during OIF as a supply-chain 
management tool to track supplies from the warehouse to the warrior. 
Other new technologies are helping us capture data at its source, 
modernize and transform our logistics systems, and improve the accuracy 
of data in our common operational picture, ultimately deploying 
resources to the warfighter more quickly.
    In November 2004, we finalized an instruction on joint doctrine 
development to move valid lessons learned more rapidly into doctrine. 
When joint doctrine needs to change, there are now mechanisms in place 
to change doctrine outside the normal revision process. One example of 
this expedited review is the JROC validation of OIF and OEF lessons 
learned. When the JROC validates recommended doctrinal changes, layers 
of bureaucracy are removed, and the warfighters receive updated 
doctrine more quickly.
    The Joint National Training Capability is an important Joint Forces 
Command-led program that will eventually encompass all joint training. 
This system became operational in 2004 and is beginning to link all 
training ranges, sites, nodes, and real and virtual events into a 
single network, allowing world-wide participation in training 
activities and integration of all joint training programs. For 
individual training, the Joint Knowledge Development and Distribution 
Capability also became operational in 2004. Managed and led by the 
Joint Staff, this project develops and shares up-to-date, critical 
joint military knowledge for education and training.
    DOD is in the midst of completing a Strategic Capabilities 
Assessment to review the progress in fielding the New Triad, which 
includes non-nuclear and nuclear strike capabilities, defenses, and 
responsive infrastructure. This assessment will help recommend the 
number and types of forces needed to meet the President's goal of 
reducing our reliance on nuclear weapons. We have begun to make 
significant reductions on our way to 1,700 to 2,200 operationally 
deployed strategic nuclear warheads by 2012. This reduction is possible 
only if Congress supports the other parts of the New Triad, our 
defenses and responsive infrastructure. STRATCOM has revised our 
strategic deterrence and response plan that became effective in the 
fall of 2004. This revised, detailed plan provides more flexible 
options to assure allies, and dissuade, deter, and if necessary, defeat 
adversaries in a wider range of contingencies.
    The transformational decisions we make today will have a lasting 
impact on our Nation's defense capabilities and strategic and tactical 
warfighting capabilities well into the 21st Century. These decisions 
will also have a lasting impact on our allies and coalition partners, 
who use our capabilities to improve many of their capabilities and 
technologies. Transformational decisions are difficult. We must make 
thoughtful, informed choices about systems and program that may be 
``new and improved'' but not significantly transformational to keep up 
with our dynamic security environment. The Joint Chiefs understand this 
fully, and are leading our armed forces to transform.

                               CONCLUSION

    We are a Nation at war. The demands placed on our Armed Forces this 
past year have been extensive, but our servicemen and women continued 
to perform superbly under conditions of significant stress and in the 
face of myriad challenges. I am tremendously proud of the men and women 
of the U.S. Armed Forces for their continued hard work and sacrifice 
and that of their families.
    This is a pivotal moment in our Nation's history and in world 
history. We must stay committed if we are to win the Global War on 
Terrorism and defend the United States and our national interests. Our 
way of life remains at stake, so failure is not an option. Our military 
is unwavering in our focus, resolve and dedication to peace and 
freedom. With Congress's continued strong support, our military will 
continue to effectively combat terrorism, counter the proliferation of 
WMD, help Iraq and Afghanistan build a stable and secure future, 
improve our joint warfighting capabilities, and transform our Force to 
meet future threats. I greatly appreciate your efforts and your focus 
to help the military meet its objectives and make the world a better 
and safer place for our citizens and the generations to follow.

    Senator Stevens. Thank you very much.
    We will have a period now of 5 minutes apiece of our 
members here. I am informed that most members of the 
subcommittee are going to attend, so we have limited it to 5 
minutes.
    Let me recognize the chairman of the full committee first.

           EMPLOYER TREATMENT OF GUARD AND RESERVE PERSONNEL

    Senator Cochran. Mr. Chairman, thank you very much.
    There has been some concern expressed about the fact that 
those who serve in the Reserve components of the armed forces 
when they are coming back to civilian status are in some cases 
losing the opportunity to work in the jobs they had before they 
were deployed and went on active duty. To what extent is the 
Department undertaking to try to deal with that situation and 
help make it possible for reservists and guardsmen to serve our 
country in this time of need and at the same time be treated 
fairly by the private sector when they return?
    Secretary Rumsfeld. Senator, first of all I would say that 
the employers of America have been terrific in general across 
the country. I am sure there are always situations where that 
is not the case, but they have done a great many things to be 
supportive of members of the Guard and Reserve during the 
periods that they have been activated and when they return.
    As you know, reservists' jobs are protected by law under 
the Uniformed Services Employment and Reemployment Rights Act. 
We have an organization within the Department of Defense that 
works directly with employers when a reemployment problem 
arises and there is a national committee for employer support 
of the Guard and Reserve that exists and functions. They 
contact employers and attempt to work out problems with 
informal means. If that fails, then there is a formal complaint 
process that can go forward in the Department of Labor, which 
has the responsibility for investigating and resolving any 
complaints under that statute.
    So I would say that I have heard of relatively few 
instances of problems and I hope that that is a reflection of 
the actual situation.

                 URGENCY OF SUPPLEMENTAL APPROPRIATIONS

    Senator Cochran. We are working with our colleagues over on 
the House side to resolve differences on the supplemental 
appropriations bill that provides substantial funding for 
military operations in the global war on terror and 
particularly with respect to our deployments in Iraq and 
Afghanistan. We hope to complete action on that conference 
committee work this week, as you suggested in your opening 
statement. But what difficulty would the Department encounter 
if we are not able to do that, as we hope we can? Give me 
something I can pass on to the members of the conference 
committee as we meet today to try to light a fire under the 
process?
    Secretary Rumsfeld. We checked with the services and the 
Army estimates that--I guess this is, what April 27. They 
estimate that around May 5 some of the commands may have to 
stop hiring and stop ordering supplies and stop awarding 
contracts until the House-Senate conference has completed their 
work and the supplemental been dealt with by the President.
    The Army has already started slowing some obligations to 
try to make funds last so that they would not have to do that. 
Of course, once you start swinging funds around from one 
activity to another frequently it requires reprogramming, it 
requires inefficiencies that are unfortunate, that they have to 
be made up later.

                  MAINTAINING INDUSTRIAL CAPABILITIES

    Senator Cochran. One of the concerns in some of our States 
is where we have industrial activities relating to shipbuilding 
or airplane manufacturing or other activities that provide 
armaments and equipment to the military forces, that in some 
cases there are substantial cutbacks in projected spending, so 
that the budgets that had been anticipated for building ships 
and some of these other activities are not what they are--what 
they were, they are not what they were expected to be, putting 
a lot of pressure on the ability of the employers to predict 
how many people they need to continue working at their 
shipyards and in other plants.
    Do you expect that there would be any change in the 
requests that we are beginning to hear, cutting back the number 
of ships that we need in the future or other armaments? How do 
you expect we are going to be able to maintain the efficiency 
in these industrial capabilities in the face of these 
unexpected cutbacks?
    Secretary Rumsfeld. Senator, the Navy has done a great deal 
of study on the shipbuilding, to take that specifically into 
account, and they now have some suggestions that are being 
considered by the Department of Defense and by the Congress, 
obviously. My anticipation is that they will have clarity and 
conviction in an appropriate time. The Quadrennial Defense 
Review also is something that is underway and that enters into 
this discussion.
    But one of the important things I would say is that if we 
look only at numbers of ships it seems to me that we miss 
something terribly important. The fact is that when we had a 
fleet of 485 ships we routinely were able to deploy 102 ships 
out of 485, and that is because of the way the fleet was 
managed. Large numbers were constantly under repair, the crews 
were on leave. The whole process was arranged that way.
    Today the fleet size is plus or minus 285 ships. It is low. 
On the other hand, we are routinely deploying 95 ships out of 
285, compared to 102 ships out of 485. So what is really 
important is what are you able to use, what is the useability 
of the fleet, not the total number. Clearly, the useability is 
about the same.
    Then the second question is the one I mentioned in my 
opening remarks, which was what can that ship do or what can 
that carrier battle group do? It can do three or four times as 
much as carriers and capabilities 10, 15, 20 years ago. So I 
think we need to look at capability. I do not deny that 
presence is important, but the deployability affects the 
presence issue.
    Senator Cochran. Thank you, Mr. Chairman.
    Senator Stevens. Thank you, Mr. Chairman.
    The chair recognizes our ranking member, Senator Byrd, for 
5 minutes.
    Senator Byrd. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary. Thank you, General.
    One of my constituents, Mrs. Lisa Vance of Morgantown, West 
Virginia, contacted my office last week. She is the widow of a 
West Virginia National Guardsman killed in Afghanistan in May 
2002. She relates her story of the incredible burdens that she 
has had to face after her tragic loss. Mrs. Vance has gone 
through more trouble than any military widow ought to have to 
bear.
    Mrs. Vance reported that paperwork errors nearly cost her 
$50,000 in life insurance funds. She has never received the 
financial counseling to which she is entitled. She received no 
explanation of the health insurance benefits that she was 
eligible for immediately after her husband's death. A simple 
pay issue took 3 years to resolve. Some of the guidance Mrs. 
Vance received on important matters was based on Army field 
manuals that were more than 10 years out of date. At one point, 
her casualty assistance officer retired. No replacement ever 
arrived to assist her.
    The bottom line is that the casualty assistance officers 
who assist widows do not appear to have adequate training for 
the incredibly difficult job that they must perform. I do not 
question the dedication or commitment of the soldiers who must 
perform this job. There are questions about whether the 
military is giving these officers sufficient training to assist 
grieving widows in their hour of greatest need.
    General Myers, how much training is given to casualty 
assistance officers before they are sent out to care for 
grieving families?
    General Myers. You know, Senator Byrd, that is an issue 
that we follow very, very carefully. My suspicion is this is a 
unit-specific problem where the training either was not done 
properly or, for whatever reason, the proper leadership was not 
provided. I do not think this is a problem that is systemic. I 
will get you the facts for exactly how much assistance, but 
from the information that I get this is obviously an isolated 
case and it is a very bad case and nobody should have to go 
through that.
    Senator Byrd. Thank you.
    [The information follows:]

    The goal of our Casualty Assistance programs is to provide 
prompt reporting, dignified and humane notification and 
efficient and compassionate assistance to family members, 
including a thorough review of the death benefits, compensation 
and entitlements. We have confirmed that our National Guard 
casualty assistance officers or representatives receive the 
same comprehensive training and use the same policies, 
schoolhouses and syllabi as their active duty counterparts.
    The Military Services ensure that personnel assigned 
casualty assistance or notification responsibilities receive 
appropriate training. Training is conducted in multiple ways: 
course of instruction at formal schools; classroom instruction; 
training videos; video teleconferencing; and distance learning 
via the Web; review of applicable Service Directives and 
Instructions; hard copy casualty assistance guides.
    Assignment as a casualty assistance officer can be one of 
the most challenging and emotionally charged duties a Service 
member will ever assume. Therefore, we train and prepare them 
as much as possible to perform their mission well. Assistance 
officers can be assigned from the unit of the deceased, from 
the parent installation, or from the unit closest to where the 
family is located. As a result of this dedicated and 
professional assistance and a genuine desire to assist the 
families of a fallen brother or sister, we often hear from the 
families that they consider their Casualty Assistance Officer 
part of the family.
    In those cases where we discover that the assistance 
provided was less than adequate, immediate actions are taken to 
address any unresolved issues or problems with the family.
    Question. Do members of the National Guard receive the same 
training as their active duty counterparts?
    Answer. Yes. The National Guard receive the same level of 
training provided to the active force members. When a member of 
the National Guard becomes a casualty, a trained casualty 
officer, who may be either active duty or National Guard, 
nearest to the next-of-kin is assigned to the family.
    Question. Have there been any changes to the training for 
casualty assistance officers based upon the experiences of war 
widows like Mrs. Vance?
    Answer. Yes. To ensure that our policies and programs stay 
current and address the needs of our Service members and their 
families, we chair a Joint Casualty Advisory Board that meets 
three times a year to review, assess, and recommend appropriate 
changes. Along with the normal attendees at these meetings, the 
Casualty Heads from each of the Military Services, the Joint 
Staff, representatives from other Federal agencies such as the 
Department of Veterans Affairs and the Social Security 
Administration, and non-profit organizations, we have added 
family support groups and surviving family members. This 
partnership approach on policy development, especially 
involving those who have experienced a loss and received the 
follow-on assistance, guarantees our program is addressing the 
required services to meet the needs of our Service members and 
their families.
    Feedback from family members has assisted the Military 
Services in updating their casualty assistance training 
programs. Specifically, training improvements have included 
increased emphasis on providing family members with factual 
information on their loved one's case without speculation, 
responding to family member questions in a more timely manner, 
ensuring family members have a complete understanding of their 
benefits and entitlements, expediting the return of personal 
effects, and maximizing the use of chaplain support in the 
notification and assistance process.
    Additionally, family member input has resulted in new 
policies pertaining to the public release of casualty 
information, additional resources for bereavement counseling 
for extended family members, and expedited claims processes 
from the Department of Defense, Department of Veterans Affairs, 
and the Social Security Administration.

    Senator Byrd. Do members of the National Guard receive the 
same training as their active duty counterparts?
    General Myers. They should, absolutely.
    Senator Byrd. Are there adequate numbers of chaplains in 
the armed forces to comfort the war widows?
    General Myers. I would say for the most part there are, 
although there is and has been for some time a lack of adequate 
Catholic priests in the armed forces chaplaincy, as there are a 
lack of priests in the civilian community. It has been a 
continuing problem. But I think in other denominations that is 
not a problem.
    Senator Byrd. General Myers, do you feel that there is a 
need to increase the chaplains to compensate for the strain of 
overseas deployments, and is there a need for more funding to 
provide more chaplains for the armed services?
    General Myers. It has not been brought to my attention that 
that is a shortfall that needs to be addressed, so I cannot 
answer that question.
    [The information follows:]

    Upon further analysis, there are chaplain shortages in the 
Reserve Components (RCs) of the Services. We need to 
concentrate recruiting efforts so that RCs are properly manned 
with chaplains to serve the needs of deployed Service members, 
as well as Service members and families at home. RC chaplain 
manning expressed as a percentage of the requirement is:

------------------------------------------------------------------------
                                                              Percentage
                                                                Manned
------------------------------------------------------------------------
Army National Guard.........................................          60
Army Reserve................................................          72
Navy Reserve................................................          84
Air National Guard..........................................          89
Air Force Reserve...........................................          95
------------------------------------------------------------------------

    Chaplain retention is very high in all components. The 
lower manning numbers reflect the challenge in recruiting 
civilian clergy as chaplains and mirror the challenges that the 
Army National Guard and Army Reserve are having in recruiting 
all types of Soldiers. Current initiatives to recruit more RC 
chaplains include:
    1. Developing legislation to provide a seminary tuition 
loan repayment plan for those who serve 3 years in the Army 
Reserve or Army National Guard chaplaincies after graduation. 
If adopted, this legislation would require a funding increase.
    2. Increasing recruiting efforts in all components, with 
recruiters visiting seminaries and attending faith group annual 
conferences.
    3. Increasing efforts to recruit prospective chaplain 
candidates from Service members with college degrees who are 
leaving active duty to attend seminary.
    With these initiatives in place, and the continued support 
of Congress, we expect to see an increase in RC chaplains to 
better support our Service members and their families.

    Senator Byrd. Have there been any changes to the training 
for casualty assistance officers based upon the experiences of 
war widows like Mrs. Vance?
    General Myers. You bet, because the benefits have changed 
over time and so that is a program that is continually updated 
by the services who are responsible for that.
    Senator Byrd. How can Congress assure that the widows of 
troops who were killed in Iraq in recent days will not have the 
same problems that Mrs. Vance encountered?
    General Myers. Well, it is something we have addressed from 
the day that we started this war on terrorism and against 
violent extremism. In an effort to try to do that, we have--to 
help, if everything else fails, we have an operation called 
Military One Source that has been set up here, actually I think 
in Virginia. It is available 24 hours a day, 7 days a week, to 
provide the kind of assistance that you just mentioned. So if 
they are not getting the help, if people are not getting the 
help they need on any question, they have a toll-free telephone 
number, Internet, and e-mail access, and we will refer the 
questions to the appropriate authorities and follow up to make 
sure it gets done.
    As you know, also early on we had some questions about the 
Reserve components' ability to provide the kind of information, 
not just on casualties, but basic information to the families. 
This is because in the Reserve component case many of the 
families are not co-located on a base or a camp or a station or 
a post, and the Reserve component has really stood up to that 
requirement and provides excellent, I think, information to the 
families and the employers, for that matter, of those that are 
employed.
    Senator Byrd. Thank you, General Myers.

      SERVICES AND COUNSELING PROVIDED TO SURVIVING FAMILY MEMBERS

    Secretary Rumsfeld, are you satisfied with the services and 
counseling provided to war widows?
    Secretary Rumsfeld. Senator Byrd, any time one hears a 
story that you have cited about Mrs. Vance, obviously you 
cannot be satisfied. The points that General Myers made, there 
are a variety of ways to try to assist people in the event that 
there is a breakdown in the system. There is frequently 
breakdowns in any system, as we all know.
    One other thing that exists today is an organization called 
AmericaSupportsYou.mil, where you can go on the Internet and 
you can find out ways that citizens in communities are helping 
people who may have difficulties. It is a terrific web site 
because it shows all the things that are being done around the 
country to assist people who are connected with the military 
and to support them as well as to support the troops.
    Senator Byrd. Mr. Secretary, what are the areas that need 
improvement and what is being done about it?
    Secretary Rumsfeld. Well, the things that have been done, 
in addition to what General Myers has cited here, this family 
support activity, there is for the really injured, there is a 
separate activity that is designed to assist people who come 
back with severe injuries of any type and to assist them and 
their families in that period after they begin to become 
disconnected from the military in the event that they do 
disconnect from the military, although I must say there are an 
increasing number of severely injured people who are staying in 
the military and being able to continue to serve.
    Senator Byrd. Thank you, Mr. Chairman.
    Senator Stevens. Thank you, Senator. We will come back 
later, Senator Byrd.
    Senator Feinstein is recognized for 5 minutes.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    General, let me thank you very much for your service to our 
country. I know the days have been tough and long and I just 
want you to know that Californians are very grateful and thank 
you for your service.

                            F-22 ACQUISITION

    I would like to ask two questions on procurement, having to 
do with the F/A-22 and the C-130J. If I understand the 
President's budget correctly, it is going to complete the 
procurement program for the F/A-22 with the production of 179 
planes instead of the original 750. It will end the program in 
2008 instead of 2011. Are you effectively then truncating this 
program and completing it by 2008?
    Secretary Rumsfeld. Senator, I would describe it slightly 
differently. Last year's planned purchase of F/A-22s was 277 
and that has been brought down to 170 aircraft through 2008. 
This is a very fine aircraft from everything I can tell. It is 
still in process, however, and it is very expensive.
    As a result, the Quadrennial Defense Review is designed to 
in this case determine the number of wings, whether a single 
wing or one and a half wings or two wings might be appropriate. 
Until that work is done, we will not know whether--what number 
between 170 and something like 277 might be appropriate.
    I think that as we come out of the QDR, where we are 
looking at other capabilities that relate to air dominance, we 
ought to have a better idea of what portion of the air 
dominance role would be played by a F/A-22 from a cost benefit 
standpoint.
    Senator Feinstein. So it is 170 by 2008. Are you figuring 
the additional aircraft at $250 million per plane?
    Secretary Rumsfeld. The last number I heard was about $250 
million. $257 million is the latest rounded number.

                           C-130J ACQUISITION

    Senator Feinstein. Now let me ask you about, if I can, the 
C-130J. You end procurement in 2006. You are going to be 100 
short of the original purchase. It is a $3.5 billion saving; $1 
billion is just in cancellation of the contract--is that true?
    Secretary Rumsfeld. I am not certain of that number. I know 
there has been a good deal of debate about what the 
cancellation or termination of a multi-year contract would cost 
and the issue is open. We have said that there is some 
additional information that has become available subsequent to 
putting the President's budget to bed and at some point in the 
weeks ahead we will have better information. To the extent it 
suggests that any adjustments ought to be made in what we 
propose, obviously we will come back to the Congress with those 
proposals.

                    ROBUST NUCLEAR EARTH PENETRATOR

    Senator Feinstein. I appreciate that.
    Now, very smart, Mr. Secretary. You have apparently divided 
the money for the Robust Nuclear Earth Penetrator between the 
energy budget and the defense budget, with $4.5 million in one 
and $4 million in the other. As you know, in the energy budget, 
the funding was deleted last year. So this year you have 
divided it.
    In March, the Secretary of Energy was asked on the House 
side about how deep he thought the bunkerbuster could go and he 
said ``a couple of tens of meters maybe.'' He was asked if 
there was any way to have a bomb that penetrated far enough to 
trap all fallout, and he said: ``I do not believe that. I do 
not believe the laws of physics will ever permit that.''
    I asked him that same question when the Energy 
Appropriations Subcommittee met just a few weeks ago. He said 
essentially the same thing. It is beyond me as to why you are 
proceeding with this program when the laws of physics will not 
allow a missile to be driven deeply enough to retain the 
fallout which will spew in hundreds of millions of cubic feet 
if it is at 100 kilotons.
    So I am mystified by the fact that the money was deleted 
last year, but you are back this year and you have split it 
into two budgets.
    Secretary Rumsfeld. Senator Feinstein, you make a mistake 
by saying I am very smart by splitting it. I had no idea.
    Senator Feinstein. Well, I figure you figured you have a 
better chance in this subcommittee than you do in Energy.
    Secretary Rumsfeld. Maybe just lucky rather than smart.
    Let me just take a minute on the subject. It is an 
interesting subject. There are some 70 countries that are 
currently pursuing underground programs. Today dual use 
equipment that is available anywhere in the world to anybody 
who wants it can dig in 1 day a distance in solid rock longer 
than a basketball court and twice as high as the basket, one 
machine, 1 day, underground in solid rock.
    Seventy countries are pursuing activities underground. So 
the question comes what ought our country to do about that or 
do we want to think about, study, the idea of having a 
capability of dealing with that. At the present time we do not 
have a capability of dealing with that. We cannot go in there 
and get at things in solid rock underground.
    The proposal--the only thing we have is very large, very 
dirty, big nuclear weapons. So the choice is not do we have--do 
we want to have nothing and only a large dirty nuclear weapon 
or would we rather have something in between? That is the 
issue. It is not the way your question characterized it in my 
view.
    Now, are we proposing a specific weapon? No. We are 
proposing a study. We are proposing that some work be done, 
analysis, not nuclear explosion work but a study, to see if we 
are capable of developing or designing something that would 
give us the ability to penetrate, not with a large nuclear 
explosion but penetrate either with a conventional capability 
or with a very small nuclear capability in the event that the 
United States of America at some point down the road decided 
they wanted to undertake that kind of a project.
    It seems to me studying it makes all the sense in the 
world.
    General, do you want to comment?
    General Myers. I would make the exact same point. The 
choice is between targets today that we have weapons assigned 
against, underground targets, which the only capability we have 
is a big weapon. What we are looking at and what we have 
proposed in the study is can some of the smaller weapons be, 
can the case be hardened enough to get enough penetration to 
have some impact against these targets without going to the 
option that nobody likes, which is a more robust, a bigger 
weapon? And the issue also is, it is a study and it is not to 
design a new weapon.
    Senator Feinstein. I thank the Chair.
    I would just appreciate a clarification. Are you saying 
that the 100 kiloton bomb is out, that you are not looking at 
the development of a 100 kiloton bomb, but it is a low yield 
bomb?
    Secretary Rumsfeld. My understanding is that they are not 
talking about making any weapon. They are talking about a study 
that relates particularly to penetration.
    General Myers. And they are looking at specific weapons 
that are in the inventory and can the case be made hard enough 
on those particular weapons to get the kind of penetration they 
think will be effective against these deeply buried and 
hardened targets.
    Senator Stevens. Senator Specter is recognized for 5 
minutes.
    Senator Feinstein. My time is up. Thank you.
    Senator Specter. Thank you, Mr. Chairman.
    Thank you very much for your service. Beginning with the 
base closure issues, Pennsylvania has been very hard hit in the 
past, characterized by the closing of the Philadelphia Navy 
Yard, for which we still have not recovered in our State as 
there was some proliferation of contracts which went out from 
that installation. I am going to be submitting to you questions 
for the record and I do not want to ask a question now to take 
up the time. I want to move on. But I do hope that 
consideration will be given to the historic import of the bases 
in Pennsylvania, which of course has been around for a long 
time as a State. Illustrative of that is the War College, where 
there is enormous pride in the community Carlisle, 
Pennsylvania, where it is located. When the President decided 
where he wanted to go, he went to the War College with great 
pomp and ceremony, made quite a point that only two Georges as 
sitting Presidents marched into Carlisle; one was George 
Washington on a great stallion, a great portrait, and the other 
was President Bush.
    So I would just hope that real consideration would be given 
to the tradition and the economic factors, where people are 
biting their nails in Pennsylvania as to what is going to 
happen next after we have had so many closures.
    This afternoon a conference committee will be sitting on 
the $81 billion request by the Department of Defense, and it 
has been broadly supported. We are appreciative of what you are 
doing, Mr. Secretary, and what you are doing, General, and what 
the troops are doing, and we are going to back you. But there 
is a lot of disquiet out there among the people as to what is 
happening in Iraq and disquiet as to what is happening to our 
discretionary budget.
    I chair a subcommittee which is responsible for education, 
health care and worker safety and it has been cut by almost a 
full percent, and with the inflation factor I am about $7 
billion short. That makes it very, very tough to sell when you 
have the National Institutes of Health (NIH), health care 
programs, Pell grants, and education.
    The question that I have for you, Mr. Secretary, comes up 
on the Rand report. It was summarized in the Washington Post 
and it was highly critical, as is known. This is a report, at 
least according to the Post, that was prepared for you and that 
you thought was worthy of careful consideration.
    We had the situation with General Shinseki some time ago, 
who had made a prediction about the number of troops which 
would be necessary to handle post-Iraq problems, and I will not 
characterize the response to General Shinseki, but it was not 
one of approbation as to what happened. But the Rand study, and 
I will not quote it extensively, criticizes DOD for a lack of 
political-military coordination and actionable intelligence in 
dealing with the counter-insurgency campaign.
    Well, it is just highly critical. I have a three-part 
question for you, Mr. Secretary. Was General Shinseki right, 
number one? Number two, is the Rand report right? Number three, 
what has been or will be done to meet the questions raised by 
the Rand report?

                     NUMBER OF TROOPS FOR IRAQ WAR

    Secretary Rumsfeld. Well, I will start and General Myers 
may want to comment on it. But I think that the first thing I 
would say about the troop strength that General Shinseki was 
asked about in a congressional committee, and his response was 
that he thought it would take, as I recall--and I am going the 
paraphrase; I do not have it in front of me. His response after 
being asked two or three times was that he thought it might 
take roughly the same number of troops to deal with the country 
after major combat operation as it would take to prevail in the 
conflict, and I believe he then said several hundred thousand.
    It turned out that General Franks had several hundred 
thousand ready to go in and he also had a plan that if he 
decided he did not need them he would have excursions, escape 
plans, so that they would not go in. We would put in what he 
believed to be the right number.
    General Franks, General Abizaid, General Myers, General 
Pace proposed the correct number of troops and--correction. 
They proposed a number of troops. That is the number we went 
with. That is the number we have in there today. It is 
perfectly possible for anyone in or out of Government to 
critique that and say: Gee, I think there ought to be more or 
there ought to be less. But the fact of the matter is that the 
military experts on the ground from the beginning have said 
what they thought the number ought to be.
    The tension that they have balanced is this. The more 
troops you have, the more targets that you have and the more 
people you might get killed. The more troops you have, the more 
of an occupying power you are, the heavier footprint, the more 
force protection you need, the more logistics you need, and the 
more intrusive you are on the people of that country.
    Now, the Soviets had 300,000 people in Afghanistan and they 
lost, and we had 20,000 or 30,000 people in Afghanistan and it 
is coming out pretty darn well. So I must say I am tired of the 
Shinseki argument being bandied about day after day in the 
press.
    Senator Specter. It was not an argument. It was a question.
    Secretary Rumsfeld. Well, I understand that. But the fact 
is that we have done what the generals on the ground believed 
to be the right thing. I believe they are right and I think 
that the progress that was made in Afghanistan demonstrates 
that, and I think the progress being made in Iraq demonstrates 
that. When the President went around the room and asked if all 
the chiefs--well, I will let you describe it, General. You were 
there.
    General Myers. Well, of course before major combat in Iraq 
the Commander in Chief had all his service chiefs, and as a 
matter of fact at a separate session all of General Franks' 
commanders and General Franks, and asked if anybody had any 
reservations, if they had everything we needed, and if we were 
ready to go. And everybody gave a thumbs-up on that. So that is 
how that process worked.
    I would say on----
    Secretary Rumsfeld. And General Shinseki was there in the 
room.
    General Myers. Certainly I do not think anybody argues----
    Senator Specter. And he was silent? Was General Shinseki 
silent in the face of that question put to him, or in a room 
where he was present?
    General Myers. I cannot remember. He certainly did not 
bring up a couple hundred thousand. We were all--all the 
service chiefs were in total support of General Franks' plan, 
the numbers that we had planned, all of that. Yes, we were all 
on board. There was nobody--there were no outliers.
    On the other hand, just one more time: General Shinseki was 
in front of a Senate committee. He was asked a question and he 
said several times, you know, that is really not my business, I 
would need to talk to the combatant commander and I have not 
done that, and when pressed offered a number.
    He is an experienced, very experienced Army officer. He had 
a lot of experience in the Balkans and he gave them a number 
based on his experience and so forth. I do not think he would 
ever say that he was prepared to go to the bank with that 
number. He was providing the number when asked, when asked 
several times, and it is his right to give that number. We had 
lots of discussions later on about what is the right number and 
is the force strength appropriate for the tasks and the mission 
that we had inside Iraq. In the end we all agreed that the 
plan--and by the way, the plan was developed over some time in 
a very iterative fashion between the Commander in Chief, the 
Secretary of Defense, and the military leadership, and evolved 
over time. I mean, it changed dramatically from the first time 
we ever got together with General Franks on this issue, which 
was before any thought of going into Iraq was actually on the 
table, until we finally went in. So it was a long process.
    I would only comment on the Rand report, I am aware of it. 
I have not read it. I have read the executive summary. It is in 
the joint staff, in my case it is in the joint staff, and we 
are looking at each of those, those pieces.
    One of the things that has characterized this effort both 
in Afghanistan--well, in the last 3\1/2\ years, different from 
previous I think is that we have really paid attention to 
trying to capture what we have done right and what we have done 
wrong, the lessons learned process, Senator Specter. It is very 
aggressive, and when I say aggressive we have people in Iraq 
today, but we have had them since major combat, that have been 
participating with the forces there, helping them, but also 
capturing lessons learned for Joint Forces Command to compile 
so we can then take action.
    So we have I think a very good process on how we capture 
those and then try to internalize them, put the resources to 
them and solve the problems. That is what we are all about, and 
the Rand report will help in that regard. I do not have 
specific comments on it today.
    Secretary Rumsfeld. There is not a month that goes by that 
we do not look at troop levels in Iraq and troop levels in 
Afghanistan and ask people what is the right number, what is 
the best way to use them, what are the advantages and 
disadvantages of more or less. It is a constant process for us.
    Senator Stevens. Senator Inouye is recognized.
    Senator Inouye. Mr. Secretary, we are relying heavily on 
our National Guard and the Reserves, so much so that some are 
suggesting that the Reserve component is already broken. 
Furthermore, it is becoming much more difficult to recruit and 
retain our ground forces and for the first time in many years 
the Army and Marine Corps are not meeting their recruiting 
targets, and there are some who are already discussing the 
draft.

                    STATUS OF OUR MILITARY PERSONNEL

    In your view, what is the current status of our military 
personnel, including end strength and recruiting and retention 
numbers?
    Secretary Rumsfeld. Senator, generally retention has been 
fine in the services. With respect to recruiting, there has not 
been a problem of recruiting in the Air Force or the Navy. The 
Army and the marines have missed their targets by relatively 
small amounts. A couple of reasons for that. One is the targets 
are up. We are increasing the size of the Army and we are 
increasing the size of the Marines.
    A second reason is because retention of people who have 
served in Iraq and Afghanistan is high. They are the normal 
people that would be recruited into the Guard and Reserve and 
instead many of them are being retained because our troop 
levels are higher. So we are not surprised that that exists, 
and as a result we have had to deploy additional recruiters and 
provide additional incentives and there is some debate within 
the experts who do this as to whether or not they will meet 
their goals by the end of the year, the fiscal year.
    I do not know if they will or not for the Army or the 
marines in terms of recruiting, but it certainly looks like 
they will in retention. They are taking all the appropriate 
steps to get there.
    Second, generally what is the state of the Guard and 
Reserve? I think the idea that they are broken is not correct. 
I think they are performing fabulous service overseas. They are 
getting experience that has not existed since the Vietnam war, 
and these individuals have additional training and additional 
experience and additional capability. I think the only people 
who could conceivably be talking about a draft are people who 
are speaking from pinnacles of near-perfect ignorance. The last 
thing we need is a draft. We just do not. We have got a 
volunteer Army, a Navy, Marines, an Air Force, and they are 
doing a fabulous job, and all we have to do is see that we 
provide the right incentives to attract and retain the people 
we need, and we will continue to have a superb total force.
    General Myers. If I may just tag on a little bit, let me 
talk about retention for just a minute. As the Secretary said, 
retention is exceeding all goals. It is particularly high in 
the Reserve component units that have been mobilized and 
deployed. That tells you something right there. It tells you 
that these folks are proud to serve, they understand the 
mission, they are willing to serve.
    That retention, both in the Active component, particularly 
in the Active component, where it is high as well, that hurts 
our recruiting for the Army National Guard and the Army 
Reserve. It continues to be a problem because they rely on 
those folks that are getting out of the Army to come on to 
Reserve duty, at a time when the active Army is building up to 
30,000 additional end strength. So the recruiting goal this 
year is huge. I think it is 80,000 or in that realm.
    The Marine Corps has missed its recruiting goals in 
January, February, March, but the numbers, particularly in 
March, are very small. We will have to see what additional 
recruiters, what additional incentives do to correct that. I 
hope it turns around.
    I hope the moms and dads and the aunts and the uncles and 
the grandparents in this country understand that this is a 
Nation at war, that the stakes are extremely high. Just 
transport yourself back to the days and weeks following 
September 11, 2001, and reflect on the uncertainty that was in 
all our minds. And another event like that would have serious 
consequences for this country, of course, and it would put at 
stake our way of life. So this is noble business that our 
service men and women are doing in Iraq, Afghanistan, Djibouti, 
around the world, and we need the encouragement from the moms 
and dads and the aunts and uncles and the rest of the folks out 
there to encourage the young men and women of this country to 
sign up for this noble cause, which I think will have a huge 
impact on the outcome of our future and our way of life.

                          STRESS ON THE FORCE

    Secretary Rumsfeld. If I could just add, Senator, there is 
stress on the force. However, we have only activated out of the 
Guard and Reserve about 40 percent. The problem is not that we 
have got too few. The problem is that we are so badly organized 
and have been for decades. We have the wrong skill sets on 
active duty relative to the Guard and Reserve. We need to get 
some of those skill sets out of the Guard and Reserve, onto 
active duty, so we do not have to overuse a small fraction of 
the Guard and Reserve.
    We also have to rebalance within the active force and the 
Guard and Reserve so that we have the best skill sets, more of 
skill sets that are more likely to be needed. That is just 
something that is going forward. We are already doing a great 
deal of that. Pete Schoomaker and Fran Harvey have done a lot 
to do that and it has been very helpful.
    One other thing we are doing, thanks to the National 
Security Personnel System, is we are going to be able to do a 
better job of getting military people out of civilian jobs. 
There may be 200,000, 300,000 military people out of 1.4 
million active duty that are doing jobs that can be done by 
civilians or contractors.
    So there are plenty of ways to reduce stress on the force 
just by good management practices, which we are hard at.
    Senator Inouye. Thank you very much, sir.

                           C-130J ACQUISITION

    Senator Stevens. Mr. Secretary, I think you have commented 
that there has been additional information received about the 
C-130J since the President's budget was submitted. I am not 
asking you a question, but I just encourage you to give us a 
supplemental if you possibly can, because clearly that 
amendment is going to come on the floor. If it is not covered 
by the budget, we are going to run into problems as far as 
stretching, taking something out to make room for that C-130J 
amount.
    Secretary Rumsfeld. I see.

                   PROCUREMENT OF PLANNED NEW SYSTEMS

    Senator Stevens. Let me ask you this. According to the 
plans we have seen, Department of Defense procurement accounts 
will grow about 50 percent from $70 billion to $118 billion 
from this fiscal year to the 2011 timeframe. Even with such 
growth, it looks like the Department's ability to field many 
new systems that are in development or initial development, 
initial procurement--F-22, Joint Strike Fighter, DD(X), the 
Littoral combat ship, the Future Combat System, space 
satellites, a whole series of things, to name them.
    What is going to be the ability to continue on those 
systems with that type of projection of the procurement 
accounts?
    Secretary Rumsfeld. Well, that is a question, Senator, Mr. 
Chairman, that we all wrestle with. It has been one that has 
been around as long as I have been connected with the Defense 
Department, is the so-called bow wave problem. What happens is 
that a lot of things get started and that one then looks out 
and says, well, once you start into development, as opposed to 
research and the early stages, the costs go up. Therefore, you 
have to manage that so that you have an ability to cope with 
whatever needs to be procured in those out-years.
    But for a variety of reasons, some things disappear, some 
things do not work, sometimes needs change and tough choices 
get made. We made tough choices in this budget. Four years ago 
we made tough budget choices when we looked at the bow wave 
problem. You are quite right, I see a bow wave looming now, 
procurement bow wave looming. But on the other hand, I have a 
feeling that it will be like every other time: When the going 
gets tough, people make tough decisions, and that is the way it 
has to be.

                  COST AND IMPACT OF NEW TECHNOLOGIES

    Senator Stevens. Well, in the general economy the 
progression is such that the next generation of technology is 
usually less costly and more efficient than its predecessor. In 
terms of defense procurement, it seems that we continue to grow 
in terms of costs notwithstanding the differences in size, et 
cetera. Is anyone examining into that? Why can we not get more 
technology development that is related to costs?
    Secretary Rumsfeld. A couple of thoughts. Time is money and 
you are quite right, 25 years ago when I was Secretary of 
Defense the length of time to acquire a weapon system was about 
half of what it is today. This is during a period in the last 
25, 30 years where technology has sped up, it has accelerated 
rather than decelerated.
    So something is wrong with the system. We are going to have 
a very serious look at the acquisition process in the 
Quadrennial Defense Review period. Gordon England, who just 
shortly I believe will be confirmed by the Senate and sworn in, 
will be the person who will be deeply involved in that.
    I would say one other thing, however. If a ship costs twice 
as much but it is three times as capable, then one has to say, 
what have we got? Well, we have got something that is more 
valuable at a higher cost, but on a cost-benefit basis it is 
improved as opposed to deteriorated. A smart bomb may cost what 
a precision bomb costs or somewhat less, but you have to drop 
10 dumb bombs to equal one smart bomb, the lethality of one 
smart bomb.
    So apples-to-apples comparisons it seems to me do not quite 
work necessarily. But we do have that problem and it is 
something we are concerned about and it is something we are 
addressing.
    Senator Stevens. Thank you.
    General Myers, we are all worried about retention 
throughout the services. What is your feeling about retention 
as we come through this period we are in now? Do we need 
additional incentives to retention and enlistment?
    General Myers. Well, Mr. Chairman, I think we have some 
pretty good incentives in place and, as I said earlier in 
response to Senator Inouye's question, retention right now is 
very good in all the services. If you look at the statistics, 
you may think the Air Force and the Navy retention is down a 
little bit, but that is programmed because both of those 
forces, the Air Force and the Navy, are shrinking and so they 
do not want to retain as many people.
    But for the Army, the Army active, the Army Reserve 
component, for the Marine Corps and Reserves, retention 
actually is very, very good. So I guess my quick analysis would 
be that we have got the incentives about right.
    I would like to tag on just a little bit more about the 
Reserve component. This is an extremely important part of our 
military capability and our national security. So whatever we 
do, the incentives and so forth, recruiting and retention in 
that component, we have got to do it right because this is a 
great way for the military, the volunteer military, to connect 
to America.
    If you look at a map of America and you look at all the 
Guard and Reserve locations, some of them pretty small 
admittedly, it is a great way to connect to the American 
people, to the employers out there, to family and friends. I 
think it is extremely important and wanted to mention that, 
Senator. This is not a capability, while it is being used 
pretty hard in terms of personnel tempo and operational tempo, 
that we ought to fritter away. We ought to take very good care 
of it.
    In our retention money, I think--and this is the fiscal 
year 2006 budget--we have got almost $1 billion in retention 
items for selected reenlistment bonuses and Reserve component 
health care, educational benefits, enlisted supervisory 
retention pay, critical pay for our special operators, who are 
in big demand now by contractors in Iraq or Afghanistan or 
other places in the world, tuition assistance, almost $900 
million, almost $1 billion in retention items there that will 
help.
    I was in Kabul about 6 or 7 weeks ago. I got to reenlist I 
think at one time 29 people out of an Army National Guard unit 
from Indiana. It was, first, a great privilege--that was the 
day I was there. I think the week before they reenlisted 
something like 200. So once we can get them in the door we are 
keeping them, because they are fulfilled by the mission that 
they are performing.
    Senator Stevens. Senator Cochran, do you have any further 
questions?
    Senator Cochran. No further questions.
    Senator Stevens. Senator Byrd, do you have any further 
questions?

                       PAY AND ACCOUNTING SYSTEMS

    Senator Byrd. Thank you, yes. Thank you.
    In January of this year members of the 201st Field 
Artillery Battalion of the West Virginia National Guard 
contacted me from Iraq with a serious pay problem. Last year 
the Government Accountability Office reported that members of 
the 19th Special Forces Group of the West Virginia National 
Guard came under enemy fire during a trip from Afghanistan to 
Qatar to fix the rampant pay problems in that unit.
    Secretary Rumsfeld, I understand that the accounting system 
used to process pay for reservists in other military services 
do not have the same problems as those for the National Guard. 
Why do these problems persist with the National Guard, and when 
will they be fixed? Why cannot the Department of Defense get 
rid of the accounting systems that do not work for the National 
Guard and simply adopt the computer systems that pay other 
troops fairly and accurately?
    Secretary Rumsfeld. That is exactly the question I ask in 
the Department frequently. As you know as well as I do, 
Senator, the services have their own systems in large measure 
and the Guard and Reserve systems have tended to be different 
from the active duty systems. It was a result of the 
departments growing up as separate entities and their policies 
were different and their approaches were different and their 
systems were different. Some of them used a shoe box with three 
by five cards, some used a shoe box with five by seven cards, I 
guess. The net result was that you have problems.
    Now, we are testing and deploying a forward-compatible pay 
modern integrated pay system, I am told. The end state should 
be a fully integrated pay and personnel system for the 
Department of Defense. I do not know when that end point is. 
Tina, do you?
    Ms. Jonas. We are beginning to deploy that system this 
year. We have some testing issues with it, but we are beginning 
to deploy that.
    Also, the defense integrated military human resource system 
(DIMHRS) program, which I am sure you are aware of, Senator, is 
another key program which will be coming on line in 2006.
    Senator Byrd. Well, does Congress need to step in with 
legislation to fix this problem? How long do you think it will 
take for the Pentagon to address these pay problems once and 
for all?
    Ms. Jonas. Sir, the Congress has been extremely helpful 
with respect to the funding. The DIMHRS program in particular 
has been of great interest to us and the Congress has been very 
generous in that regard. We appreciate your help on that.

                  PROTECTIVE EQUIPMENT FOR U.S. TROOPS

    Senator Byrd. Last week the Dallas Morning News carried an 
article about the need for special bulletproof shorts to 
protect the legs of troops while traveling in vehicles in Iraq. 
Although Congress has provided additional funds for bulletproof 
vests for all troops in combat zones, the large number of 
roadside bombs in Iraq are known to cause deadly injuries to 
the legs of soldiers. The article reports that the marines have 
developed a low-cost set of bulletproof leggings, but the Army, 
which has the bulk of the troops in Iraq, is insisting on 
buying its own version of this protective gear which costs 
$9,400 a set, requires special air-conditioning technology, and 
weighs 38 pounds.
    Secretary Rumsfeld, we now know that our troops did not 
have enough bulletproof vests to protect them in the early 
stages of the occupation of Iraq. What are we doing to 
accelerate the schedule to get this type of protective 
equipment out to our troops?
    Secretary Rumsfeld. Senator Byrd, we have got some charts 
here. I do not know if we want to bother to put them up. But 
the Department has looked at the requests from the combatant 
commanders as to what they believed were needed by way of 
capabilities and equipment. The job of the combatant commander 
is to look at what he has, ask for what he needs, but in the 
meantime adapt tactics, techniques, and procedures so that he 
can protect his troops. He has the obligation of seeing that 
they can perform their mission and simultaneously that they are 
managed and deployed used in a way that is respectful of the 
value that they are to our society.
    That is what they are doing, and they have had an up-ramp, 
for example, in up-armored Humvees. That is the chart on the 
small arms protective inserts. As you can see, production has 
gone from December 2002, where the production rates were 
40,000, up to production rates at very high levels, up in the 
high 400,000s.
    So they have responded very rapidly and very successfully. 
But the important thing is, for the lives of the troops, that 
between the time that they need something and the time they get 
it--and that changes because the enemy has a brain. The enemy, 
for example with respect to explosive devices, may use one 
frequency and you get a jammer that will stop that, and they 
will change frequencies and they will use a different 
technique. They will use a telephone technique or a garage door 
opener or something.
    So you have to keep adapting continuously, and that shows 
the rate at which the adaptation took place, which is quite 
impressive.
    Senator Byrd. Well, are there additional funds included in 
the supplemental appropriation bills or your regular 
appropriation request to provide for new types of bulletproof 
armor to protect our troops in Iraq? If so, how many sets of 
bulletproof leggings or similar equipment will be provided to 
our troops and when will they receive this equipment?
    General Myers. Senator Byrd, the answer to your question is 
yes, there is funding. There is an effort ongoing in the armed 
services to continually improve the garments they wear. A 
couple of the improvements are to make them better against a 
more serious threat. I do not want to get into the classified 
here, but a more serious threat. And also to make them lighter, 
because obviously the troops in many cases, in most cases, have 
to move around in this gear as well.
    So that is ongoing. There is money in both budgets to help 
do that. They are fielding advance sets as the technology 
becomes available for the current vests. We see some inserts; 
there are some new inserts being developed that are being 
fielded as we speak and they are producing tens of thousands of 
these to go into theater.
    But this is a continuing process and in both budgets there 
is adequate money for this effort. On the leggings, I have not 
heard that. I will personally look into that issue. I had not 
heard that before. I will go look at it.
    Senator Byrd. I thank you.
    I think that chart is about bulletproof vests.
    Senator Stevens. Senator, Senator Shelby is here. Could we 
go to him and we will come back to you again, sir.
    Senator Byrd. I just have one more question and you will be 
through with me.

                 PROTECTING TROOPS FROM ROADSIDE BOMBS

    What specifically needs to be done to protect the legs of 
our troops from roadside bombs?
    Secretary Rumsfeld. Well, I will start and Dick can pick it 
up. It seems to me the first and most important thing is what 
is being done, and that is to, to the extent possible, not have 
vehicles out operating without appropriate armor in areas 
outside of protected compounds. So the first thing would be, if 
you had too little armor to protect those vehicles, you would 
not use those vehicles outside of a compound. You would find 
different ways to do it. You use airlift or you would have 
different supply centers, or you would use contractors. There 
are a variety of things that people can do to change their 
tactics and their techniques and their approaches.
    Today we now have a situation where only occasionally would 
there be a U.S. vehicle with U.S. military people in it outside 
of a protected compound that did not have an appropriate level 
of armor.
    Now, the problem with armor, what does it mean, appropriate 
level? We have seen M-1 tanks that have been totally destroyed. 
So armor is not necessarily going to protect somebody. If you 
have a protective insert and body armor and then you get an 
armor-piercing shell, for example, it is going to go through 
it. There is no protection that is perfect and 100 percent and 
all the time everyplace, and that is just the reality of it.
    Senator Byrd. That is a given. We all understand that.
    Thank you.
    General Myers. I would just like to go back to the point, 
because you asked the question what can we do. The part that 
plays the biggest role here, besides the vehicles and the 
personal protection, it is the tactics that the non-
commissioned officers (NCOs) and the officers devise and their 
reaction to the enemy as they change their tactics.
    So technology can help. You can do things with body armor, 
with armored vehicles. But in the end the biggest thing we can 
do is make sure we have smart, well trained, educated, 
informed, good intelligence, so troops out there that can 
address this threat.
    You asked the question earlier. Let me just fill in the 
blank here a little bit. Since the beginning of fiscal year 
2004 we have spent $5.5 billion on force protection efforts and 
we plan on spending another $3.3 billion in fiscal year 2005. 
Interestingly enough, in the supplemental there is $2.7 billion 
in force protection efforts, which is just another reason we 
need to get the supplemental as soon as possible. That money 
will not get spent until we get it.
    Senator Byrd. Mr. Chairman, I hope we will be sure that we 
are providing enough money for this, and I hope that we will 
take every step possible to see that this equipment is provided 
as soon as possible.
    Senator Stevens. Thank you, Senator.

                  CANCELLATION OF JOINT COMMON MISSILE

    Senator Shelby is recognized.
    Senator Shelby. Thank you, Mr. Chairman.
    Secretary Rumsfeld and General Myers, welcome again. 
Everybody has welcomed you, but we appreciate what you are 
doing, the challenge you have, and we are here to do what we 
can to help you in that regard.
    The joint common missile, if I could get into that just a 
minute. The joint common missile was proposed for termination 
in Presidential Budget Decision 753. Eight months, Mr. 
Chairman, into phase one of system design and development, the 
joint common missile, a remarkably healthy, low-risk program, 
on schedule, on budget--think of that, on budget--and 
successfully demonstrating important new capabilities for the 
warfighter.
    Cancelling the joint common missile, I believe, ignores the 
opinion of our top military leaders and deprives our service 
members of a new capability, Mr. Secretary, that they believe 
they need to survive against future threats. Further, the joint 
common missile meets joint service requirements and fills a 
critical capabilities gap that cannot be met by upgrading 
existing weapons systems.
    An example: The joint common missile--I know you both know 
this--has twice the standoff range of the Hellfire, Longbow, 
and Maverick missiles it will replace on Army, Navy, Marine 
aircraft. The accuracy of its trimode seeker would give our Air 
Force--give our forces precision strike lethality to eliminate 
threats that are located near noncombatants.
    That is why the top-ranking officers in all three services 
that have requested the joint common missile--the Army, the 
Navy, and the Marine Corps--all believe that the program must 
be restored.
    What is the justification, other than trying to save some 
short-term money, for proposing eliminating this? I think it is 
a mistake. I think a lot of people think it would be a big 
mistake.
    General Myers. Senator Shelby, the reason that our advice 
to the Secretary was to cancel this particular program was that 
it had been in development for a long period of time and they 
actually have--they have a very ambitious goal, as you know, of 
a seeker that has I think three different technologies in it, 
three different--it is a trimode, three modes of acquiring the 
target. Designing that seeker was certainly high technical 
risk.
    With the inventory of Hellfires and Maverick missiles over 
35,000, we have other ways of doing the job. So it was thought 
this program, let us terminate this program. The requirement 
does not go away. The requirement recycles back down to our 
capabilities requirements system, and we will look at the 
requirement and maybe back off some of the features we want in 
this missile. But it was technically having some difficulties 
and that is why we joined in.
    Senator Shelby. Well, we have been told recently that they 
have been jumping over all the barriers, that everything was 
working well; it was, as I said, under budget and the program 
was moving very fast. This is in the last few days.
    General Myers. The information we had back in December when 
these decisions were made is that there was cost growth, 
schedule creep, and high technical risk in the seeker, and that 
is why it was--I have not reviewed it here----
    Senator Shelby. We would like to further talk with you and 
the Secretary. A lot of us, about this, not just myself, but a 
lot of us believe that it would be a big, big mistake to cancel 
this very promising, very on-budget, on-time joint common 
missile. So we will get back with both of you on this, and that 
will ultimately be a decision of the committee anyway.
    Mr. Chairman, that is all I have today. Thank you.
    Senator Stevens. Thank you very much, Senator.
    Senator Inouye.
    Senator Inouye. Mr. Chairman, I just have a statement I 
would like to make.
    Mr. Secretary, as part of your global posture review you 
will be repositioning forces around the world. In the Asia 
Pacific region you will be moving forces out of Korea and 
possibly moving some marines out of Okinawa. As you know, our 
Asian neighbors, both friends and potential adversaries, are 
very sensitive to changes in the U.S. military posture and 
management structures which govern these forces.
    In that light, I was disturbed to learn that the Navy is 
contemplating changes to its management structure for the 
Pacific fleet separate from your global posture review. 
Considering all the other changes that are underway in the 
region, I would hope that you would not support any changes to 
the operational or administrative control or other management 
functions of the Pacific fleet.
    Senator Stevens. Mr. Secretary, that is a request, but I 
would state this, that Senator Inouye and I have made a 
practice of traveling to the Pacific now for over 30 years. 
Every time we go to a foreign country we ask the same question 
of a new generation of people involved in the operation. We 
literally have been doing this now for more than 30 years. We 
ask them: What do you think about the presence of the United 
States in the Pacific? Do you think we should reduce it or 
should we increase it?
    I think I cannot remember one single country, including 
China, who ever said anything to us about reducing the forces 
in the Pacific. We are the stabilizing force in the Pacific. So 
I emphasize his question or his statement.

                COMPLETION OF QUADRENNIAL DEFENSE REVIEW

    Let me ask you one last question. I did promise we would be 
out of here by 12:30. Will the QDR be completed in time for the 
President to take it into account in terms of the 2007 budget 
request?
    Secretary Rumsfeld. The QDR of course is an activity that 
is made up of many parts and the answer is that there is no 
question but that we will be informed as we go through the QDR 
process this year in ways that will in fact affect the fiscal 
year 2007 budget. There may very well be pieces of it that we 
would assign for further study and that would not be at a stage 
of completion that would enable us to be informed by the 
outcomes for the 2007, in which case they would very likely 
affect 2008 or later. But a lot of it will be.
    Senator Stevens. Well, again, I think we can remember times 
when the QDR came to us at a time that we already had the 
President's request and it certainly confused the subject of 
defense before this subcommittee. So whatever we can do to get 
the information that pertains to the appropriations request 
before the 2007 budget is received I think would be very 
helpful here, very helpful.
    Secretary Rumsfeld. We will certainly try to do that. You 
are quite right, it is a distraction to send up a budget and 
then be asked by Congress to do a Quadrennial Defense Review 
simultaneously and begin that process and have it reveal things 
that lead you to a different conclusion, and I can well 
understand the layering effect and the distraction it causes 
and we will try to do our best.
    Senator Stevens. Thank you.
    Well, again, gentlemen and Ms. Jonas, we thank you very 
much for your testimony. I want to make this statement to you. 
I have made it to you privately and others may not agree with 
me. But I have been privileged to be at meetings, Mr. 
Secretary, that you have had with the Joint Chiefs. I have 
never seen such a relationship between the chiefs and the 
Secretary--open discussion, open critique, and really a give 
and take that was very, very, really I think very helpful and 
very healthy as far as the Department is concerned.
    You obviously, Mr. Secretary, had a previous iteration as 
Secretary, so there has never been a Secretary that had more 
background than you have.
    But I will say this to General Myers. I have been a devotee 
of General Eisenhower since World War II and had the privilege 
of serving under him. As I have told you personally and I would 
like to say publicly now, you come as close to Ike as any 
general I have ever known. So we thank you very much for your 
service and we will look forward to being with you whatever you 
do.

                     ADDITIONAL COMMITTEE QUESTIONS

    There will be questions submitted for the record, Mr. 
Secretary. I failed to notify that, but that is common 
practice.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

             Questions Submitted to Hon. Donald H. Rumsfeld
              Questions Submitted by Senator Arlen Specter

    Question. As Chairman of the Senate Depot Caucus, I am a strong 
advocate for maintaining a viable organic depot maintenance capability 
within the Department of Defense. I would like to note that the 
Government Accountability Office has criticized the Defense Department 
for failing to develop a long-term strategic plan for the military 
depots. What is your long-term strategic plan for this dedicated group 
of highly skilled civilian workers who have served you and our 
warfighters so well in peacetime and in war?
    Answer. The Department is engaged in a multiple-year transformation 
of its organizations and doctrine to better focus force structure and 
resources on the national security challenges of the 21st century. An 
integral part of this activity is an ongoing analysis of options for 
transforming DOD's support infrastructure to become more agile and 
responsive. As such, DOD's long-term strategy for providing depot 
maintenance is still evolving, and is guided by the following:
  --Depot maintenance mission. Sustain the operating forces with 
        responsive depot-level maintenance, repair, and technical 
        support--worldwide.
  --Depot maintenance vision. Agile depot maintenance capabilities that 
        are fully integrated into a warfighter-focused sustainment 
        enterprise, supporting the full spectrum of operational 
        environments.
    Question. It has been reported that the Army will spend $7 billion 
this year to repair and replace equipment returning from Iraq. Depots 
have doubled their workforce and are working around the clock and still 
we hear reports of vehicles lacking significant armor. If the war ended 
today, it is estimated that it would take all of our depots two years, 
at full capacity, to restore all the equipment used in Iraq. 
Considering that some of these vehicles are being run at six times the 
normal rate and that we will be maintaining a significant presence in 
Iraq for some time to come, how will this impact your recommendation on 
the future of our depots to the BRAC Commission?
    Answer. Our BRAC analysis of the organic depot maintenance 
infrastructure was reviewed by a joint group with representatives from 
all Services. Existing and projected workload levels as well as the 
anticipated requirements of the 2025 force structure were considered. 
Military value, coupled with the capacity analysis formed the basis for 
our recommendations.
    Question. You are driving the Defense Department's transformation 
from an industrial age military organization to a 21st century 
information age force focused around the advanced sensors and 
communication systems that are Tobyhanna's expertise. The support of 
these systems matches Tobyhanna's mission perfectly and thus it seems 
natural that Tobyhanna should conduct the depot support for these 
advanced systems.
    What steps have been taken to ensure Tobyhanna has the skills, 
facilities, and latest technology to support the maintenance and 
logistical requirements of the future weapons systems that you so 
strongly advocate?
    Answer. We have taken a number of steps to assure that Tobyhanna 
Army Depot has what it takes to support current and future weapon 
systems in their areas of expertise. Preparing the depot for a new 
weapon system starts early in the acquisition of the that system with 
the Core Depot Analysis, performed in compliance with Title 10, United 
States Code, Section 2464. This analysis determines the depot 
maintenance that must be performed on a weapon system in order to fully 
support the most intense of the war scenarios planned for by the Joint 
Chiefs. The depot that performs that work must then be equipped, the 
employees fully trained, and any necessary facilities prepared to take 
on that maintenance. We have established a process in which the program 
manager works with the depot and its parent command to assure that this 
analysis is complete and that the budgets for the weapon system reflect 
any requirements to purchase equipment and build or upgrade facilities 
to perform the new workload. In the past, this was somewhat difficult 
because the program managers operated independently--not in the same 
chain of command as the depot. We are now establishing Life Cycle 
Management Commands (LCMC) which merge the staffs of the Program 
Executive Officers (for whom the program managers work) and the 
commodity commands (for whom the depots work), giving us seamless 
control over the development of a new weapon system and the 
establishment of its support structure. Tobyhanna's parent LCMC, the 
Communications-Electronics LCMC, was the first ``out-of-the-box'' of 
these centers. In addition to the steps taken with each specific weapon 
system, we have well-established programs in the depot to keep the 
facilities and equipment up-to-date by investing the depot's own 
capital, and to train the workforce for each weapon system supported--
including training provided at the equipment manufacturer.
    Question. Letterkenny Army Depot is the number one provider of 
tactical missile system support to the Department of Defense. Our 
military arsenal has several hundred thousand aging, deteriorating 
missiles. Demilitarization for these missiles requires disassembly and 
open burning or detonation. Letterkenny is the major storage site for 
tactical missiles on the East Coast and could offer safer, 
environmentally sound technology to recover, recycle, and reuse (R\3\) 
these missile components. However, there is no consolidated program to 
research and operate a large scale, environmentally friendly 
demilitarization program for tactical missiles.
    In May of 2003, I proposed to you the establishment of a Center of 
Technical Excellence (CTX) for missile demilitarization be created at 
Letterkenny Army Depot. There was $1.75 million in the fiscal year 2004 
budget to initiate a pilot program for MLRS recycle/reuse at 
Letterkenny. There was no funding for this initiative in fiscal year 
2005 budget. I am again proposing a CTX for missile demilitarization/
R\3\ be created at Letterkenny Army Depot. I would like your input on 
this proposal.
    Answer. Letterkenny Munitions Center (LEMC) is currently working 
with Defense Ammunition Center (DAC) and Aviation and Missile Research 
Development and Engineering Center (AMRDEC) to develop a resource 
recovery and recycling (R\3\) capability for missiles. In fiscal year 
2004, DAC received $1.75 million to start this process. A team was 
formed utilizing personnel from DAC, AMRDEC and LEMC to look at the 21 
different missile systems stored at LEMC, to include MLRS. We are 
leveraging the process at Anniston Defense Munitions Center (ADMC) for 
the TOW missile R\3\. This initial funding is being used to develop 
Technology Trees to determine all of the hazardous components in each 
missile and the technology possibilities for each. It is also being 
used to develop methods and equipment for removing explosives from 4 
different warheads, and to prepare a building at LEMC for the warhead 
equipment. The initial $1.75 million is enough only to start the 
process. We believe the amount required will be at least $10 million 
over the next two years and more as newer technology becomes available.
    Question. Tobyhanna, Letterkenny and the entire organic industrial 
base have responded magnificently in supporting the GWOT, especially 
operations in Iraq. This performance reinforces my belief that we must 
maintain a strong, public sector capability to meet the logistics needs 
of our Warfighters. Do you share that belief, and, if so, how will you 
ensure we retain that capability during BRAC 2005. Specifically, what 
is the Defense Department doing, through BRAC and in other 
transformational planning, to ensure that DOD retains a robust, 
efficient, well-trained and well-equipped public depot maintenance 
structure for the challenges of the present and future?
    Answer. I do share your assessment of the performance our organic 
industrial base. Our BRAC analysis of the organic depot maintenance 
infrastructure was reviewed by a joint group with representatives from 
all Services. Existing and projected workload levels as well as the 
anticipated requirements of the 2025 force structure were considered. 
Military value, coupled with the capacity analysis formed the basis for 
our recommendations. Our recommendations retain the essential 
capabilities of the Departments' organic industrial base.
    Question. How will the Department ensure that the BRAC 
recommendations comply with the national defense mandates of Title 10, 
namely Sections 2464 and 2466, which ensure a ready source of depot 
maintenance?
    Answer. Our depot-related BRAC recommendations are consistent with 
the mandates prescribed by Title 10. Existing workloads, workloads 
necessary to sustain core capabilities and projected requirements 
associated with the 2025 force structure were all considered in our 
analysis and subsequent recommendations.
    Question. Does the Department intend to privatize its depots and 
other maintenance facilities?
    Answer. No. The Department is committed to maintaining depot 
maintenance core capabilities and other related maintenance 
capabilities in Government-owned and operated facilities using 
Government equipment and personnel to assure effective and responsive 
maintenance support for DOD operations.
    Question. The 193rd SOW is one of the largest units in the Air 
National Guard with 1,700 military personnel. The 193rd conducts 
psychological operations and civil affairs broadcast missions and is 
the only Air National Guard unit assigned to Special Operations Command 
and the only unit in the military that conducts this mission. The 
ongoing quest to equip the 193 Special Ops Wing with its last two C-
130J models continues. The original plan, which began five years ago, 
called for replacing eight older models with eight new J models but the 
USAF keeps postponing the procurement of the last two planes leaving 
the 193rd with the six planes. What is the timeline for delivery of the 
final two C-130Js to the 193rd SOW?
    Answer. The United States Special Operations Command's requirement 
is for a total of six EC-130Js at Harrisburg. To assist the 193rd SOW 
with training requirements, the Air Force will provide one additional 
C-130J (aircraft number seven) in September 2005. The number seven C-
130J aircraft has already been delivered to the USAF and will be 
transferred from another station to the 193rd SOW.
    Question. I am concerned about the Defense Department's diminishing 
support for Guard counterdrug programs and the related funds it needs. 
The Guard is one of the best vehicles for doing this mission because 
they are in the communities served, and have existing networks with law 
enforcement and other first responders. Our civilian law enforcement 
will be seriously degraded without the Guard counterdrug programs. What 
is your position on the Guard's counterdrug mission and do you have any 
plans to enhance or decrease their role?
    Answer. The NG fulfills a vital role in performing CN operations. 
The Guard is also a major contributor in the on-going War on Terrorism, 
a major priority that has challenged both active and reserve 
components. The Department must carefully balance the ability of the NG 
to support both missions. The Department agrees that the NG can provide 
military unique services in support of CNs operations.
    In 2003, the Department conducted a comprehensive review of its 129 
counterdrug programs to transform DOD's CNs Activities in a post 9/11 
environment. In certain cases, in order to relieve stress on our Title 
10 forces, we increased the levels of effort and type of support (air/
ground reconnaissance, intelligence analysts, and training for LEAs) 
that we wanted the NG to provide. In cases where the NG was providing 
support that Federal, state and local law enforcement ought to be doing 
on their own (i.e. missions that were not military unique), we 
recommended that those activities be transferred or terminated. For 
example, the U.S. Customs Service stated that they would be able to 
``effectively discharge'' its cargo/mail inspection duties without 
support from the NG.
    The support that DOD provides should not only complement domestic 
law enforcement, but should also enhance unit readiness.
    Question. Will you please provide the Department of Defense's 
efforts to armor vehicles from all services? I would appreciate current 
statistics on the status of the armoring of vehicles, including 
specific levels of armor, and a timeline detailing the efforts and 
challenges the Department faces in achieving this requirement.
    Answer. The Department is on track to meet CENTCOM (Level I and II) 
armor vehicle requirements by September 2005. Our biggest challenge is 
to keep pacing items for the Level I and II application on schedule.
    As of May 27:
    Level I (Up Armored Humvees)--8,279 completed of 10,577 required;
    Level II (Steel and Ballistic Glass)--22,242 completed of 29,974 
        required; and
    Level III (Steel only)--11,378 completed.
    The Marine Corps achieved the Level I/II goal in August 2004. Army 
is on track to achieve this objective by September 2005. Air Force 
vehicles are level I and II, and Navy uses non-tactical vehicles for 
on-base use only.
    Question. The Naval Foundry and Propeller Center at the Norfolk 
Naval Shipyard Detachment-Philadelphia has been in existence for more 
than 85 years and is the Navy's only remaining propeller foundry. Are 
there any plans to privatize this mission?
    Answer. No privatization initiatives are currently planned. Any 
initiative to privatize an organic depot capability could possibly 
require a DOD request for Congressional amendment of 10 U.S.C. 2464 
(core depot capability requirement) or 10 U.S.C. 2466 (50-50 law) to 
prevent non-compliance with Title 10 requirements.
    Question. The Army War College at Carlisle Barracks has a long and 
distinguished history. One of the key aspects of having the College in 
close proximity to Washington, D.C. is the ability for the AWC to draw 
upon the expertise of high ranking leaders to lecture and meet with 
tomorrow's military leaders. Do you agree that the student experience 
of having access to these leaders is an invaluable component of their 
educational experience?
    Answer. The U.S. Army War College (USAWC) must be close enough to 
the National Capital Region (NCR) to both support and influence the 
Army Staff. USAWC support to organizations inside NCR has expanded to 
include: CSA, HQDA, Joint Staff, DOD agencies, Inter-Agency communities 
(DOS, DHS, DOJ). The close proximity to the NCR facilitates access to: 
key national and international policy makers, senior military leaders, 
director level personnel from OSD, JS, ARSTAF, Inter-Agency 
environment, governmental, military, and private think tanks, and the 
Defense intellectual community in the ``Northeast Corridor''. The 
current location supports curriculum IAW Congressional intent and 
JPME--USAWC curriculum focuses on national military strategy. USAWC 
curriculum, therefore, addresses the nexus between national security 
strategy, national military strategy, and theater strategy and 
campaigning which is directly linked to the activities within the 
National Capital Region. Recent increases in U.S. military interaction 
with interagency organizations reinforces the need for proximity to 
National Capital Region. The current location allows for access for 
academic trips to interagency bodies, think tanks, and corporate 
locations, it is a transportation hub that facilitates speakers, 
support, and coordination efforts, it allows for continuity of 
operations and faculty recruitment and retention. Carlisle, 
Pennsylvania promotes Army well-being and quality of life: Carlisle 
area rated second least stressful metropolitan area in America. 
[Sperling's Best Places]; Lower cost of living eases recruitment and 
retention; provides access to the U.S. Army Heritage & Education Center 
(AHEC), the Army Physical Fitness Research Institute (APFRI), the 
Center for Strategic Leadership (CSL), U.S. Army Peacekeeping & 
Stability Operations Institute (PKSOI), the Strategic Studies Institute 
(SSI), personnel for core and elective curricula faculty. USAWC offers 
a comprehensive professional and personal program in an overall 
environment that encourages students to study and confer; it provides a 
``community of senior leaders'' that fosters free exchange of ideas 
without distractions of other competing activities. Since 1973, 15 
separate studies examined location or command arrangements of the USAWC 
and have supported retaining USAWC at Carlisle Barracks.
    Question. The Naval Support Activity in Philadelphia, and 
specifically the Defense Supply Center Philadelphia (DSCP) and DLA 
missions, play a critical role in supporting our forces. Would 
privatizing or moving these individuals and missions disrupt the flow 
of supplies and harm our warfighters?
    Answer. Ensuring the uninterrupted and seamless flow of supplies 
from America's industrial base to our warfighters is at the heart of 
the Defense Logistics Agency's mission and our unwavering first 
priority.
    The Defense Supply Center Philadelphia (DSCP), a tenant of the 
Naval Support Activity Philadelphia, plays a vital role in execution of 
this vital mission. DSCP has been a leader in innovative approaches to 
providing outstanding support in an efficient manner.
    As to privatization, or competitive sourcing, under OMB Circular A-
76, the Agency retains responsibility for the function. The OMB 
Circular A-76 contains guidance to determine whether a function is 
commercial in nature as opposed to inherently governmental. Only those 
that are commercial in nature can be subjected to public-private 
competition. The premise of, and our experience with, A-76 is that 
employee status of the service provider should be transparent to the 
customer. Once it has been decided to subject a function to A-76, the 
procedures of the Circular are implemented to ensure that the selected 
service provider's performance proposal meets the requirements of the 
warfighter as outlined in the performance work statement, demonstrating 
its capability to take on and continue the mission. Past DLA 
performance work statements have included specific requirements 
concerning the transition from Government performance to either 
implementation of the Government Most Efficient Organization (MEO) or 
contractor performance. These requirements are designed to deliver a 
seamless transition of responsibility. The performance work statements 
also have acceptable performance level standards that the selected 
service provider is required to meet throughout the performance period.
    There are no current plans to move DSCP, however if a decision were 
made to move DSCP, the agency would take all necessary measures to 
ensure the transition is executed with the absolute minimum amount of 
impact on the warfighter. As we know from experience, some personnel 
working in the four supply chains currently managed by DSCP would not 
transition and this experience and expertise would be quickly 
reconstituted in the new location.
    Question. Since we are experiencing severe reserve component 
retention and recruiting shortfalls at this time, how important is the 
maintenance of joint service footprints near major population centers 
in recruitment and retention?
    Answer. Maintenance of the Department's footprint is a priority. We 
continue to aggressively model the infrastructure to assure best 
industry practices are applied to our facilities. The current 67 year 
recapitalization rate metric and the 93 percent sustainment rate assure 
the proper funding is in place to maintain this joint Service 
footprint.
    Question. Can you describe the domestic homeland security mission 
requirements of our forces? Are these missions joint in nature? How has 
the Department of Defense and Department of Homeland Security 
coordinated its efforts and funds?
    Answer. The Department of Defense (DOD) augments the resources and 
capabilities of domestic civil authorities when their resources have 
been overwhelmed or DOD can provide a unique capability. The Department 
of Defense is in support of civil authorities. Therefore, requirements 
are determined by other Federal agencies and are situation specific.
    The Commanders of U.S. Northern Command (USNORTHCOM) and U.S. 
Pacific Command (USPACOM) are responsible for supporting civil 
authorities once requests have been approved by the Secretary of 
Defense. USNORTHCOM has two tasks forces, Joint Task Force Civil 
Support and Joint Task Force North that provide command and control of 
forces in its area of responsibility. USPACOM utilizes Joint Task Force 
Homeland Defense to provide command and control with their area of 
responsibility.
    Support provided by DOD's U.S. Army Corps of Engineers (USACE) is 
the exception. USACE responds to civil authorities under Public Law and 
the National Response Plan. In accordance with the National Response 
Plan, USACE is the Primary Agency for Emergency Support Function #3, 
Public Works and Engineering. Funding for USACE missions are part of 
their operating budget or may be reimbursable under the Stafford or 
Economy Act depending on the mission requirement.
    A difference of note between Homeland Security and Homeland Defense 
is simply that in a Homeland Defense mission, DOD will be the lead (as 
opposed to Defense Support to Civil Authorities where typically a DHS 
agency will lead).
    Homeland Defense is broken down into domains. The defense domains 
consists of air, land and maritime. Current Homeland Defense mission 
requirements are no different than standard warfighting requirements, 
except that they are oriented more towards protection vice attacking 
for offensive operations. Some current Homeland Defense missions are 
the Air Patrols over the National Capitol Region flown by the Air 
National Guard in support of Operation NOBLE EAGLE and Quick Reaction 
Forces on stand-by for domestic deployment.
    Question. Are these missions joint in nature?
    Answer. All domestic missions are joint in nature. Once a 
requirement has been established, the Department looks for the Service 
or Services that can best provide the resources and/or capabilities to 
effectively and efficiently meet the mission requirements.
    This is true of Homeland Defense missions as well. The DOD will 
lead any Homeland Defense mission, most likely through USNORTHCOM or 
one of its subordinates. JFCOM, as the force provider, will look at 
forces available to best provide the particular capability to satisfy 
mission requirements across the spectrum of defense domains.
    Question. How has the Department of Defense (DOD) and Department of 
Homeland Security (DHS) coordinated its efforts and funds?
    Answer. The Departments of Defense and Homeland Security are 
involved in continuous coordination to ensure national homeland 
security objectives are met.
    Examples:
  --DOD worked with DHS's U.S. Secret Service to plan for and execute 
        security at National Special Security Events (NSSEs) in 2004. 
        These NSSEs include the Group of Eight (G8) Summit, Republican 
        and Democratic National Conventions, the State of the Union and 
        the State Funeral for former President Reagan.
  --DOD provide DHS with unmanned aerial vehicles in support of their 
        Arizona Border Control Initiative from June 2004 to January 
        2005.
  --From October 2004 to February 2005, DOD provided support to DHS's 
        Interagency Security Plan. DOD is still involved in the DHS 
        Interagency Security Plan (ISP) 2005, which is a vehicle for 
        putting forward DHS initiatives that DOD may be required or 
        requested to support. This is a ``living document'' that 
        requires continual coordination between DOD and DHS for new and 
        ongoing DHS programs.
  --In support of DHS's Federal Emergency Management Agency, DOD 
        provided personnel, facilities, equipment, food, water, ice and 
        medical support to the state of Florida after an unprecedented 
        four hurricanes hit the state in August and September.
    DOD normally provides support on a reimbursable basis under the 
Stafford or Economy. One exception was the support provided to DHS's 
Interagency Security Plan. The Secretary of Defense determined that 
support provided to the ISP provided a training benefit to the 
Department and reimbursement was waived.

                                 ______
                                 
           Questions Submitted by Senator Christopher S. Bond

    Question. The (V)3 AESA radar system once it completes development 
within the next year will be the most advanced and capable tactical 
aircraft weapons system in the world. It also makes the F-15C the most 
capable homeland defense platform on the planet which is why I am 
mystified the Air Force elected to not pursue production once the 
system completes the design phase.
    Are you aware that the U.S. Air Force elected to shelve the (V)3 
AESA radar system after almost $68 million invested? And has your staff 
briefed you on the capabilities of this system as it compares to the 
system in the F-22 and the F-16 and how this system will enhance the 
homeland defense capabilities of CONUS based aircraft?
    Answer. Yes, I am aware of Air Force budget decisions, system 
capabilities/comparisons (including the AESA radar) in Homeland Defense 
and other mission areas, and how budget limitations impact force 
capabilities. The Air Force is committed to completing the development 
of the F-15C/D AESA radar program in fiscal year 2006. We plan to 
continue to incorporate AESA technologies on various platforms, 
including the F-15. However, at this time, higher Air Force funding 
priorities preclude AESA procurement for the F-15C/D fleet. The Air 
Force's investment strategy seeks to strike a sound, capabilities-based 
balance between modernizing legacy fighters and fielding F/A-22 and F-
35 in a timely manner.
    Question. If this country needs more affordable fighters we may 
very well need more F-15's but I cannot get the Pentagon to release $1 
million for an RFP so that Boeing and the Air Force can begin 
negotiations for the purchase of at least two aircraft which will keep 
the production line open through the end of calendar year 2008. The 
action of the Air Force is shortsighted and detrimental to the 
diminishing aircraft industrial base which now consists of just two 
prime manufacturers. It is not in the best interests of the nation or 
the taxpayer to have just one supplier of tactical aircraft for the Air 
Force, which is Lockheed Martin, yet this is exactly what will happen 
if the F-15 line closes.
    Can you provide me an update on the status of the $1 million which 
OSD needs to release in order for an RFP for two aircraft to move 
forward? Failure to do this could result in an additional cost of $20 
million if we have to negotiate a sale late in this legislative cycle.
    Answer. The $1 million for an F-15E Request for Proposal (RFP) is 
released to the F-15 program. We expect to be on contract for the RFP 
effort by May 30, 2005. The remaining portion of the $110 million 
Congressional add for advanced procurement will remain on Air Force 
withhold pending fiscal year 2006 Congressional add to fully fund the 
aircraft procurement.
    Question. As BRAC draws near and as it relates to the Air National 
Guard I am concerned that the process has been designed to validate a 
pre-determined view of the Future Total Force as defined strictly by 
the active Air Force, without the substantive input of the Air National 
Guard. Without the substantive input of the National Guard I question 
the validity of the plan and possibly the BRAC process and its impact 
on the ability of the Air Guard to remain an integral partner in the 
Total Force.
    Can you give me your assessment of the Guard's role in the 
development of the Future Total Force Strategy of the U.S. Air Force? 
By the Guard's role I refer to the input of the TAG's from states with 
significant Air Guard assets.
    Answer. Yes, I am aware of Air Force budget decisions, system 
capabilities/comparisons (including the AESA radar) in Homeland Defense 
and other mission areas, and how budget limitations impact force 
capabilities. The Air Force is committed to completing the development 
of the F-15C/D AESA radar program in fiscal year 2006. We plan to 
continue to incorporate AESA technologies on various platforms, 
including the F-15. However, at this time, higher Air Force funding 
priorities preclude AESA procurement for the F-15C/D fleet. The Air 
Force's investment strategy seeks to strike a sound, capabilities-based 
balance between modernizing legacy fighters and fielding F/A-22 and F-
35 in a timely manner.
    Question. I understand you are committed to outsourcing military 
functions that can be ably performed by civilian contractors. Are you 
aware that the Army Military Postal Service Agency conducted an 
internal study of the MPSA and published its findings in year 2000 
which recommended that ``all'' or some of the functions of MPSA be 
outsourced? Are you aware that I have recommended to Army that the 
Department move to outsource all MPSA functions? Are you also aware 
that a significant number of Army billets are dedicated solely to 
moving and sorting military mail?
    Answer. The military Postal System operates as an extension of the 
U.S. Postal System under Title 39 U.S.C.; therefore outsourcing of 
military postal functions must be coordinated and agreed to by the 
Postal Service. The Military Postal Service Agency (MPSA), conducted an 
internal study on outsourcing and they have been working with the 
military services to outsource functions within the military postal 
system. As an example, the Air Force has outsourced the majority of 
their main mail terminal in Frankfurt (66 military positions; 3 
civilian positions), and the U.S. Army has outsourced most of their 
mail processing and surface transportation at the Joint Military Mail 
Terminals (JMMT) in both Kuwait and Baghdad and several military post 
offices (MPO), including the Coalition Provisional Authority MPO at the 
Palace Compound in the Green Zone, Baghdad, Iraq. Furthermore, MPSA is 
currently reviewing guidelines for the Services on what functional 
areas within the Military Postal Service may be considered for further 
outsourcing, by the services, versus what is inherently governmental. 
Upon completion of this policy, a meeting with all Services, U.S. 
Postal Service (USPS), and DOD will take place to coordinate a way 
ahead. We are doing this with USPS input to ensure the policy adheres 
to all laws and regulations binding USPS. Currently throughout DOD 
there are approximately 2,274 active duty personnel of which 570 are 
Army personnel providing full-time postal duties.

                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                         IRAQI SECURITY FORCES

    Question. Do you still stand by your earlier estimates of the 
number of ``trained and equipped'' Iraqi security personnel?
    Answer. I do stand by my earlier estimates of the number of trained 
and equipped Iraqi security personnel. Each week I receive a report 
from the Multinational Security Transition Command-Iraq. This report is 
put together by Lieutenant General Dave Petraeus' Headquarters and is 
reviewed by General Casey. This number reflects the number of Iraqi 
forces who have been trained and equipped to the standards previously 
provided to Congress. However, ``trained and equipped'' does not tell 
you the capability of Iraqi security personnel. We have recently begun 
to measure this capability. The new process for measuring Iraqi 
Security Forces capability looks at six areas of readiness: personnel, 
command and control, training, sustainment, equipping and leadership. 
Using these measurements, units are assessed on their ability to 
execute counterinsurgency operations and are given a readiness rating 
of Level 1-4. A Level 1 unit is fully capable of planning, executing 
and sustaining independent counterinsurgency operations.
    Question. To what extent are the Pentagon's estimates of the Iraqi 
Ministry of Interior forces reliable?
    Answer. The estimates reflect the number of police who have been 
trained and equipped minus estimated losses based on reports from 
Multi-National Corps-Iraq. They are the best estimates available, and 
Multi-National Forces-Iraq is constantly reviewing means to improve 
upon them.
    Question. What specifically do you attribute to the difficulty of 
training an adequately-sized Iraqi Security Force--funding, capability, 
equipment, or some other factor?
    Answer. Training the Iraqi Security Forces (ISF) with the right 
balance of capabilities presents many challenges, and steps are being 
taken to ensure the ISF has the means to maintain domestic order and 
deny a safe haven to terrorists. Some of the challenges in developing a 
capable Iraqi Security Force are: working with a different culture; 
overcoming poor leadership habits and corruption developed under the 
former regime; working within a cash-based economy; developing capable 
bases that have largely been destroyed; developing command, control and 
communication systems where none existed; and training security forces 
to conduct counterinsurgency operations when they had never performed 
them.
    Question. How many Iraqi security personnel do you estimate will be 
recruited, equipped, and trained by the $5.7 billion that was allocated 
for this purpose in the fiscal year 2005 Supplemental bill?
    Answer. The fiscal year 2005 supplemental will fund the most 
critical institutional training, equipment and infrastructure 
requirements for about 270,000 Iraqi Security Forces.
    Question. You also state in the funding justification language for 
the fiscal year 2005 Supplemental, and I quote: ``The Iraqi Interim and 
Transitional Governments, with Coalition assistance, have fielded over 
90 battalions in order to provide security within Iraq . . . All but 
one of these 90 battalions, however, are lightly equipped and armed, 
and have very limited mobility and sustainment capabilities.'' (page 
25)
    Does this statement remain true today?
    Answer. At the time of that statement, only one mechanized 
battalion was operational. Currently there are two mechanized 
battalions that are capable of planning and executing counterinsurgency 
operations in conjunction with Coalition units. The vast majority of 
Iraqi security forces are infantry and police-type units, which we 
consider to be ``light'' forces.
    Question. Would you please tell the Committee how many Iraqi 
battalions today are fully-equipped, armed, and capable of successfully 
carrying out their mission in Iraq?
    Answer. There are 102 battalion level combat units in the Iraqi 
Ministry of Interior and Defense conducting operations at the company 
though battalion level. 81 of these battalions are in the Ministry of 
Defense and 21 battalions are in the Ministry of Interior. These forces 
are capable of conducting security operations--in some cases with 
Coalition assistance and in some cases without assistance.

                APPROPRIATE NUMBER OF UP-ARMORED HUMVEES

    Question. Since the beginning of this year, it is my understanding 
that the U.S. Central Command has increased its estimate of the number 
of up-armored Humvees needed in Iraq and Afghanistan at least 5 
separate times. And earlier this month, the Army stated that it was 855 
vehicles short of procuring the 8,105 factory-armored Humvees needed 
for its missions in the Middle East. In addition, it has come to my 
attention that several days ago the U.S. Central Command again 
increased its estimate of required Humvees to 10,079. I remember you 
came before this Committee in February and told us that there were no 
longer any military vehicles operating in Iraq (outside of a protected 
zone) that lacked ``an appropriate level of armor?
    Can you explain why the Pentagon has so often underestimated the 
need for up-armored Humvees since the beginning of this war?
    Answer. The Pentagon has not under estimated the need for Up-
Armored Humvees. The increase in Up-Armored Humvee requirements 
corresponds with the results of a constant mission analysis conducted 
by the Operational Commander and his staff. This analysis takes into 
account the changing tactics, techniques, and procedures of the Iraqi 
insurgents, and the requirement for U.S. forces to operate outside of 
secure operating bases. As the enemy's tactics, techniques, and 
procedures change so will the requirements.
    Question. Are you confident that we currently have an appropriate 
number of up-armored Humvees in Iraq and Afghanistan? If not, when do 
you estimate that we will have the necessary number of vehicles?
    Answer. The Combatant Commander, CENTCOM determining the need for 
UAH through the use of an Operational Need Statement (ONS) to request 
what he needs to conduct military operations. Since the first ONS for 
235 UAH in May 2003, the validated theater requirement has grown to the 
current requirement of 10,079. Almost without exception, each jump in 
the requirement was preceded by an operational event in theater whereby 
the insurgency began employing a different method of attack against the 
coalition forces. The Army will continue producing UAH at the maximum 
monthly production rate of 550 until the requirement of 10,079 is 
satisfied from production in July 2005 with in-theater delivery by 
September 2005.
    Question. A GAO report released this month suggests that the 
Pentagon ``failed to use the maximum available production capacity'' to 
produce factory-armored Humvees even as the requirements increased.
    How many factory-armored Humvees are currently being produced each 
month?
    Answer. O'Gara-Hess (OHEAC) is currently producing at their maximum 
production rate of 550 vehicles per month.
    Question. Can you say confidently that all 5 Army depots are now 
operating at their ``maximum'' capacity in regards to up-armoring and 
repairing Humvees?
    Answer. The Army Depots have completed theater validated production 
requirements for HMMWV's add-on armor kits. The Validated Theater 
requirement is 13,872 kits of which the Army has produced 14,220 kits.
    Question. And is it true that only one small factory in Ohio is 
producing the armor to fortify Humvees?
    Answer. No; armor for HMMWVs has been produced in four 
configurations. O'Gara-Hess & Eisenhardt Armor Company is the armor 
producer for the M1114 Up-armored HMMWV. Ground System Industrial 
Enterprise (GSIE) with seven Army Depots have produced the Armor 
Survivability Kit (ASK) Add-on Armor, O'Gara-Hess & Eisenhardt with 
Simula produced the Enhanced HARDkit Add-on Armor and ArmorWorks is the 
producer of the HMMWV troop carrier.

                      RESERVE AND GUARD RETENTION

    Question. It has been reported that the Army National Guard missed 
its recruiting goal by 27 percent in the first half of this fiscal 
year, while the Army Reserve came up 10 percent short.
    Can you comment on the current recruitment and retention rates of 
the Army Guard and Reserve?
    Answer. LTG Schultz: The Army National Guard is at 77 percent of 
its accession mission to date for fiscal year 2005 (26181/34167). 
However, it has accomplished its retention mission at a rate of 103 
percent (18796/18231). Overall, the Army National Guard is at 98 
percent of its authorized strength. The accession mission is developed 
based partly on attrition rates from previous years. With its improved 
retention this fiscal year, the Army National Guard can achieve its 
endstrength requirements while still falling short of its accessions 
mission.
    Question. Has raising the maximum enlistment age from 35 to 39 led 
to an increase in the number of recruits?
    Answer. LTG Schultz: The ARNG has enlisted 101 Non Prior Service 
Soldiers who were 35-39 years old. This is relatively a small amount of 
accessions and there are no current marketing initiatives to penetrate 
this population. The Army National Guard anticipates the annual 
enlistments to be around the 600 mark.
    Question. What about pay incentives? Do you think increasing pay 
and benefits for the Guard and Reserve would be a helpful tool to 
recruiting?
    Answer. LTG Schultz: The Army National Guard is not unlike any 
other business in the open market, the higher the pay and incentives, 
the more recruits you have applying for the job regardless of the risk. 
The current economy has fewer eligible applicants being sought after by 
a larger and larger pool of businesses and governmental entities. It 
goes without saying, improving pay and incentives would show an 
increase in recruits.

              STRESS ON THE ACTIVE-DUTY AND RESERVE FORCE

    Question. Since September 2001, over a million active and reserve 
forces have been deployed. Of that, one-third have been deployed twice. 
The Pentagon's current policy sets a standard of one-year deployed for 
every three years of duty for active-duty forces and one-year in every 
5 to 6 years for reserve forces. Deployment data shows that over one-
third of the 457,000 Army active duty and Army National Guard and Army 
Reserve forces have been deployed more than once since September 2001. 
That suggests that DOD's current policy standards are not being met for 
a large share of Army forces.
    Assuming current force levels continue in fiscal year 2005 and 
fiscal year 2006, how many and what share of Army active duty and 
reserve forces will have been deployed: More than once? More than 
twice? Since 9/11?
    Answer. The number of Active and Reserve Soldiers who will be 
deployed more than once by the end of fiscal year 2006 is difficult to 
determine accurately at this early date. If today's statistics hold 
true throughout the next 18 months an increasingly larger number of 
Active Soldiers will deploy for a second time and third time while the 
Reserve Forces will continue to contribute but at a much lower rate due 
to two mitigating policies, the Office of the Secretary of Defense's 
limiting Partial Mobilization service to 24 cumulative months and the 
Army's 12 months ``boots on the ground'' policy. Combined these two 
policies will temper the reuse of our Reserve Component (RC) Soldiers.
    The Army estimates that approximately 185,500 Soldiers currently 
assigned to the Active Component will have or are currently deployed, 
whereas 258,000 currently assigned RC Soldiers have or are currently 
mobilized with the majority serving overseas and many less in support 
of an operation stateside but away from their homes. I emphasize that 
the RC figures are the total number mobilized of which the majority are 
or have deployed overseas. In order for an RC Soldier to be deployed to 
a combat zone more than once they must currently be a volunteer.
    Projecting current required deployment force levels to the end of 
fiscal year 2006 implies the Active Army number will grow to 
approximately 206,000 who have deployed for at least one six month or 
longer period. Of these, 18,700 (3.8 percent) will have deployed twice 
and 370 (less than .1 percent of AC assigned strength) will have 
deployed three times.
    The number of Reserve of the Army Personnel who have been mobilized 
more than once is approximately 46,000 (8.7 percent), mobilized more 
than twice is approximately 7,500 (1.4 percent) of the present 
population. The vast majority of these Soldiers volunteered to be 
remobilized. By the end of fiscal year 2006, the percentage should not 
be significantly changed based upon the policies already cited. These 
projections are only estimates.
    Question. Assuming, conservatively, that current force levels 
continue, could DOD meet its stated standards for active and reserve 
forces in: fiscal year 2005? fiscal year 2006? fiscal year 2007?
    Answer. As the Army begins its third major rotation of forces to 
Iraq and its seventh major rotation of forces to Afghanistan, we remain 
committed to meeting CENTCOM requirements for trained and ready forces. 
The Army will continue to adapt to ensure our nation's success in what 
will be a continued War on Terrorism. We are pursuing polices and 
initiatives focused on providing the active duty force necessary to 
meet global force commitments and to increase the dwell times for 
deploying units in order to attain the DOD standard. The centerpiece of 
these efforts has been the transformation of the current Active 
Component (AC) and RC force to a 21st century modular force, and the 
expansion of the AC combat force structure from 33 brigades to 43 
brigades. These efforts create a larger force of more capable brigade 
combat teams, relieving some of the stress of current force 
requirements. Another initiative aimed at increasing dwell time is the 
Army Force Generation (ARFORGEN) readiness model. ARFORGEN establishes 
a three year cycle for AC units, which includes the availability for 
one deployment in three years and a six year cycle for RC units, which 
includes availability for one year of deployment in six years. The 
initial application of ARFORGEN will focus on the BCT. Application of 
ARFORGEN for echelons above brigade CS/CSS units is more difficult and 
will be dealt with in subsequent applications of ARFORGEN as force 
requirements permit. Additional efforts to increase dwell include 
contracting logistics requirements, utilizing ``in lieu of'' 
substitutions for force requirements, and accelerated rebalancing of AC 
and RC forces to replace low demand units with high demand units (i.e. 
changing RC field artillery units to military police units). The 
projected result of these initiatives is an increase in average dwell 
time for active component forces from the OIF/OEF 04-06 to OIF/OEF 05-
07, OIF /OEF 06-08, and OIF 07-09.
    Sustaining the Army's current level of commitment presents several 
challenges. Successive year-long combat rotations have had an impact on 
overall Army readiness. Moreover supplying the necessary Combat Support 
and Combat Service Support (CS/CSS) capabilities to our coalition 
forces has become increasingly difficult with each rotation, causing 
the Army to adopt new and innovative sourcing solutions. In order to 
maintain current force levels the Army has had to increase the 
operational tempo (OPTEMPO) for active duty forces deploying most units 
with dwell time less than the two year DOD goal. These challenges, 
while significant, are manageable, but the DOD stated standards will 
not be achieved for a portion of the Force. Today the Army has been 
able to achieve an average dwell time peak of 19 months between regular 
Army Brigade Combat Team (BCT) rotations. The length of Soldier's dwell 
time will decrease as the Army loses access to Reserve Component (RC) 
BCTs as well as other High Demand/Low Density RC formations:
    As a rule RC utilization continues to meet the DOD stated standard, 
with involuntary redeployment of personnel to a contingency operation 
being the exception. Maintaining the current level of force commitments 
will require the remobilization of selected RC units, however every 
effort will be made to fill these units with personnel who have not 
deployed to a contingency operation or personnel who volunteer for 
redeployment to a contingency operation. Maintaining the current force 
levels will require the continued deployment of forces at less than the 
two year DOD goal. However, the Army is taking steps to increase active 
duty unit dwell time.
    Iraqi Security Forces continue to improve and accept a growing 
share of the security responsibilities. As Iraqi Security Forces 
achieve the ability to conduct independent operations, the requirements 
for U.S. forces will begin to decrease. Potential force reductions 
would result in greater average dwell times for the OIF/OEF 07-09 
rotation.
    While the OPTEMPO for Army units has been high for the last three 
years, a combination of Army initiatives and potential decreases in 
force requirements should reduce the stress on the force. The Army 
remains committed to achieving the DOD standard of one deployment in 
three years for AC forces and one deployment in six years for RC forces 
and will take all measures possible towards that goal.

                           ARMY RESTRUCTURING

    Question. The Army requested $4.6 billion in the fiscal year 2005 
Supplemental for ``modularity,'' or force restructuring at the brigade-
level. The Army first announced this modularity initiative in August 
2003 with a plan to create between 43 to 48 units of action by 2007.
    While the $4.6 billion for the Army's modularity initiative may be 
necessary, why was it not included in the President's fiscal year 2006 
base budget?
    Answer. The Army developed estimates for the Army Modular force 
after reviewing the specific equipment and facility needs to those 
units planned for conversion. The fiscal year 2005 supplemental 
supports only those equipment requirements for these near term 
deployers, both active and Reserve Component. The accelerated process 
of the supplemental when compared to the normal budget process--a 
matter of months compared to almost two years--permits us to more 
precisely determine our requirements in this very dynamic environment. 
We have programmed for modularity requirements beginning in fiscal year 
2007 when we will have more certainty of our deployment schedules and 
associated equipment and facility needs.
    Question. I would also be very interested to know where you plan to 
request modularity funding next year: In the fiscal year 2007 base 
budget or in another supplemental?
    Answer. We have realigned a portion of the fiscal year 2006 PB to 
support Army Modular Forces, and expect to need an additional $5 
billion in an fiscal year 2006 supplemental for investment items and $3 
billion for fully-burdened personnel costs. From fiscal year 2007 
through fiscal year 2011, the Army base program will fund the remaining 
requirements for the Army Modular Force, not to include personnel 
costs. Upon return from operations in Iraq, the Army anticipates it 
will need $4 billion per year from the end of the conflict plus two 
years to fully reset its equipment to mission capable standards.
    Question. On a different note, as you move to reorganize the Army 
into faster, smaller, and more mobile combat units, concerns have been 
raised that this would lead to a loss of ``armor and firepower'' and 
the ability to wage more conventional warfare. In addition, I 
understand that this restructuring is based on the assumption that 
there is no need to permanently increase troop endstrength.
    How will the transition from a Division-centric force to a Brigade-
centric force affect our ability to engage in not only non-
conventional, but conventional warfare?
    Answer. The Army Modular Force Brigade Combat Team (BCT) is full-
spectrum capable in major combat operations, stability and support 
operations. The modular BCT has equal and in many ways greater 
capability to engage in conventional and unconventional warfare 
compared to a division-based brigade. Fundamentally, the modular BCT is 
a more informed, agile, cohesive, combined-arms team. The modular heavy 
BCT retains the M1A2 Abrams tank, the M2A3 Bradley Fighting Vehicle, 
and the M109A6 Paladin self-propelled howitzer. Instead of 3 battalions 
of 3 companies in the non-standardized baseline, every BCT has 2 
battalion task forces of 5 companies (2 armor, 2 infantry, 1 engineer). 
Instead of 3 batteries of 6 field artillery systems, there are 2 
batteries of 8 guns. This is a comparable level of armor, infantry and 
firepower, but the BCT has significantly increased intelligence, 
surveillance, reconnaissance and communication capabilities that were 
formerly found at division-level. The modular BCT has an entire Armed 
Recon Squadron,18 more UAVs, a company of Military Intelligence 
analysts, and a Signal company with greater network connectivity and 
space-based access to Joint intelligence. With improved network-enabled 
battle command and Future Combat Systems spiral acceleration, leaders 
have greater quality of information, ability to collaborate and 
coordinate, improved situational understanding, and greater agility to 
seize opportunities on the battlefield to fight on the most favorable 
terms. A RAND study has shown these network-centric capabilities in the 
modular Stryker BCT increased mission effectiveness and reduced 
casualties by a factor of 10 during urban operations at the Joint 
Readiness Training Center. Adding capability for unconventional 
warfare, the BCT has more human intelligence and robust command posts, 
with planning expertise in civil affairs, psychological, public affairs 
and information operations. Thus the modular BCT improves capability 
for unconventional warfare while retaining conventional overmatch 
against any current threat. This force structure also offers the 
optimum capability balance for the new strategic context of continuous 
full-spectrum operations in persistent conflict. 43-48 active component 
BCTs and assured, predictable access to 34 reserve component BCTs 
provides the rotational base needed to meet Army strategic 
requirements, including the Global War on Terror, and preserve the 
quality of the All Volunteer Force. The Army will address the question 
of end-strength within the on-going QDR and the Army Campaign Plan.
    Question. You have also suggested that you plan to re-train about 
100,000 soldiers, or 10 percent of the current force, in order to 
better position the Army for the combat challenges it will face today 
and in the future.
    While I agree that it makes sense at some level to re-train 
soldiers based on our current needs, would it not, in the long-term, be 
more cost-efficient and practical to simply increase troop endstrength, 
rather than attempt to solve the shortages by potentially creating new 
ones?
    Answer. The Army had cold war capabilities that were no longer 
relevant for the current strategic environment. Our rebalancing 
adjusted this existing force structure to provide a more ready force 
properly balanced and postured as a full joint war fighting partner. 
Rebalancing as part of the Transformation process will posture the Army 
to better fight the Global War on Terrorism. Additionally, the 
temporary 30,000 end strength increase allows the Army to continue to 
transform while sustaining its current level of operational 
commitments. A permanent increase in troop end strength is based on 
many factors including the defense strategy, Combatant Commander Force 
requirements and other factors.

                ABUSE OF IRAQI FEMALE PRISONERS IN IRAQ

    Question. Last time you appeared before us in February, Senator 
Leahy and I both asked you a question about whether you were aware of 
any mistreatment of female Iraqi prisoners by U.S. forces in Iraq--
allegations that included assault and rape. At the time you promised to 
``get back to us and get the answer for the record.''
    I have yet to receive a response to this question so I will ask you 
again--Secretary Rumsfeld, are you aware of any mistreatment of Iraqi 
women prisoners, including allegations of sexual abuse?
    Answer. I transmitted the following to Congress on April 27, 2005 
in response to questions for the record from my appearance before the 
Senate Appropriations Committee on February 16, 2005.
    The Department of Defense investigates all allegations of abuse of 
detainees. There have been four investigations into allegations of 
sexual misconduct involving female detainees. The investigations are 
described below:
    (1) The Taguba Report included an incident where 3 soldiers took a 
female detainee to another area of Abu Ghraib. There was an allegation 
of sexual assault in which the detainee's blouse was removed and one 
soldier apparently kissed the detainee. An investigation concerning 
this incident was opened. The soldiers involved were assigned to the 
519th Military Intelligence Battalion, Fort Bragg, NC. Initially, the 
soldiers were charged with sexual assault, conspiracy, maltreatment of 
a prisoner and communicating a threat (for allegedly telling a female 
detainee that she would be left in the cell with a naked male 
detainee). The investigation was closed as a result of insufficient 
evidence to prove or disprove the allegations. However, the unit 
commander determined that the soldiers violated a unit policy that 
prohibits male soldiers from interviewing female detainees. The 
soldiers received non-judicial punishment under Article 15 of the 
Uniform Code of Military Justice (UCMJ) for violation of a lawful 
regulation or order, (Article 92, UCMJ). A Sergeant was reduced from 
the grade of E-5 to the grade of Specialist, E-4 and forfeited $500 of 
his pay and allowances for one month; a Specialist, was reduced from 
the grade of E-4 to the grade of Private First Class, E-3 (the 
reduction was suspended), and also forfeited $750 of his pay and 
allowances for one month; and a second Specialist was reduced from the 
grade of E-4 to the grade of Private First Class, E-3 and forfeited 
$500 of his pay and allowances for one month.
    (2) The Taguba Report includes a statement that a male MP Guard had 
sex with a female detainee. The witness statement references a video of 
Private Graner having sex with a female in the prison. After an 
extensive investigation into the allegations of abuse by Private Graner 
and others at the Abu Ghraib prison, there has been no evidence 
uncovered that establishes that Private Graner had sexual intercourse 
with female detainees.
    An allegation was substantiated against Private Graner, however, 
for photographing a female detainee exposing her breasts. On January 
10, 2005, Private Graner was convicted by a ten-member enlisted panel 
at a General Court-martial for numerous offenses stemming from his 
abuse of detainees while stationed as a guard at Abu Ghraib prison. 
Included in the charges was a multi-specification charge of Dereliction 
of Duty which included one specification alleging that ``[t]he accused 
photographed a female detainee exposing her breasts.'' Private Graner 
was found guilty of this specification. He was sentenced on all the 
charges to which he was found guilty and sentenced to reduction from 
the grade of Staff Sergeant, E-6, to the lowest enlisted grade, 
Private, E-1, to total forfeitures of pay and allowances, to 
confinement for 10 years, and to a Dishonorable Discharge.
    (3) A 75-year old Iraqi female alleged she was captured and 
detained for 10 days and claimed that she was robbed, sodomized, 
indecently assaulted and deprived of food and water at a remote 
location. The woman described her captors as American Coalition Forces 
but could not provide any further descriptions of the personnel 
allegedly involved. The investigation was initially closed for 
insufficient evidence, but has since been re-opened for further 
investigation after the identification of additional leads.
    (4) A female detainee alleged she was raped and knifed in the back 
by unknown U.S. personnel at the Baghdad Central Confinement Facility. 
These allegations were reported via a newspaper article in the Los 
Angeles Times. Following the publication of the article, CID opened an 
investigation and attempted to locate the alleged victim and her 
attorney. CID coordinated with the Iraqi Ministry of Justice and made 
numerous attempts to locate witnesses for information. After extensive 
efforts, CID closed the investigation as a result of insufficient 
evidence either to identify potential suspects or to prove or disprove 
the allegations.

                     WITHDRAWAL OF TROOPS FROM IRAQ

    Question. General George Casey stated on CNN's ``Late Edition'' in 
March that there would likely be ``very substantial reductions in the 
size of our forces'' in Iraq by March 2006.
    Does the Pentagon have a timetable for withdrawing troops in Iraq?
    Answer. The President has stated on numerous occasions that 
Coalition forces will remain in Iraq until the mission of stabilizing 
the country is complete. Articulating a detailed plan for withdrawal 
before we have completed this mission would undermine confidence in our 
commitment to defeating the terrorists in Iraq. To create such doubts 
about American resolve would only lead to increased attacks against 
U.S. forces in Iraq, and likely to more attacks against Americans 
throughout the world. It is far more important, therefore, to focus on 
the objectives we are trying to achieve rather than set arbitrary 
deadlines.
    Question. Do you agree with General Casey's assessment that there 
will be a ``substantial reduction'' of our forces in Iraq within a 
year?
    Answer. General Casey's full statement was: ``By this time next 
year . . . Assuming that the political process continues to go 
positively, and the Sunni are included in the political process, and 
the Iraqi army continues to progress and develop as we think it will, 
we should be able to take some fairly substantial reductions in the 
size of our forces.''
    I agree that if at this time next year the political process and 
security situation in Iraq met the standards of success as defined by 
the President, we will be able to make some reduction in the size of 
our forces in Iraq. However, it is far more important that we focus on 
achieving our objectives of helping the Iraqi people to create a stable 
and secure Iraq than on setting arbitrary deadlines.

                         F/A-22 RAPTOR PROGRAM

    Question. The Pentagon's budget request would prematurely terminate 
the procurement program for the F/A-22 Raptor by fiscal year 2008, 
ending with the production of 179 planes rather than the original 
production request of up to 750 aircraft through fiscal year 2011.
    Can you tell me if the Pentagon still plans to end the F/A-22 
program early? If so, why?
    Answer. The President's Budget for fiscal year 2006 allocates 
funding for production of F/A-22 aircraft through fiscal year 2008. In 
making this recommendation to the President, senior members of the 
Department of Defense considered the full range of investments underway 
in air dominance (F/A-22, F-35, Joint Unmanned Combat Air System, F/A-
18 E/F/G, and the networks to link them). The Secretary decided to 
continue funding production of the F/A-22 through fiscal year 2008 to 
provide the nation a significant number of F/A-22s in the overall mix 
of systems. The Secretary also decided to continue the F/A-22 
modernization effort to provide the airplanes with a broad range of 
attack capabilities.
    The Secretary has committed to a discussion of joint air dominance 
capabilities in the context of the Quadrennial Defense Review. All 
systems' contributions to joint air dominance will be assessed to 
determine how the investment plan balances 
near-, mid-, and far-term risks.
    Question. How much money does the Pentagon expect to save by ending 
procurement of the F/A-22 by fiscal year 2008?
    Answer. The President's Budget for fiscal year 2006 cut the F/A-22 
program by $10.5 billion. These savings will be partially offset by the 
cost to extend the service life of existing aircraft, or procure new 
aircraft to provide the required capability. There may also be some 
cost impacts on other programs, including the Joint Strike Fighter, 
because Lockheed-Martin's facilities share overhead rates.
    Question. Is this number based on an estimated cost of $250 million 
per aircraft?
    Answer. The President's Budget for fiscal year 2006 reduced the F/
A-22 program by $10.5 billion and the procurement quantity by 96 
aircraft. The 96 aircraft reduction is based on an average Unit Flyaway 
Cost per aircraft of $109 million.

                             C-130J PROGRAM

    Question. I have been informed that the Pentagon estimates that 
ending this program early will save $3.5 billion. Nevertheless, it is 
my understanding that it will cost in the region of $1 billion simply 
to cancel the contract.
    Does the Pentagon still plan on completing the C-130J program in 
fiscal year 2006?
    Answer. No. As I notified the congressional defense committees, we 
have carefully reviewed our decision to terminate the C-130J program, 
and we believe it is in the best interests of the Department to 
complete the multi-year contract.
    Question. Considering that 30 older C-130s were recently grounded 
by the Air Force due to cracks on the exterior of the planes, do you 
anticipate that the Air Force and Navy will have the necessary number 
of cargo aircraft to fulfill their current and future missions?
    Answer. Though operations in the global war on terror have added 
stress to our mobility resources, we currently have enough C-130 
aircraft to accomplish our ongoing intra-theater airlift mission. We 
are assessing the Mobility Capabilities Study (MCS), which is providing 
insights into the right mix of airlift, sealift, air refueling, and 
pre-positioning assets to meet future challenges. In a follow-on study 
to MCS, we are examining future force requirements for intra-theater 
airlift within the context of the Quadrennial Defense Review. We expect 
these analyses to provide a foundation for future C-130 fleet 
recapitalization decisions.

                          GLOBAL HAWK PROGRAM

    Question. I'd like to ask a question about the Global Hawk, which 
is based at Beale Air Force Base in California. This aircraft flies 
very high, very fast, for long periods of time with large powerful 
sensors--I understand that a single Global Hawk could have surveyed the 
entire area devastated by the recent Tsunami in Asia on a single 
mission. It has also performed to rave reviews as part of surveillance 
operations in Iraq. I understand that one Global Hawk identified 55 
percent of time-sensitive air defense targets destroyed during 
Operation Iraqi Freedom.
    Is the Global Hawk something the Combatant Commanders have been 
requesting for operations?
    Answer. Yes. Since September 11, 2001, we have received three 
separate Global Hawk Request For Forces from the Commander, United 
States Central Command. Additionally, the regional Combatant Commanders 
have highlighted a collective requirement for a persistent platform 
with robust Intelligence, Surveillance and Reconnaissance capabilities 
through their Integrated Priority Lists. Global Hawk is the only system 
currently programmed that will be capable of fulfilling this 
requirement.
    Question. Has the Pentagon looked at accelerating delivery of this 
vital capability?
    Answer. The Department of Defense is incrementally fielding 
capability as soon as it becomes available. In addition, we are 
examining ways to accelerate our testing approach. Finally, and most 
importantly, we are on track to deploy our first two production 
aircraft later this summer to augment or replace our deployed Advanced 
Concept Technology Demonstration aircraft currently supporting the 
Global War on Terrorism.

                    ROBUST NUCLEAR EARTH PENETRATOR

    Question. At the March 2, 2005 House Armed Services Strategic 
Forces Subcommittee, Congresswoman Ellen Tauscher asked Ambassador 
Linton Brooks of the National Nuclear Security Administration the 
following question: ``I just want to know is there any way a [Robust 
Nuclear Earth Penetrator] of any size that we would drop will not 
produce a huge amount of radioactive debris?
    Answer. The amount of radioactive debris is commensurate with the 
yield of the weapon.
    Question. Ambassador Brooks replied: ``No, there is not.'' When 
Congresswoman Tauscher asked him how deep he thought a bunker buster 
could go he answered: ``. . . a couple of tens of meters maybe. I mean 
certainly--I really must apologize for my lack of precision if we in 
the administration have suggested that it was possible to have a bomb 
that penetrated far enough to trap all fallout. I don't believe that--I 
don't believe the laws of physics will ever let that be true.''
    Do you agree? If so, why should we move forward with the 
development of a nuclear bunker buster that inevitably will spew 
millions of cubic feet of radioactive debris in the atmosphere?
    Answer. I agree that a nuclear penetrator will never attain a depth 
to prevent all fallout. The recent National Academy of Sciences report 
on Earth Penetrating Weapons (EPWs) is entirely consistent with our 
long understanding of the capabilities and limitations of such a 
weapon. The downward shock multiplying effect of shallow penetration 
led us to field the B61-11 EPW in the 1990's and various precision 
conventional munitions in the last decade to address a growing threat 
from sanctuaries provided by a wide range of Hard and Deeply Buried 
Targets (HBDTs).
    At the present time, the nuclear weapon stockpile consists of 
weapons that were designed for Cold War missions. In order to place at 
risk most of the known HDBTs that are beyond our conventional earth 
penetration capability, our only option is a surface burst nuclear 
weapon 10 to 50 times more powerful than an equally effective nuclear 
earth penetrator, depending on the structural character of the target. 
Accordingly, the fallout is 10 to 50 times less for the smaller RNEP 
weapon.
    A serious shortfall in capability against HDBTs remains today. The 
completion of the RNEP study is necessary if we are to address all 
plausible capabilities to satisfy validated requirements and meet the 
President's direction for options to halt confidently a WMD attack on 
U.S. territory, troops, Allies, and friends, launched or supported from 
HDBT sanctuaries.

                        NATIONAL MISSILE DEFENSE

    Question. President Bush has requested $9 billion for missile 
defense for fiscal year 2006. The United States has spent $92 million 
on missile defense since 1983 and the Administration anticipates 
spending an additional $58 billion over the next six years. Some 
experts put the overall price tag at well over $150 million.
    Given the number of national defense priorities we face--providing 
for non-proliferation activities, deterrence, homeland security--how do 
you justify spending so much on missile defense?
    Answer. The threat to the United States, its deployed forces 
overseas, and its friends and allies from ballistic missile attack is a 
real one. Combined with the proliferation of weapons of mass 
destruction, this threat must be addressed, and our ballistic missile 
defense program is designed to do so.
    Since 1984, I understand that we've spent a little more than 1 
percent of our total Defense budget on ballistic missile defense. When 
one considers that we now have an initial capability to destroy 
incoming long-range missiles where before we had absolutely none, the 
money we have invested to develop this capability has been well spent. 
It is also worth noting that the Government Accountability Office has 
estimated that the damage from the attacks of September 11, 2001 cost 
the nation $83 billion. An attack by even a single ballistic missile 
equipped with weapons of mass destruction could no doubt cost the 
nation far more than that.
    Additionally, Department of Defense funding has contributed to the 
fielding of ground and sea based defenses to protect U.S. and allied 
forces from short and medium range missiles. The Patriot Advanced 
Capability-3 system, for example, performed successfully in an 
operational environment during Operation Iraqi Freedom, successfully 
intercepting and destroying enemy missiles in every engagement.
    I agree that non-proliferation, deterrence, and homeland security 
are all important defense priorities, and the Department is working to 
address each. In fact, as part of the New Triad, which combines active 
defenses with strike capabilities and a responsive infrastructure, our 
ballistic missile defense program plays an important role in stemming 
the spread of weapons of mass destruction, deterring our adversaries 
from attacking the United States with ballistic missiles, and defending 
the homeland in the event of a ballistic missile attack.
    Question. The missile defense system experienced two test failures 
in December, 2004 and February, 2005. The system was not declared 
operational at the end of 2004 as had been planned by the 
Administration.
    What criteria will you use to determine whether or not the system 
will be declared operational? When do you believe this will occur? Will 
you move forward with declaring the system operational if future tests 
fail?
    Answer. We have fielded the initial set of capabilities necessary 
to shoot down an incoming ballistic missile. The system is currently in 
a ``shakedown period'' under which our crews are gaining valuable 
experience in operating the system, and should some threat arise, we 
could transition the system from a test phase to an operational phase 
in a short period of time.
    A decision to put the system on a higher level of alert will be 
based on a number of factions. These factors include: the advice I 
receive from the Combatant Commanders, and other senior officials of 
the Department; our confidence in the operational procedures we have 
developed; demonstrated performance during both ground and flight 
tests; modeling and simulation; and the threat.

                                 ______
                                 
            Questions Submitted to General Richard B. Myers
            Questions Submitted by Senator Patrick J. Leahy

    Question. What type of submunition will the Army and Marine's 
Guided Multiple Launch Rocket System (GMLRS) carry? Will it have a 
self-destruct mechanism? What is its predicted failure rate?
    Answer. The M-30 Guided Multiple-Launch Rocket System (GMLRS) 
carries dual-purpose improved conventional munitions (DPICM) 
submunitions equipped with mechanical fuzes. A self-destruct fuze is 
not currently available to support production in fiscal year 2006. In 
operational testing, the dud rate at ranges between 20-60 kilometers 
was 1.8 percent, and the average dud rate of all other ranges (less 
than 20 kilometers and greater than 60 kilometers) was 3.65 percent.
    Question. Of the 1,026 (Army) and 648 (Marines) GMLRS rockets 
requested, how many would have unitary warheads and how many would 
carry submunitions?
    Answer. All M-30 GMLRS rockets procured in fiscal year 2006 will be 
equipped with DPICM submunitions. In accordance with fiscal year 2005 
appropriations language directing unitary munitions procurement 
acceleration, 486 GMLRS unitary variants with a two-mode fuze are being 
procured under a low-rate initial production (LRIP-II) contract. This 
unitary variant will be available in fiscal year 2007.
    Question. In February 2003 the Army awarded a contract to 
manufacture 500,000 self-destruct fuzes for 105 mm M915 artillery 
shells yet it has requested no money to retrofit those weapons. Why?
    Answer. The self-destruct fuze effort for the 105 mm M915 is new 
production, and, therefore, money for retrofit is not required.
    Question. Why was the Army's fiscal year 2005 request for money to 
retrofit 155 mm projectiles carrying submunitions with self-destruct 
devices cut from $42.2 million to $17.9 million in the final 
Appropriations Act?
    Answer. Fiscal year 2005 funding was redirected from 155 mm self-
destruct fuze retrofit because technological progress in the production 
of electronic self-destruct fuzing has not matured at the pace 
initially anticipated.
    Question. Were the 2,000 Hydra 70 MPSM HE M261 rockets requested by 
the Army in fiscal year 2005 actually procured?
    Answer. No. While the fiscal year 2005 budget request for Hydra 70 
rockets included an overall quantity of 176,000 for the Army, none of 
the requested munitions were of the multi-purpose submunition high 
explosive (MPSM HE) M261 variant. The Army's move to ``smarter'' Hydra 
70 rockets led to a realignment of overall Hydra funding and the end of 
procuring the MPSM HE M261 cluster munitions after fiscal year 2003.
    Question. Why did the Air Force decide not to request procurement 
money for the Wind Corrected Munitions Dispenser (WCMD) this year?
    Answer. The Air Force weighed its procurement priorities and chose 
to terminate the Wind Corrected Munitions Dispense--Extended Range 
(WCMD-ER) production starting in fiscal year 2006. While WCMD-ER would 
provide improvements over the existing WCMD inventory, the Air Force 
determined that WCMD-ER was not as important as other Air Force 
priorities.
    The Department of Defense continues to procure cluster munitions in 
the form of sensor fuzed weapons (SFW) for targets requiring cluster 
effects and also continues to evaluate the need for cluster munitions.
    Question. Why did the Secretary of Defense cut funding for the Air 
Force's WCMD-Extended Range in the Program Budget Decision, December 
2004?
    Answer. In the President's Budget for 2006, critical budget 
shortfalls were balanced, and the Department of the Air Force 
identified WCMD-ER for termination. While WCMD-ER would provide 
improvements over the existing WCMD inventory, the Department balanced 
the continued modification in light of other priorities.
    The Department of Defense continues to procure cluster munitions in 
the form of SFW for targets requiring cluster efforts and also 
continues to evaluate the need for cluster munitions.
    Question. Has the Air Force evaluated the performance of the CBU-
105 (Sensor Fuzed Weapon) in Iraq? Does it plan to do so?
    Answer. The Air Force has employed 68 CBU-105s in Operation IRAQI 
FREEDOM. Formal performance measures have not been collected due to the 
difficult nature of post-attack assessments of SFW submunitions. 
Assessment is difficult because the small projectiles do not leave 
readily identifiable damage other than small holes. Additionally, many 
CBU-105 targets were either completely destroyed or moved from their 
original locations by the Iraqi army. Anecdotally, the Air Force has 
received informal feedback from various credible sources in the field 
on CBU-105 performance, and it has all been extremely positive.
    Question. What weapon will the 15 CBU-87 cluster bomb dispensers 
the Air Force requested this year be used for?
    Answer. The 15 CBU-87(T-3)/B bomb dispensers requested are inert 
dispensers for use as air training munitions used in conjunction with 
the BLU-97(D-4)/B. The ``T-3'' nomenclature indicates a CBU-87 
dispenser equipped with a proximity sensor that initiates canister 
opening and dispersion of inert BLU-97(D-4)/B test submunition. The 
BLU-97 provides realistic training and evaluation of dispenser and 
munitions characteristics and can be dropped from a variety of 
aircraft.

                          SUBCOMMITTEE RECESS

    Senator Stevens. Thank you very much. Our next subcommittee 
meeting will be a closed session this afternoon at 2:30 to 
discuss classified programs in the 2006 budget. Our next open 
session will be Tuesday, May 10, at 10 a.m., when we will 
receive testimony on the defense medical programs.
    The subcommittee stands in recess. We thank you all for 
your attendance.
    Thank you.
    [Whereupon, at 12:25 p.m., Wednesday, April 27, the 
subcommittee was recessed, to reconvene at 10 a.m., Tuesday, 
May 10.]

</pre></body></html>
